<html>
<title> - S. 227, S. 288, S. 290, S. 982, AND S. 1853</title>
<body><pre>[Senate Hearing 116-67]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 116-67

              S. 227, S. 288, S. 290, S. 982, AND S. 1853

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 19, 2019

                               __________

         Printed for the use of the Committee on Indian Affairs

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



Available via the World Wide Web: http://www.govinfo.gov
                    
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-844 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------


                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               JON TESTER, Montana,
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                CATHERINE CORTEZ MASTO, Nevada
MARTHA McSALLY, Arizona              TINA SMITH, Minnesota
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 19, 2019....................................     1
Statement of Senator Barrasso....................................     9
Statement of Senator Cortez Masto................................     7
Statement of Senator Daines......................................    46
Statement of Senator Hoeven......................................     1
Statement of Senator Moran.......................................     8
Statement of Senator Murkowski...................................     6
Statement of Senator Schatz......................................     8
Statement of Senator Smith.......................................     5
Statement of Senator Udall.......................................     3
    Prepared statement...........................................     4

                               Witnesses

Addington, Charles, Director, Office of Justice Services, Bureau 
  of Indian Affairs, U.S. Department of the Interior.............    14
    Prepared statement...........................................    16
Demmert, Hon. Michelle, Chief Justice, Central Council Tlingit 
  and Haida Indian Tribes of Alaska Supreme Court................    18
    Prepared statement...........................................    20
Malerba, Hon. Lynn, Secretary, United South and Eastern Tribes 
  Sovereignty Protection Fund....................................    29
    Prepared statement...........................................    30
Toulou, Tracy, Director, Office of Tribal Justice, U.S. 
  Department of Justice..........................................    10
    Prepared statement...........................................    12

                                Appendix

Jackson, Hon. Ryan, Chairman, Hoopa Valley Indian Tribe of 
  California, prepared statement.................................    74
Joseph, Hon. Victor, Chief, Tanana Chiefs Conference, prepared 
  statement......................................................    72
Letters submitted for the record from:
    Former and current U.S. Attorneys............................    80
    Hon. Teri Gobin..............................................    76
    Lucy Simpson.................................................    79
    Hon. Chris Spotted Eagle.....................................    78
National Congress of American Indians, prepared statement........    65
National Indigenous Women's Resource Center, prepared statement..    53
Onco, Lacina Tangnaqudo, Congressional Advocate on Native 
  American Policy, Friends Committee on National Legislation, 
  prepared statement.............................................    64
Port Gamble S'Klallam Tribe, prepared statement..................    70
Response to written questions submitted by Hon. Brian Schatz to:
    Charles Addington............................................    82
    Hon. Michelle Demmert........................................    84
    Hon. Lynn Malerba............................................    83
Response to written questions submitted by Hon. Tom Udall to 
  Charles Addington..............................................    81

 
              S. 227, S. 288, S. 290, S. 982, AND S. 1853

                              ----------                              


                        WEDNESDAY, JUNE 19, 2019


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:39 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Hoeven, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. We will now call our hearing to order.
    Today, the Committee will hold a legislative hearing on 
five bills: S. 227, Savanna's Act; S. 288, the Justice for 
Native Survivors of Sexual Violence Act; S. 290, the Native 
Youth and Tribal Officer Protection Act; S. 982, the Not 
Invisible Act of 2019; and S. 1853, the Bridging Agency Data 
Gaps and Ensuring Safety (BADGES) for Native Communities Act.
    On January 25, 2019, Senators Murkowski and Cortez Masto 
introduced A. 227, Savanna's Act. This bill has 19 co-sponsors, 
including myself, Senators Udall, Cantwell, Capito, Coons, 
Cramer, Daines, Gillibrand, Harris, Heinrich, Klobuchar, 
Merkley, Murray, Smith, Sullivan, Tester, Tillis and Wyden. S. 
227 is named for Savanna LaFontaine Greywind from North Dakota.
    On August 19th, 2017, Savanna, a pregnant 22-year old 
member of the Spirit Lake Tribe, disappeared. Her body was 
found eight days later, north of Fargo, North Dakota, in the 
Red River. Although Savanna was tragically killed, her 
daughter, Haisley Jo, survived, and is living with her father. 
Both abductors are currently serving life sentences for their 
actions against Savanna and Haisley Jo.
    The bill is intended to improve cases of missing and 
murdered Native Americans by improving tribal access to Federal 
criminal data bases, requiring data collection of missing and 
murdered Native Americans, and directing the Attorney General 
to review, revise and develop law enforcement and justice 
guidelines for these types of cases. Today, the Committee will 
receive testimony on the bill, and I expect a substitute 
amendment to Savanna's Act be filed at a later time.
    The next bill is S. 288, the Justice for Native Survivors 
of Sexual Violence Act, introduced by Senator Smith, on January 
31st, 2019, along with Senator Udall. Similar versions of the 
bill were introduced in the 114th and 115th Congress by former 
Senator Al Franken.
    In 2013, Congress included a provision in the 
reauthorization of the Violence Against Women Act, VAWA, to 
allow Indian tribes to assert criminal jurisdiction over 
certain crimes and domestic violence committed in Indian 
Country by non-Indians. S. 288 will expand the Special Domestic 
Violence Jurisdiction to allow tribes to prosecute cases of 
sexual assault, sex trafficking and stalking against non-Indian 
member offenders. This legislation will also eliminate the 
requirement that offenders must have sufficient ties to the 
land, thereby ensuring that all non-Indian offenders can be 
prosecuted for their crimes against tribal members.
    On January 31st, 2019, Vice Chairman Udall introduced S. 
290, the Native Youth and Tribal Officer Protection Act. 
Senators Smith and Murkowski are co-sponsors. A prior version 
of this legislation was also introduced by Vice Chairman Udall 
in the 115th Congress.
    Like the previous bill we discussed, this bill will also 
expand criminal jurisdiction over non-Indians for crimes 
against children and crimes against tribal officials. The 
legislation also requires an increased interagency coordination 
among the Indian Health Service, IHS, and the Bureau of Indian 
Education, BIE, and the Bureau of Indian Affairs, BIA, to 
increase awareness of victim services available for survivors 
of domestic violence. Lastly, S. 290 will require the Federal 
employees and IHS, BIE and BIA receive training to recognize 
and appropriately respond to cases of domestic violence.
    On April 2nd, 2019, Senator Cortez Masto introduced S. 982, 
the Not Invisible Act of 2019, along with Senators Murkowski 
and Tester as co-sponsors. S. 982 directs the Secretary of the 
Interior to designate an official within the Bureau of Indian 
Affairs Office of Justice Services to coordinate prevention 
efforts, grants and programs across offices within the BIA and 
DOJ related to the murder, trafficking and recovery of missing 
persons in Indian Country. These efforts include the Office of 
Justice Programs, the Office of Violence Against Women, the 
Office of Community-Oriented Policing Services, the Office of 
Tribal Justice and other Federal agencies, as needed.
    The Not Invisible Act of 2019 also establishes a Joint 
Advisory Committee on reducing violent crime against Native 
people, the Joint Advisory Committee within the Department of 
the Interior and DOJ, which is to make recommendations to the 
Secretary of the Interior and the Attorney General on the 
actions both departments can take to help combat violent crime 
against Indians within Indian lands.
    On June 13th, 2019, Vice Chairman Udall introduced S. 1853, 
the Bridging Agency Data Gaps and Ensuring Safety for Native 
Communities Act, along with Senators Cortez Masto, Smith, 
Tester, Murkowski and McSally. The failure to properly collect 
and share criminal justice data in Indian Country is a well-
known barrier to ensuring public safety for many Native 
communities.
    Among other things, S. 1853 will address the issue of 
fragmented case information and compartmentalization between 
different law enforcement data systems. The bill will codify 
the DOJ's tribal access pilot program, which enhances the 
ability of tribal governments to access, enter, and obtain 
information from federally maintained law enforcement data 
bases.
    The Act also authorizes a five-year demonstration program 
to allow BIA to conduct its own background and security 
clearance checks for newly hired law enforcement personnel as 
well as a five-year DOJ grant program to support State, tribal 
and non-profit organization coordination efforts related to 
missing and murdered persons cases of interest to Indian 
tribes.
    Finally, S. 1853 directs the Comptroller General to review 
BIA and FBI evidence collection handling and processing for 
cases originating in Indian Country. The Comptroller General is 
to look for similar evidence to collection issues encountered 
by State and local law enforcement agencies that have assumed 
Federal jurisdiction over certain reservations.
    Now, before I turn to Chairman Udall for his statement, I 
do want to express disappointment that both departments did not 
turn testimony in on time. The Committee first notified 
departments four weeks ago regarding today's legislative 
hearing. So the testimony needs to be in on a timely basis. 
That does violate our Committee Rule 4(b). So again, in your 
testimony, we will ask you for the record to state why your 
testimony was not provided timely.
    Putting the testimony aside, I further understand that 
neither Administration witness is prepared to discuss the 
merits of this legislation today. The purpose of a legislative 
hearing is to be able to receive feedback on the legislation 
and not having this opportunity to hear from the witnesses on 
the merits of these bills is disappointing.
    However, I am still prepared to go forward with today's 
hearing, as we have witnesses that have traveled far to be 
here. That being said, I am prepared to give the Administration 
a hard deadline of July 8th to provide in writing to the 
Committee a definitive conclusion about each bill today.
    With that, I will turn to Senator Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Hoeven, for calling this 
hearing, and thank you to each of our witnesses for joining us 
in these important discussions.
    This Committee is well aware that public safety in Indian 
Country is a problem. We heard from tribal leaders, we have 
heard from law enforcement and we have heard from family 
members of Native victims. Today, we have an opportunity to 
take action and make good on our promises to improve public 
safety in Indian Country.
    All five bills up for discussion at this hearing put 
forward concrete solutions to address the two core barriers at 
the heart of the tribal public safety issues: jurisdiction and 
resources. Both barriers must be addressed together for Indian 
Country to see meaningful change.
    I think the Chairman has done a good job of summarizing the 
bills, so Mr. Chairman, I wanted to note my other frustration 
with DOI and DOJ. They are not only in violation of Committee 
Rule 4(b), as you have emphasized, but also, the Administration 
was unable to finalize its legislative reviews in time for this 
hearing. DOJ's testimony claims that as a direct result of 
Attorney General Barr's visit to Alaska, ``Department 
leadership at the highest levels have expressed a renewed 
commitment to improving public safety in Indian Country.''
    But where is the evidence of that renewed commitment here 
today? If the department truly stands ready to do its part, 
that is their quote, on addressing the MMIW crisis, why is it 
not prepared for this hearing? To be clear, the 
Administration's part is to provide views on this legislation 
in a timely fashion. Both departments have failed in that duty 
here. Today, it is only fair to question the sincerity of 
claims to a renewed commitment.
    As I said in my opening, these bipartisan bills are an 
opportunity for us to transform talk about the importance of 
improving tribal public safety into concrete action. I will not 
abide any more empty words. And Indian Country cannot and 
should not accept any more lip service. It is past time for the 
Administration to show some follow-through. Mr. Addington and 
Mr. Toulou, it falls to you to take this message back to your 
leadership. We all expect you to do your part and help move the 
needle forward on these priorities.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Udall follows:]

   Prepared Statement of Hon. Tom Udall, U.S. Senator from New Mexico
    Thank you, Chairman Hoeven, for calling this hearing. And, thank 
you to each of our witnesses for joining us for such an important 
discussion.
    This Committee is well aware that public safety in Indian Country 
is a problem. We've heard from Tribal leaders. We've heard from law 
enforcement. And we've heard from the family members of Native victims.
    Today, we have an opportunity to take action and make good on our 
promises to improve public safety in Indian Country.
    All five bills up for discussion at this hearing put forward 
concrete solutions to address the two core barriers at the heart of all 
Tribal public safety issues: jurisdiction and resources. Both barriers 
must be addressed together for Indian Country to see meaningful change.
    Indian Country criminal jurisdiction has been famously described as 
a journey through a ``maze.'' \1\
---------------------------------------------------------------------------
    \1\ Professor Robert N. Clinton, Criminal Jurisdiction Over Indian 
Lands: A Journey Through a Jurisdictional Maze, 18 Ariz. L. Rev. 503, 
504 (1976).
---------------------------------------------------------------------------
    Currently, when law enforcement is called to the scene of a crime, 
the officer must determine:

  <bullet> the nature of the crime;
  <bullet> the status of the land where the crime occurred;
  <bullet> whether the victim is a member of a Tribe; and
  <bullet> whether the offender is a member of a Tribe.

    Only once this multifactor test is complete can the officer 
determine whether the federal government, the state, or the Tribe has 
authority to act.
    It is no wonder that criminals exploit this jurisdictional maze, 
preying on Native women and children, and putting Tribal officers in 
harm's way.
    Senators Murkowski, Smith, and I introduced S. 290, the Native 
Youth and Tribal Officer Protection Act, and S. 288, the Justice for 
Native Survivors of Sexual Violence Act, to cut through that maze.
    These bills build on provisions in the 2013 Violence Against Women 
Act reauthorization that restored Tribal jurisdiction over domestic 
violence crimes.
    Tribes across the country have successfully implemented VAWA 2013 
authorities to get known violent offenders out of Tribal communities 
and off the streets.
    Together, both S. 288 and S. 290 will ensure that Tribes have more 
tools to keep families safe.
    But, closing jurisdictional gaps is only part of the solution. 
Tribes need the resources to effectively deploy the tools required to 
improve public safety in their communities.
    And as I've noted at several hearings over the last few months, 
lack of resources is slowing progress in the Committee's Tribal public 
safety response.
    That's why I've fought to increase funding for public safety 
programs at the B-I-A. And why I pressed the Department of Justice 
about whether its budget lives up to its federal trust and treaty 
responsibilities at our hearing in May.
    I'm committed to continue this work through the appropriations 
process. But, I also want to make sure existing federal resources are 
used effectively.
    S. 1853, the BADGES for Native Communities Act, does just that.
    My bipartisan bill puts forward common sense solutions to increase 
the efficiency of law enforcement resources. It will:

  <bullet> Improve the ability of officers and Tribes to share time-
        sensitive crime data,

  <bullet> Streamline B-I-A's officer recruitment procedures to get 
        qualified police out in the field faster, and

  <bullet> Incentivize increased cross-jurisdiction collaboration so 
        limited resources aren't wasted on duplication.

    The final two bills--S. 227, Savanna's Act, and S. 982, the Not 
Invisible Act--similarly tackle inefficiencies in federal resource 
coordination.
    Taken all together, these five bipartisan bills each represent a 
real opportunity to make meaningful progress on Tribal public safety.
    I hope we can all work together to get the provisions they contain 
enacted into law--either as stand-alone bills or as pieces of larger 
legislative packages.
    Finally, Mr. Chairman, I want to note my utter frustration that D-
O-I and D-O-J are not only--once again--in violation of Committee Rule 
``4-b'', but also that the Administration was unable to finalize its 
legislative views in time for this hearing.
    D-O-J's testimony claims that, as a direct result of Attorney 
General Barr's visit to Alaska, QUOTE ``Department leadership at the 
highest levels have expressed a renewed commitment to improving public 
safety in Indian Country.'' END QUOTE
    But, where is the evidence of that renewed commitment here today?
    And if the Department truly QUOTE ``stands ready to do [its] part'' 
END QUOTE on addressing the M-M-I-W crisis, why is it not prepared for 
this hearing?
    To be clear, the Administration's ``part'' is to provide views on 
this legislation in a timely fashion.
    Both Departments have failed in that duty here today. It is only 
fair to question the sincerity of claims to a ``renewed commitment''.
    As I said in my opening, these bipartisan bills are an opportunity 
for us to transform talk about the importance of improving Tribal 
public safety into concrete action.
    I will not abide any more empty words.
    And, Indian Country cannot--should not--accept any more lip 
service. It is past time for the Administration to show some follow 
through.
    Mr. Addington and Mr. Toulou, it falls to you to take this message 
back to your leadership. We all expect you to do your part and help 
move the needle forward on these priorities.
    Thank you.

    The Chairman. Before proceeding, I would ask if other 
members have opening statements before proceeding to the 
witnesses. Senator Smith.

                 STATEMENT OF HON. TINA SMITH, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Smith. Thank you very much, Chair Hoeven. I just 
want to say thank you to Chair Hoeven and to Vice Chair Udall 
for holding this hearing today on five important bills to 
address public safety in Indian Country, and to address 
violence against Native communities, and especially Native 
women everywhere.
    So I want to just note that I introduced my bill, S. 288, 
the Justice for Native Survivors Act, along with Senator Udall 
and Senator Murkowski, to expand the authority of the 2013 VAWA 
special domestic violence criminal jurisdiction to include 
crimes of sexual violence, sex trafficking and stalking. There 
is a crisis of missing and murdered indigenous because the 
Federal Government is not doing enough to address it. We are 
not responding to violence committed against Native 
communities, and we are not upholding our trust responsibility 
to keep those communities safe. So we really need to pass my 
legislation.
    So I want to say thank you again to my colleagues on this 
Committee for your partnership on these issues. And to our 
witnesses here today, I fully support all of the bills that we 
will be discussing this afternoon. I look forward to hearing 
your testimony to make sure that these bills work in Native 
communities to address the problems that we face. Thank you 
very much.
    The Chairman. Senator Murkowski.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman, and thank you 
to you, Vice Chairman Udall, for the hearing today. These are 
important bills, and I appreciate the leadership that we have 
had with so many of my colleagues on this Committee, Senator 
Smith, Senator Cortez Masto, Chairman, the Vice Chairman here.
    These are matters that I hope all of us find very, very 
troubling. The issue of missing and murdered indigenous women 
is troubling enough. The issue of women that are trafficked is 
awful to even think about. But part of our problem is, we don't 
even know what we don't know. So doing a better job in 
understanding and ascertaining whether it is the data, the 
collection, these are some of what we are trying to address 
with the bills that are before us.
    What we are all trying to do is to improve public safety 
and improve the justice system for our First Peoples, whether 
they be in Alaska, whether they be in reservations around the 
Country, whether they be in our urban centers. So I want to 
particularly welcome Michelle Demmert, who is the Chief Justice 
for Tlingit and Haida. She also serves as the NCAI VAWA Task 
Force Chair . I appreciate it a great, great, deal, Michelle, 
the work that you do on that. Your perspective on the 
importance of tribal provisions in VAWA, the need to strengthen 
them, these are so important for our efforts, so that we are 
informed here.
    I think an added benefit, and it goes beyond, that is such 
a weak way to term it, but the insights that you are able to 
provide of the unique challenges that face Alaska tribes is so 
important to this discussion here today. The visit that the 
Attorney General had to our State has already been mentioned. 
It will be mentioned again.
    I appreciate the fact that you came to the State, along 
with the Attorney General, Mr. Toulou, to again see what not 
only Alaska natives face in our more regional hubs, like 
Bethel, but out in a small, isolated village like Napaskiak, 
and to hear the Attorney General say, I have been briefed on 
these matters, I have come to the State and I have listened to 
you tell me about it. But when I come out and I see it, and I 
experience it as I walk with the people, then I am able to feel 
it in my heart.
    This is what we need to see reflected within our agencies, 
within the Department of Justice, within the Department of 
Interior. We need to have you feel it in your heart, because 
these women, these children, these families, that have 
suffered, that have been victims and been victims not just once 
but two and three and multiple times over, and for some 
generational victims, we have to feel it in our hearts before 
we are able to address this. So what must happen with this 
Committee, the leadership that we have here, bills like the 
handful that we have here, the expectations are that we are 
going to start making a difference . I think back on those 
people in Napaskiak who are now reflecting that these people 
from Washington, D.C. came and they took pictures and now they 
are gone, and has anything changed. Has anything changed for 
that community?
    I am bound and determined that we are not going to be in a 
situation where they say, they just came and took pictures and 
left. We are going to make a difference. So thank you for what 
you are doing, Michelle, with us, and in working to address 
this.
    Senator Cortez Masto and I have a substitute amendment to 
Savanna's Act that will not only address the crisis of murdered 
and missing Native women addressed throughout the Country, but 
it is not just in Indian Country, it is in our urban centers as 
well. That is important. I think it is important to state very 
clearly that I am very supportive of a concept that Congressman 
Young included in the House VAWA with an Alaska pilot. I look 
forward to addressing that on the Senate side as well.
    But whatever we can do to address the epidemic levels of 
violence against our indigenous women and people with my 
colleagues here on the Committee and in the Senate, as we work 
to strengthen VAWA, this is going to be very, very important . 
So thank you, Mr. Chairman, for advancing these.
    The Chairman. Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you. And thank you, I want to 
echo the comments and the passion of my colleague, Senator 
Murkowski. I truly believe we must do everything we can to 
address the epidemic of violence against indigenous women and 
children. This is a first start. And thank you for being here. 
I so appreciate it.
    I do want to talk about a couple of the bills. Particularly 
with Savanna's Act, I was honored to work with Senator 
Murkowski really to continue Senator Heitkamp's legacy here in 
the Senate . Because of Senator Heitkamp bringing this issue 
forward and highlighting it, we are able to carry these bills 
today, and particularly Savanna's Act. The data base access, 
law enforcement guidelines and data collection required by this 
bill are essential to improving the safety and security of 
Native women and girls. I am proud of the bipartisan work we 
have done on Savanna's Act and hope we can mark up the bill 
soon.
    I would also like to address the Not Invisible Act, and 
thank you again to my colleagues for joining me on this one as 
well. It works in tandem with Savanna's Act, addressing the 
crisis of missing, murdered and trafficked Native women by 
increasing Federal coordination and establishing an advisory 
committee of law enforcement service providers, Federal 
partners and survivors to make recommendations. Thank you again 
to my colleagues.
    Mr. Chairman, I would like to enter into the record two 
letters of support for the Not Invisible Act, one from the 
National Indigenous Women's Resource Center and one from Las 
Vegas Paiute Tribe.
    The Chairman. Without objection.
    Senator Cortez Masto. Thank you. I am also proud to support 
the other bills before this Committee today.
    The Chairman. Senator Moran.

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Mr. Chairman, thank you. I just want to let 
particularly the witnesses from the non-governmental side know 
that I am interested in this topic. I am leaving here in a 
moment . I was hoping to hear your testimony. The Veterans 
Affairs Committee, of which Senator Tester is also a member, is 
having a hearing today on veteran suicide, including 
legislation that Senator Tester and I authored. So I need to 
leave for there, and I am slower getting to the places that I 
need to be than I used to be. But I want you to know how 
interested I am in this topic.
    And to the Administration witnesses, I was interested to 
hear, I am the Appropriations Chairman for the Department of 
Justice, interested in hearing how we can be of help to this 
cause. And to my colleagues on the Committee, particularly 
those who are the sponsors and co-sponsors of this legislation, 
please consider us an ally and reach out to us. We are 
interested in trying to be of help .
    Mr. Chairman, thank you very much.
    The Chairman. Senator, were you asking to have the non-
governments proceed first, so you can stay and hear them?
    Senator Moran. I need to leave now, thank you.
    The Chairman. Oh, okay. Senator Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Mr. Chairman and Vice Chairman, 
for holding this hearing. It is clear that our system as it 
stands today is failing men, women and children in Native 
communities across the Country. We need to do more, so thank 
you for your leadership.
    In 2017, this Committee held a hearing on human trafficking 
in Indian Country. One of the things that stood out to me was 
the significant amount of child exploitation cases in 
communities with high Native children populations, including 
Hawaii. A recent study of internet service providers and child 
pornography activities found that our own Department of Defense 
ranks 19th out of 2,891 networks nationwide when it comes to 
peer-to-peer file trading of child pornography. Again, 19th out 
of nearly 3,000 networks. That is astounding, and that is 
something that we can do something about.
    So last Congress, Senator Murkowski and I worked together 
to introduce legislation called the End National Defense 
Network Abuse Act, also called the End Network Abuse Act. Our 
bill will help the Department of Defense stop the widespread 
abuse of the DOD's network to traffic in child pornography. I 
want to thank Senator Murkowski for her leadership and her 
partnership and for her work as an advocate of all Native 
children.
    Thank you, Mr. Chairman.
    The Chairman. Senator Barrasso.

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you, Mr. Chairman. Mr. Chairman, it 
goes without saying, but I want to underscore the importance of 
today's discussion. The bills that we are discussing here today 
seek to address a problem so horrifying that often it is hard 
to know where to begin. This Committee has heard time and again 
from families whose loved ones never came home. Stories of 
lives irreparably changed by a violent act, murder, rape, 
kidnapping, domestic violence, human trafficking. They affect 
women and children in Indian Country at an astonishing and 
unacceptable level.
    And those are just the cases that we know about. In 2016, 
the Department of Justice issued a report that said that four 
out of five American Indian and Alaska Native men and women 
have experienced violence at least once in their lives. We know 
that the vast majority of these crimes are personal, difficult 
to discuss and often do go unreported.
    As then-Chairman and Ranking Member of this Committee, 
Senator Tester and I, requested that the GAO study human 
trafficking and violence in Indian Country. When the GAO issued 
their reports in 2018, they found that of 6,100 investigations 
and 1,000 prosecutions for human trafficking in the United 
States, during the years 2013 to 2016, that only 14 
investigations and only 2 Federal prosecutions involved an 
American Indian and Alaska Native individual. I said it then, I 
will say it now, I do not believe that there were that few 
cases involving tribal members. Nobody in this room believes 
that. I believe violent crimes, like human trafficking, are 
underreported, under-investigated and under-prosecuted.
    This is not a new problem. For years, this Committee has 
heard story after story of women and children who disappear 
without a trace. We wait, no justice is carried out for them. 
The families may never know what became of their son or their 
daughter or their sister or their mother.
    Access to data about the scope of the problem has 
challenged this Committee, it has challenged the Department of 
Justice, it has challenged the Department of Interior, and it 
has challenged the tribes for decades. The bills we are 
discussing today seek to address those reporting, data sharing 
and data access issues. I look forward to the testimony about 
how those bills can be used and how they can be improved.
    I would also raise one other issue. Many tribal communities 
need more law enforcement officials. They need more boots on 
the ground. in Wyoming, the Wind River police department has 
long struggled with an effort to fill all of their positions. 
There are times when all positions are filled on paper, but 
officers may be detailed to other reservations or in training 
or in some other assignment.
    Wind River is 2.2 million acres. That is 3,500 square 
miles. It is larger than the State of Delaware. Sometimes there 
are as few as 10 to 15 officers on the ground to patrol that 
area. Response times and public safety suffers when officers 
may have to travel 45 minutes in order to reach an emergency.
    Law enforcement officers have high-stress jobs and when so 
many positions are vacant or inactive, leave or sick days are 
not an option. So burnout is always a serious concern. Not only 
do these officers and these departments need access to the 
information, they need to have the capacity to do something 
with it.
    As we hear this testimony today, we must listen to these 
witnesses, hear their suggestions and work to implement them. I 
look forward to working with the members of this Committee to 
ensure that the next several years are not filled with studies 
and stories. So thank you, Mr. Chairman, and thanks to all the 
witnesses for being here today.
    The Chairman. We will now hear from our panel of witnesses. 
We will begin with Mr. Tracy Toulou, Director, Office of Tribal 
Justice
    U.S. Department of Justice, then Mr. Charles Addington, 
Deputy Bureau Director, Office of Justice Services, Bureau of 
Indian Affairs, U.S. Department of the Interior, Washington, 
D.C., the Honorable Michelle Demmert, Chief Justice, Central 
Council, Tlingit and Haida Indian Tribes of Alaska, Juneau, 
Alaska, and Honorable Lynn Malerba, Secretary, United South and 
Eastern Tribes Protection, Washington, D.C.
    I want to remind the witnesses; your full testimony will be 
made part of the official hearing record. Please keep your 
statement to five minutes, if you would, so that we have time 
for questions. With that, we will begin with Mr. Toulou.

STATEMENT OF TRACY TOULOU, DIRECTOR, OFFICE OF TRIBAL JUSTICE, 
                   U.S. DEPARTMENT OF JUSTICE

    Mr. Toulou. Chairman Hoeven, Vice Chairman Udall, members 
of the Committee, thank you for the opportunity to discuss 
these five bills which address a number of longstanding threats 
to public safety throughout tribal communities. We have worked 
with the Senate Committee on Indian Affairs staff on numerous 
occasions on the development of these bills, and we would like 
to express our appreciation for your efforts to address 
difficult and sometimes complex issues collaboratively.
    Thank you for the outreach by your staff. This level of 
outreach is unprecedented in my 25 years of working on public 
safety issues with Indian communities.
    Attorney General Barr's visit to Alaska villages earlier 
this month gave leadership at the Department of Justice an 
opportunity to hear directly from tribal representatives about 
public safety challenges in their communities, and to bear 
witness to the consequences of historically inadequate support. 
The issues that were raised by tribal leaders, service 
providers and community members overlap with many of the issues 
in the five bills under discussion today.
    During the trip, Attorney General Barr promised to remain 
mindful of the urgency that underscores the request for support 
from public communities. He charged the department with moving 
on an expedited basis to address the public safety issues we 
saw represented in Napaskiak, Galena and Bethel.
    The five bills under discussion today build on an ongoing 
effort to meet a higher standard for supporting law enforcement 
and victims services in tribal communities, by making better 
use of resources, further improving interagency coordination, 
and demanding accountability for results. The department is 
committed to meeting a higher standard across these areas to 
achieve substantial, sustainable improvements in public safety 
in Native communities.
    The Department appreciates that many of these bills under 
discussion today address numbers of missing and murdered 
people, especially women in Native communities. From a legal 
perspective, missing persons and murder cases are two different 
issues that require different law enforcement responses. 
However, the term ``missing and murdered'' outside a strict 
legal perspective goes far beyond investigating procedures and 
legal definitions. ``Missing and murdered'' has become a call 
to action to address crimes and public safety conditions that 
result in loved ones lost and domestic violence, sexual 
assault, substance abuse, and inadequate law enforcement 
resources. The department supports efforts by this Committee to 
answer the call to action and we stand ready to do our part.
    The current draft of Savanna's Act reflects a number of 
discussions between the department and the Committee staff. The 
result is a series of clear and targeted actions that are 
intended to help the department operate more efficiently, 
partner more effectively with tribal, State and local agencies 
responding to these reports, and enhance tribal governments' 
capacity to develop their resources as well. The department 
would like to work with the Committee to address the impact of 
the newly drafted Section 7 on existing grant opportunities, 
and will reach out to Committee staff to discuss these 
technical issues.
    The BADGES for Native Communities Act is the most recent of 
the five under discussion today, and is still under review by 
the department. We are encouraged by the language that supports 
further expansion of our Tribal Access Program. TAP has 
developed into a program of great benefit to participating 
tribes and their agencies, from law enforcement to courts to 
sex offender registries. This bill would help the department 
continue to develop TAP and deepen our ability to support 
effective law enforcement partnerships in and around Native 
communities.
    Both the Justice for Native Survivors of Sexual Violence 
Act and the Native Youth and Tribal Office of Protection Act 
would expand tribal special domestic violence jurisdiction over 
non-Native offenders, which responds to feedback that we have 
heard for years from tribal representatives. Because exercising 
criminal jurisdiction is such a crucial aspect of sovereignty, 
the department would welcome an opportunity to work with the 
Committee to ensure that the legislation will weather judicial 
challenges.
    We appreciate the sustained focus of this Committee on 
improving law enforcement coordination. The department would 
like to work with the Committee on the Not Invisible Act of 
2019 to ensure that it achieves the important goals of this 
legislation, which includes increasing coordination and 
identifying and combating violent crime in Native communities.
    The Department of Justice works to enhance public safety, 
and continues to be shaped by our commitment to tribal 
governments, to improving coordination and collaboration at 
Federal, tribal, State and local levels, and to be 
appropriately accountable for the work we do. The department 
and tribes are partners in ensuring public safety in Indian 
Country. We recognize the challenges faced by tribes are 
generally best met by tribal solutions.
    Our most effective policies and practices in Native 
communities are a result of the close collaboration with tribal 
experts and joint implementation with tribal partners. The 
department appreciates the work of this Committee to continue 
to improve public safety in Indian Country. We thank you again 
for the chance to provide testimony today.
    [The prepared statement of Mr. Toulou follows:]

Prepared Statement of Tracy Toulou, Director, Office of Tribal Justice, 
                       U.S. Department of Justice
    Chairman Hoeven, Vice Chairman Udall, and Members of the Committee:
    Thank you for the opportunity to discuss S. 227, Savanna's Act; S. 
288, Justice for Native Survivors of Sexual Violence Act; S. 290, 
Native Youth and Tribal Officer Protection Act; S. 982, Not Invisible 
Act of 2019; and S. 1853, Bridging Agency Data Gaps and Ensuring Safety 
(BADGES) for Native Communities Act, which address a number of long-
standing threats to public safety throughout Tribal communities. We 
have worked with the Senate Committee for Indian Affairs staff on 
numerous occasions in the development of these bills. These discussions 
have been productive and substantive; we would like to express our 
appreciation for your efforts to address difficult and sometimes 
complex issues collaboratively. Thank you for that outreach, which we 
hope will continue as these bills progress and new legislation is 
developed.
    Attorney General Barr's visit to Alaska earlier this month gave 
leadership at the Department of Justice (Department) an opportunity to 
hear directly from Tribal representatives about the public safety 
challenges in their communities and to bear witness to the consequences 
of historically inadequate support. The issues that were raised by 
Tribal leaders, service providers and community members overlap with 
many of the issues in the five bills under discussion today. During the 
trip Attorney General Barr promised to be mindful of the urgency that 
underscores requests for support from Native communities. As a result 
of time spent in Alaska, Department leadership at the highest levels 
have expressed a renewed commitment to improving public safety in 
Indian country and Native villages and is directly engaged in seeing 
that commitment through.
    The Tribal Law and Order Act of 2010 changed the way the Department 
works in and provides support to Native communities. The five bills 
under discussion today build on current efforts to meet a higher 
standard for supporting law enforcement and victim services in Tribal 
communities by making better use of resources, further improving 
interagency coordination, and demanding accountability for results. The 
Department is committed to meeting a higher standard across these areas 
to achieve substantial, sustainable improvements in public safety in 
Native communities.
    The Department appreciates that so many of the bills under 
discussion today address the numbers of missing and murdered people, 
especially women, in Native communities. From a legal perspective, 
missing persons and murder cases are two very different issues that 
require different law enforcement responses. However, the term 
``missing and murdered'' outside of a strict legal perspective goes far 
beyond investigative procedures or legal definitions. ``Missing and 
murdered'' has become a call to action to address the crimes and public 
safety conditions that result in loved ones lost to domestic violence, 
sexual assault, substance abuse, and inadequate law enforcement 
resources. The Department supports efforts by this Committee to answer 
this call to action and stands ready to do our part.
    Savanna's Act focuses on the need for improved protocols in 
responding to reports of missing persons, the need for improved access 
to law enforcement databases, and accountability for increased 
Departmental engagement in investigations and cases of missing persons 
or murder cases in Indian country. Committee staff have reached out to 
the Department a number of times on this particular bill and we 
continue to appreciate the opportunities to provide technical 
assistance. In the course of these discussions with Committee staff, we 
have been able to describe ongoing efforts by the Department to better 
respond to these critical issues and impediments to progress, such as 
jurisdictional constraints and lack of law enforcement resources. The 
current draft language reflects those discussions and the result is a 
series of clear and targeted actions that are intended to help the 
Department operate more efficiently, partner more effectively with 
Tribal, State, and local agencies responding to these reports, and 
enhance Tribal governments' capacity to develop their responses as 
well. The Department would like to work with the committee to address 
the impact of the newly-drafted Section 7 on existing grant 
opportunities and will reach out to Committee staff to discuss these 
technical issues.
    The BADGES for Native Communities Act also seeks to improve 
information sharing practices and programs, establishing a Tribal 
liaison for the National Missing and Unidentified Persons System 
(NamUs), addressing hiring issues at the Bureau of Indian Affairs, 
establishing grant resources to respond to missing persons and murder 
cases, and establishing accountability measures. This bill is the most 
recent of the five under discussion today, and is still under review by 
the Department. We are encouraged by the language that supports further 
expansion of our Tribal Access Program (TAP). TAP was created to 
fulfill information sharing mandates established in the Tribal Law and 
Order Act of 2010, thus helping Tribes protect their communities. It 
has developed into a program of great benefit to participating Tribes 
and their agencies, from law enforcement to courts to sex offender 
registries. This bill would help the Department continue to develop TAP 
and deepen our ability to support effective law enforcement 
partnerships in and around Native communities. This bill also responds 
to concerns we hear from Tribal representatives about the need for 
dedicated resources and better information sharing to respond more 
effectively to reports of crime in their communities, including missing 
persons reports. The Department would like to work with the Committee 
on some of the current language. For example, we see opportunities to 
address compatibility issues between Federal Bureau of Investigation 
Criminal Justice Information Services databases and NamUs, to ensure 
improved information sharing, as intended. The Department also proposes 
a technical fix to add ``or Tribal'' after ``if authorized by State'' 
and ``, Tribal,'' after ``to officials of State'' in 34 U.S.C.  41101 
(commonly known as PL 92-544). This would allow Tribes, consistent with 
authority that States already possess through this law, to authorize 
the use of criminal justice databases for official non-criminal justice 
record checks such as checks for those working with the elderly, 
developmentally-disabled adults, candidates for elections, and others.
    Both the Justice for Native Survivors of Sexual Violence Act and 
the Native Youth and Tribal Officer Protection Act would expand Tribal 
special domestic violence criminal jurisdiction over non-Native 
offenders, which responds to feedback we have heard for years from 
Tribal representatives. The Native Youth and Tribal Officer Protection 
Act in particular addresses a number of scenarios often related to 
incidents of domestic violence: crimes against children and crimes 
against first responders in these incidents. The Department has 
repeatedly expressed support for the existing special domestic violence 
jurisdiction, but has taken a measured approach to ensure that 
jurisdictional expansion will be supported by the courts. Because 
exercising criminal jurisdiction is such a crucial aspect of 
sovereignty, the Department would welcome an opportunity to work with 
the Committee to ensure that the legislation will weather judicial 
challenges.
    The Native Youth and Tribal Officer Protection Act also mandates 
that Federal agencies coordinate more effectively on support for Tribal 
justice systems and for programs providing services to victims. 
Increased interagency coordination was a critical component of the 
Tribal Law and Order Act that has led to more effective partnerships 
and improvements in Federal support to Tribal governments. The 
Department appreciates that this bill would apply similar measures to 
specifically support Tribal justice systems and victims of crime in 
Indian country. Importantly, the Native Youth and Tribal Officer 
Protection Act would require that training on recognizing and 
responding to domestic violence be available to both Tribal and Federal 
employees working in Native communities. This is responsive to feedback 
the Department has received from Tribal representatives about the need 
for more community-based platforms to address public safety issues.
    The Not Invisible Act of 2019 addresses the broader issue of 
violent crime in Native communities. In addition to forming an advisory 
committee to examine violent crime in Native communities, the bill 
would establish more centralized oversight of activities, grants, and 
programs at the Department of the Interior. The Department would like 
to work with the Committee on the language of this bill to ensure it 
achieves its stated goals of increasing coordination, and identifying 
and combatting violent crime in Native communities.
    The Department of Justice's work to enhance public safety continues 
to be shaped by our commitment to empowering tribal governments; to 
improving coordination and collaboration at the Federal, Tribal, State, 
and local levels; and to be appropriately accountable for the work we 
do. The Department and Tribes are partners in ensuring public safety in 
Indian country, and we recognize that challenges faced by the Tribes 
are generally best met by Tribal solutions. Indeed, the best success 
stories and the most effective policies and practices in Indian country 
are the result of close collaboration with Tribal experts and joint 
implementation with Tribal partners. The Department appreciates the 
work of this Committee to improve public safety in Indian country, to 
hold the agencies to the high standards that Tribes deserve and 
urgently need, and to collaborate on legislative development to ensure 
the best results. Thank you again for the chance to provide testimony 
today and we would welcome the additional opportunity to work with the 
Committee on the development of these bills. I would be happy to answer 
any questions you may have.

    The Chairman. Director Toulou, I would like you to put on 
record the reason for the late testimony.
    Mr. Toulou. Yes. And I understand why the Committee wants 
that testimony in advance, and I apologize for the delay in 
providing the testimony. These are very complicated bills, 
there are a lot of different, moving pieces, has a lot of 
different equities for the department. That is not an excuse, 
but there were a lot of people that needed to weigh in. We are 
going to work to more effectively get it through our process in 
the future.
    The Chairman. Thank you.
    Mr. Charles Addington, Deputy Bureau Director, Office of 
Justice Services, BIA. Mr. Addington.

  STATEMENT OF CHARLES ADDINGTON, DIRECTOR, OFFICE OF JUSTICE 
           SERVICES, BUREAU OF INDIAN AFFAIRS, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Addington. Thank you, and good afternoon, Chairman 
Hoeven, Vice Chairman Udall and members of the Committee. My 
name is Charles Addington, I am the Director for the Office of 
Justice Services for the Bureau of Indian Affairs of the 
Department of Interior.
    Thank you for the opportunity to provide testimony on 
behalf of the department regarding the following bills: S. 288, 
Justice for Native Survivors of Sexual Violence Act; S. 290, 
Native Youth and Tribal Officer Protection Act; and S. 982, Not 
Invisible Act of 2019, and S. 1853, Bridging Agency Data Gaps 
and Ensuring Safety for Native Communities Act, which is 
BADGES.
    S. 288, Justice for Native Survivors of Sexual Violence 
Act, amends the Indian Civil Rights Act of 1968 to expand the 
definitions of domestic and dating violence to include not just 
violence but any violation of the criminal law of the Indian 
tribe that has jurisdiction over the Indian Country where the 
violation occurs that is committed by a Native victim's 
intimate or dating partner. The bill also extends the criminal 
jurisdiction of tribal courts over non-Indians to cover crimes 
involving sex trafficking, stalking, and sexual violence. We 
support continued the dialogue and efforts to address these 
serious offenses that occur in Indian Country communities. We 
applaud the effort to equip tribes with additional tools to 
address domestic violence and sex crimes occurring within 
Indian Country.
    S. 290, the Native Youth and Tribal Officer Protection Act, 
amends the Indian Civil Rights Act of 1968 to extend the 
criminal jurisdiction of tribal courts over non-Indians to 
cover crimes including violence against children committed by 
their caregivers and against officers who respond to calls 
involving the exercise of tribal criminal jurisdiction over 
non-Indians.
    S. 290 also calls on the Secretary of the Interior and the 
Secretary of Health and Human Services to coordinate with the 
Attorney General to ensure that Federal programs to support 
Tribal justice systems and the provision of victim services 
work together, and that training materials on recognizing and 
responding to domestic violence are available to the Bureaus 
that directly serve Indian Country.
    We look forward to working with the Committee to equip 
tribes with additional tools to address criminal offenses 
occurring within Indian Country.
    S. 982, the Not Invisible Act of 2019, requires the 
Secretary of the Interior to designate an official within BIA 
Office of Justice Services to coordinate interagency efforts to 
address the issue of missing, murdered, and trafficked Indians. 
The bill establishes a Joint Advisory Committee composed of 
members from the BIA Office of Justice Services; Federal, 
state, local, and tribal law enforcement agencies; tribal 
judges and officials; health care practitioners; advocacy 
organizations; and Indian individuals who have been personally 
affected by violence or human trafficking.
    The Joint Advisory Committee will develop strategies, best 
practices, and recommendations for the Secretary of the 
Interior to better address violent crime in Indian Country. We 
applaud the intent of the bill, but would like to work with the 
Committee to ensure that the bill effectively improves 
coordination across all Federal agencies.
    S. 1853, the Bridging Agency Data Gaps and Ensuring Safety, 
or BADGES, for Native Communities Act, requires Federal law 
enforcement agencies to report on cases of missing or murdered 
Indians. The department provides the following comments on the 
draft bill.
    Section 101, entitled Federal Law Enforcement Database 
Reporting Requirements, addresses the collection of verifiable 
data, which continues to be a gap in identifying crime trends 
in Indian Country. The department looks forward to working with 
the Committee on this important issue, and coordinating with 
other Federal partners to strengthen crime data reporting.
    Section 201 establishes a demonstration program that allows 
the Director of BIA Office of Justice Services to conduct or 
adjudicate personnel background investigations for law 
enforcement officers. This would assist BIA in eliminating one 
of the biggest obstacles we face with regard to recruitment and 
result in the expedited hiring of qualified law enforcement 
officers and getting boots on the ground. I applaud the 
Committee for its efforts to assist BIA OJS on this critical 
issue.
    We are also pleased that Section 204, BIA and Tribal Law 
Enforcement Officer Counseling Resources Interdepartmental 
Coordination, establishes and maintains a mental health 
wellness program for Indian Country law enforcement officers. 
These much-needed resources would help ensure our most precious 
public safety resource, which is our staff, have access to the 
mental health resources needed when they experience 
occupational stress.
    Section 202, Missing and Murdered Response Coordination 
Grant Program, establishes a grant program that will build 
capacity to better respond to missing and murdered cases of 
interest to Indian tribes. However, as drafted, entities 
eligible to apply for the grant program include ``relevant 
Tribal stakeholder'' which is defined in Section 2(14) and 
includes Indian tribes, tribal organizations, national or 
regional organizations that represent a substantial Indian 
constituency and have expertise in human trafficking, violence 
against women and children, or tribal justice systems.
    By using ``relevant Tribal stakeholder,'' grant eligibility 
is open to a variety of entities. National and regional 
organizations would be able to compete with Indian tribes for 
grant program funding. However, Indian tribes should not have 
to compete for this important Federal grant funding with other 
entities who are not directly responsible for tribal citizens 
in Indian Country.
    The department supports the intent of S. 1853 and looks 
forward to working with the Committee on these and additional 
technical issues.
    In conclusion Mr. Chairman, thank you for the opportunity 
to provide testimony on these important matters. We can, and 
must, do more to address violence in Indian Country and shine a 
light on this crisis. Although we have implemented some sound 
strategies to enhance public safety in Indian Country, we have 
a lot of work ahead of us. I am encouraged by Congress's 
efforts to address these important issues through legislation. 
The department will continue to work with the Committee and our 
Federal, tribal and state partners to strengthen our efforts to 
keep our Indian Country communities safe.
    I am happy to answer any questions you may have. Also, for 
the record, I want to apologize for our testimony being late. 
It did get held up in the clearance process, and we were able 
to finally work through and resolve some testimony issues. So 
we do apologize, and we will do a better job of getting it to 
the Committee in a timely manner.
    [The prepared statement of Mr. Addington follows:]

 Prepared Statement of Charles Addington, Director, Office of Justice 
  Services, Bureau of Indian Affairs, U.S. Department of the Interior
    Good afternoon Chairman Hoeven, Vice Chairman Udall and Members of 
the Committee. My name is Charles Addington and I am the Director of 
the Office of Justice Services (OJS) in the Bureau of Indian Affairs 
(BIA) at the Department of the Interior (the Department).
    Thank you for the opportunity to present this statement on behalf 
of the Department regarding the following bills: S. 288, Justice for 
Native Survivors of Sexual Violence Act; S. 290, Native Youth and 
Tribal Officer Protection Act; and S. 982, Not Invisible Act of 2019, 
and S. 1853, Bridging Agency Data Gaps and Ensuring Safety (BADGES) for 
Native Communities Act. Each of these bills is discussed below.
S. 288
    S. 288, Justice for Native Survivors of Sexual Violence Act, amends 
the Indian Civil Rights Act of 1968 (25 U.S.C.  1304) to expand the 
definitions of domestic and dating violence to include not just 
``violence'' but ``any violation of the criminal law of the Indian 
tribe that has jurisdiction over the Indian Country where the violation 
occurs'' that is committed by a Native victim's intimate or dating 
partner. The bill also extends the criminal jurisdiction of tribal 
courts over non-Indians to cover crimes involving sex trafficking, 
stalking, and sexual violence. We support continued dialogue and 
efforts to address these serious offenses that often occur in Indian 
Country communities. We applaud the effort to equip tribes with 
additional tools to address domestic violence and sex crimes occurring 
within Indian Country.
S. 290
    S. 290, Native Youth and Tribal Officer Protection Act, amends the 
Indian Civil Rights Act of 1968 (25 U.S.C.  1304) to extend the 
criminal jurisdiction of tribal courts over non-Indians to cover crimes 
including violence against children committed by their caregivers and 
against officers who respond to calls involving the exercise of tribal 
criminal jurisdiction over non-Indians. S. 290 also calls on the 
Secretary of the Interior and the Secretary of Health and Human 
Services to coordinate with the Attorney General to ensure that Federal 
programs to support Tribal justice systems and the provision of victim 
services work together, and that training materials on recognizing and 
responding to domestic violence are available to the Bureaus that 
directly serve Indian Country (BIA, Bureau of Indian Education and the 
Indian Health Service). We look forward to working with the Committee 
to equip tribes with additional tools to address criminal offenses 
occurring within Indian Country.
S. 982
    S. 982, Not Invisible Act of 2019, requires the Secretary of the 
Interior to designate an official within BIA OJS to coordinate 
interagency efforts to address the issue of missing, murdered, and 
trafficked Indians. The bill establishes a Joint Advisory Committee 
composed of members from BIA OJS; federal, state, local, and tribal law 
enforcement agencies; tribal judges and officials; health care 
practitioners; advocacy organizations; and Indian individuals who have 
been personally affected by violence or human trafficking. The Joint 
Advisory Committee will develop strategies, best practices, and 
recommendations for the Secretary of the Interior to better address 
violent crime in Indian Country. We applaud the intent of the bill, but 
would like to work with the Committee to ensure that the bill 
effectively improves coordination across all federal agencies.
S. 1853
    S. 1853, the Bridging Agency Data Gaps and Ensuring Safety (BADGES) 
for Native Communities Act, requires Federal law enforcement agencies 
to report on cases of missing or murdered Indians. The Department 
provides the following comments on the draft bill:
    Section 101, entitled Federal Law Enforcement Database Reporting 
Requirements, addresses the collection of verifiable data, which 
continues to be a gap in identifying crime trends in Indian Country. 
The Department looks forward to working with the Committee on this 
important issue, and coordinating with other Federal partners to 
strengthen crime data reporting.
    Section 201 establishes a demonstration program that allows the 
Director of BIA OJS to conduct or adjudicate personnel background 
investigations for law enforcement officers (LEOs). This would assist 
BIA in eliminating one of the biggest obstacles we face with regard to 
recruitment and result in the expedited hiring of qualified LEOs. I 
applaud the Committee for its efforts to assist BIA OJS on this 
critical issue.
    We are also pleased that Section 204, BIA and Tribal Law 
Enforcement Officer Counseling Resources Interdepartmental 
Coordination, establishes and maintains mental health wellness programs 
for Indian Country LEOs. These much-needed resources would help ensure 
our most precious public safety resource, our staff, have access to the 
mental health resources needed when they experience occupational 
stress.
    Section 202, Missing and Murdered Response Coordination Grant 
Program, establishes a grant program that will build capacity to better 
respond to missing and murdered cases of interest to Indian tribes. 
However, as drafted, entities eligible to apply for this grant program 
include ``relevant Tribal stakeholder'' which is defined in Section 
2(14) and includes Indian tribes, tribal organizations, national or 
regional organizations that represent a substantial Indian constituency 
and have expertise in human trafficking, violence against women and 
children, or tribal justice systems. By using ``relevant Tribal 
stakeholder'', grant eligibility is open to a variety of entities. 
National and regional organizations would be able to compete with 
Indian tribes for grant program funding. However, Indian tribes should 
not have to compete for this important federal grant funding with other 
entities who are not directly responsible for tribal citizens in Indian 
Country.
    The Department supports the intent of S. 1853 and looks forward to 
working with the Committee on these and additional technical issues.
Conclusion
    Mr. Chairman, thank you for the opportunity to provide testimony on 
these important matters. We can, and must, do more to address violence 
in Indian Country and shine a light on this crisis. Although we have 
implemented some sound strategies to enhance public safety in Indian 
Country, we have a lot of work ahead of us. I am encouraged by 
Congress's efforts to address these important issues through 
legislation. The Department will continue to work with the Committee 
and our federal, tribal and state partners to strengthen our efforts to 
keep our Indian Country communities safe.
    I am happy to answer any questions you may have.

    The Chairman. Thank you. Chief Justice Demmert.

  STATEMENT OF HON. MICHELLE DEMMERT, CHIEF JUSTICE, CENTRAL 
COUNCIL TLINGIT AND HAIDA INDIAN TRIBES OF ALASKA SUPREME COURT

    Ms. Demmert. Good afternoon. Thank you, Chairman Hoeven, 
Vice Chairman Udall, Senator Murkowski, members of the 
Committee, for inviting me to testify today on legislation that 
is critically important to Indian Country.
    My name is Michelle Demmert, and I am an enrolled citizen 
of the Central Council of Tlingit and Haida Indian Tribes of 
Alaska where I am also the elected Chief Justice of our Supreme 
Court. Tlingit and Haida is a federally recognized tribal 
government with over 30,000 citizens serving 18 villages and 
communities spread over 43,000 square miles within Southeast 
Alaska. Our citizens are among the largest, most isolated, and 
most geographically dispersed tribal populations nationwide. 
Most of our communities have no roads in or out, and must rely 
on planes and boats for both day-to-day needs and emergencies. 
About one-half of our citizens live in our villages, and the 
other half in urban areas like Seattle, Juneau and Anchorage.
    The bills before you provide a path to change. We welcome 
many of the reforms included in the bills under discussion 
today, and recognize the importance of improving protocols, 
data sharing and coordination. However, real, lasting change 
will come only when the essential role that tribal governments 
must play in developing and implementing solutions is fully 
recognized.
    For the 229 Indian tribes in Alaska, it requires our full 
inclusion under current and any future legislation. These bills 
continue the progress made under VAWA 2013. The VAWA 2013 
tribal provisions, reaffirming the inherent authority of Indian 
tribes to prosecute non-Indians for some DV-related crimes, was 
a positive step forward. But more is needed.
    The current criminal system fails to protect tribal people 
and tribal communities. Unfortunately, as the members of the 
Committee and Indian tribes know, Native victims are more 
likely to be injured as a result of violent victimization, more 
likely to need services, and are significantly less likely to 
have access to services compared to non-Native counterparts. 
Alaska Native women are especially at risk and are over-
represented in domestic violence crimes by 250 percent.
    The urgent question of the day is immediate passage and 
implementation of the necessary legislation to provide Native 
children and other victims with the same protections as what 
was provided for women in VAWA 2013.
    I also want to note that DV is rarely, if ever, a crime 
committed in isolation. There are often other victims. The 
National Congress of American Indians' five-year report on the 
exercise of VAWA jurisdiction has reported positive results 
with the recognition of the tribes' inherent authority over DV 
crimes. Tribal legal systems are working. People are being 
convicted or acquitted as the facts dictate. Many of the 
concerns expressed by opponents of the provisions have not come 
true. Tribal courts are upholding the rights of defendants, and 
no defendant has requested Federal court review.
    On the other side, the concerns of tribes, of crimes not 
being punished, is still occurring. Perpetrators of crimes 
against children and elders in the home, crimes against law 
enforcement, corrections and the courts, related to the DV 
incident, cannot be prosecuted by tribal governments. In 
addition, we are seeing the lack of prosecutions within Indian 
Country and on Indian lands and crimes of sexual assault, 
stalking and/or trafficking committed by a non-Indian.
    I will provide you an illustration from a tribe located in 
the State of Michigan. A non-Indian man in an intimate 
relationship with a tribal member from the Sault Ste. Marie 
Tribe moved in with her and her 16-year old daughter. After the 
man began unwanted sexual advances on the girl, sending 
inappropriate text messages and on one occasion groping the 
daughter, the tribe charged the defendant with domestic abuse 
and attempted to tie the sexual assault against the daughter 
against the mother in order to fit it into VAWA.
    The tribal court dismissed the charges for lack of 
jurisdiction, and the defendant left the victim's home. Four 
months later, he was arrested by State police for kidnapping 
and repeatedly raping a 14-year old tribal member.
    The kidnapping and rape of a minor could have been 
prevented if the tribe had been able to exercise jurisdiction 
in the first case. The 14-year old will suffer from this 
violence her entire life. Change did not happen in time for 
these victims.
    Two of the bills before you today, S. 290 and S. 288, would 
change that, and I strongly support their passage. In Alaska, 
228 of the 229 tribes are effectively unable to take advantage 
of the protections of VAWA 2013 because it requires a crime to 
have occurred within Indian Country, which Alaska does not 
have. Similarly, we would be unable to make use of the 
authorities in these two bills, and ask that you adopt H.R. 
1585 language around Alaska, and create a pilot project that 
will enable tribes to build the infrastructure necessary for 
our communities.
    Our communities are suffering with high rates of murders, 
many of which remain unsolved. In our Alaska communities, our 
tribal women and leaders are the first responders to crime 
scenes and must await hours or even days for law enforcement to 
arrive and begin their investigation. Sadly, the evidence is 
often stale or unusable even with safeguards.
    As for the MMIW crisis, substantial change is needed. While 
increasing the response to MMIW cases is important, 
prioritizing the attention to providing advocacy and support to 
women and girls to prevent abductions and murders is critical. 
Support is needed at the front line where women and girls are 
experiencing sexual violence from birth to death. Support from 
the Federal Government for these much-needed services now, in 
addition to the criminal justice reform, will help save Native 
women's lives.
    I thank you for your attention to these bills and to your 
support for really meaningful change. The bills before you are 
urgently needed, and will save lives across Indian Country. I 
urge every member of this Committee to support them. 
Gunalcheesh. Haw'aa. Thank you.
    [The prepared statement of Ms. Demmert follows:]

  Prepared Statement of Hon. Michelle Demmert, Chief Justice, Central 
    Council Tlingit and Haida Indian Tribes of Alaska Supreme Court
    My name is Michelle Demmert, and I am an enrolled citizen of the 
Central Council of Tlingit and Haida Indian Tribes of Alaska (Tlingit & 
Haida), and the elected Chief Justice of our Supreme Court.
    Tlingit & Haida is a federally-recognized tribal government with 
over 30,000 citizens worldwide, and has an active, government-to-
government relationship with the United States. The Tribe serves 18 
villages and communities spread over 43,000 square miles within 
Southeast Alaska. More than 7,000 tribal citizens reside in Juneau, 
with several thousand more located in Anchorage. Beyond that, a 
significant amount of tribal citizens reside in Washington State (more 
than 6,000), and smaller numbers stretch into Oregon and the rest of 
the world. Tlingit & Haida tribal citizens are among the largest, most 
isolated, and most geographically dispersed tribal populations 
nationwide. In Southeast Alaska, where the Tribe provides the majority 
of its services, most communities have no roads in or out, and must 
rely on planes and boats for both day-to-day needs and emergencies.
    I am also the co-chair of the National Congress of American 
Indians' Task Force on Violence Against Women and the Alaska Native 
Women's Resource Center's Law and Policy Consultant. The NCAI Task 
Force, since its establishment in 2003 has assisted Indian tribes in 
advocating for national legislative and policy reforms to strengthen 
tribal government authority and access increased resources to safeguard 
the lives of American Indian and Alaska Native women. The Alaska Native 
Women's Resource Center is a nonprofit organization dedicated to ending 
violence against women in partnership with Alaska's 229 tribes and 
allied organizations.
    Thank you for inviting me to testify on behalf of my Tribe on 
Savanna's Act, Justice for Native Survivors of Sexual Violence Act, 
Native Youth and Tribal Officer Protection Act (NYTOPA), Not Invisible 
Act, and Bridging Agency Data Gaps & Ensuring Safety for Native 
Communities Act (BADGES). I would like to clarify that unfortunately 
two of these bills, NYTOPA and Justice For Native Survivors, do not 
address the specific challenges confronting Alaska Indian tribes. The 
testimony I provide on these two bills will be from our perspective in 
the larger context of the importance to Indian tribes in the lower 
forty-eight. I have a unique perspective on many of these proposed laws 
as I was the point of contact for one of the original three Pilot 
Project Tribes exercising special domestic violence court jurisdiction 
beginning February 2014, as well as the point of contact during the 
Pilot User Feedback Phase of the Tribal Access Program (TAP). I saw 
first-hand the benefits of the restoration of jurisdiction over non-
Indian perpetrators of domestic violence as well as the process for 
utilizing the National Crime Information Center database for purposes 
intended through the creation of the Tribal Access Program. Factor in 
my role in Alaska, I can address first-hand the importance of the 
enhanced jurisdictional improvements as well as the challenges that we 
face, and how these laws will impact those realities in our 
communities.
    I would like to begin by providing an overview of the challenges 
confronting Alaska Indian tribes in creating safe villages for our 
citizens, specifically women, and provide recommendations to address 
these challenges. In this context, I will also provide an overview of 
the importance of the tribal provisions of Violence Against Women 
Reauthorization Act, H.B. 1585, especially the provisions that open 
these protections to tribes in Alaska and creating a pilot project.
I. Jurisdictional challenge: exclusion of Alaska tribes under the 
        definition of Indian country
    The 2013 Indian Law and Order Commission (ILOC) issued the Report, 
``A Roadmap for Making Native America Safer'' and devoted a chapter to 
the unique issues in Alaska. \1\ The Report found that the absence of 
an effective justice system has disproportionately harmed Alaska Native 
women who are continually targeted for all forms of violence. The 
Commission found that Alaska Native women are over-represented in the 
domestic violence victim population by 250 percent; they comprise 19 
percent of the state population but are 47 percent of reported rape 
victims. And among other Indian Tribes, Alaska Native women suffer the 
highest rates of domestic and sexual violence in the country. Alaska 
Indian tribes lack and desperately need access to tribal and state 
justice services, those services are centered in a handful of Alaska's 
urban areas, making them often more theoretical than real. As 
mentioned, many tribes have no advocacy services, law enforcement, no 
911, no state official they could conceive of raising a complaint to, 
given the separation of geography, language, and culture. 
Jurisdictional issues in Alaska create extremely dangerous conditions 
for our small, remote communities.
---------------------------------------------------------------------------
    \1\ A Roadmap for Making Native America Safer: Report to the 
President and Congress of the United States (November 2013), available 
at http://www.aisc.ucla.edu/iloc/report/.
---------------------------------------------------------------------------
    An instructive statement contained in the ILOC report states: ``The 
strongly centralized law enforcement and justice systems of the State 
of Alaska . . . do not serve local and Native communities adequately, 
if at all. The Commission believes that devolving authority to Alaska 
Native communities is essential for addressing local crime. Their 
governments are best positioned to effectively arrest, prosecute, and 
punish, and they should have the authority to do so--or to work out 
voluntary agreements with each other, and with local governments and 
the State on mutually beneficial terms.''--Indian Law and Order 
Commission Report, 2013 (emphasis added).
    Historically, Alaska tribes have been treated differently than 
lower 48 tribes, confusing the fundamentals of tribal court 
jurisdiction resulting in recognized disparities which justified the 
FY17 appropriations for an Alaska Native Tribal Resource Center on 
Domestic Violence. \2\ With the passage of the Alaska Native Claims 
Settlement Act (ANCSA) in 1971, the only remaining reservation in the 
state is the Annette Island Reserve in Southeast Alaska. \3\ Rather 
than recognize sovereign tribal lands, ANCSA tasked the for-profit 
corporations to manage more than 40 million acres of fee land. ANCSA 
divided the state into 12 regional corporations and over 200 village 
corporations that would identify with their regional corporation. Many 
of these villages had corresponding tribal village governments, but 
with the passage of ANCSA, the tribal governments were left with no 
meaningful land base. As a result, unlike most court systems that have 
defined territorial jurisdiction and personal jurisdiction, Alaska 
Tribal courts generally exercise jurisdiction through tribal 
citizenship, and not through a geographic space defined as ``Indian 
country'' because of ANCSA and in part due to a United States Supreme 
Court case.
---------------------------------------------------------------------------
    \2\ ``A Tribal Perspective on VAWA 2018,'' Restoration-V15.3-
October 2018. www.NIWRC.org.
    \3\ 25 U.S.C. 495 (1891).
---------------------------------------------------------------------------
    As a result of the United States Supreme Court's unfavorable 
decision in Alaska v. Native Village of Venetie Tribal Government, 522 
U.S. 520 (1998), most of the tribes' traditional territory is not 
considered ``Indian country.'' Without the ability to tax, without 
Indian gaming, and without consistent and predictable tribal justice 
appropriations, Alaska tribes lack the revenue typically available to 
other tribal governments to fund and sustain essential governmental 
programs. All Alaska tribes are in a similar position and must find 
innovative ways to raise government revenue and to leverage other 
resources to sustain their tribal courts and public safety programs. As 
a result of this resource dilemma, available grants for developing and 
maintaining programs are incredibly important for Alaska tribes.
    Domestic violence and sexual assault survivors in Alaska Native 
villages are often left without any means to seek help and justice for 
the crime against them because many villages lack advocacy services and 
law enforcement. When law enforcement does finally arrive, sometimes 
the evidence is stale, or the chain of custody can no longer meet 
applicable legal standards, and the case cannot be prosecuted. In 
addition, tribal victims of domestic violence crimes may need to leave 
their home village to seek safety for themselves and their children. In 
a 2018 case in a small remote interior village, a victim waited 17 days 
to get out of the village to safety. During this time the victim had 
been treated at the clinic, called law enforcement (Alaska State 
Troopers) located in a hub community one hour away by plane. The 
weather was unflyable for 3 weeks and the victim could not even get a 
charter plane to pick her up so she could go to a neighboring village 
to relatives, she could not get to a regional medical clinic for 
further treatment, or law enforcement could not get into the community 
for an investigative report. There was no safe home or safe housing 
available and so she had to wait, afraid that her partner would find 
out that she was trying to leave. Whether a tribe has advocacy services 
or public safety personnel makes a difference if victims have support 
and someone to call for help.
    Recent studies such as the newly released, National Institute of 
Justice, Research Report on the Violence Against American Indian and 
Native Women and Men, document the dire safety circumstances that 
Alaska Native villages are in as a result of their unique geographic 
situation. One startling statistic is that 38 percent of Native victims 
are unable to receive necessary services compared to 15 percent of non-
Hispanic white female victims. \4\ Our young woman described above 
waited in fear for more than two weeks to get to safety.
---------------------------------------------------------------------------
    \4\ Rosay, Andre B., ``Violence Against American Indian and Alaska 
Native Women and Men,'' NIJ Journal 277 (2016): 38-45, available at 
http://nij.gov/journals/277/Pages/violence-against-american-indians-
alaska-natives.aspx.
---------------------------------------------------------------------------
II. S. 290, Native Youth and Tribal Officer Protection Act & S. 288, 
        Justice for Native Survivors of Sexual Violence Act
    The expanded jurisdiction under S. 290 and S. 288, as currently 
written, will not benefit the 228 Alaska Indian tribes who are 
currently ineligible to exercise Special Domestic Violence Criminal 
Jurisdiction pursuant to VAWA 2013. We call on Congress for a 
jurisdictional fix to the Alaska Native Indian country issue, and were 
pleased to see the Alaska Native pilot project included in the House 
VAWA bill, HR 1585. I urge the Senate to include a similar provision in 
S. 290 and S. 288. Outside of Alaska, many tribes have been exercising 
jurisdiction over non-Indians pursuant to VAWA 2013 for over 6 years. I 
have had the privilege of working with many of the tribes through an 
Inter-tribal Working Group on Special Domestic Violence Criminal 
Jurisdiction. They have held serial offenders accountable and have 
brought justice and safety to hundreds of victims and their families. 
Tribes have done so while upholding the due process rights of all 
defendants in tribal courts. Despite these successes, there are gaps in 
the law. Even after implementing VAWA 2013, tribal prosecutors are 
unable to charge defendants for crimes related to abuse or endangerment 
of a child; for sexual assault, stalking or trafficking committed by a 
stranger or acquaintance; or for crimes that a defendant might commit 
within the criminal justice system like assault of an officer, 
resisting arrest, obstruction of justice, or perjury.
    The tribes prosecuting non-Indians report that children are 
involved in their cases over 60 percent of the time as victims and 
witnesses. These children deserve justice. A 2016 study from the 
National Institute for Justice (NIJ), found that approximately 56 
percent of Native women experience sexual violence within their 
lifetime, with 1 in 7 experiencing it in the past year. \5\ Nearly 1 in 
2 report being stalked. \6\ Unlike the general population where rape, 
sexual assault, and intimate partner violence are usually intra-racial, 
Native women are more likely to be raped or assaulted by someone of a 
different race. NIJ found that 96 percent of Native women and 89 
percent of male victims reported being victimized by a non-Indian. \7\ 
Native victims of sexual violence are three times as likely to have 
experienced sexual violence by an interracial perpetrator as non-
Hispanic White victims. \8\ Similarly, Native stalking victims are 
nearly 4 times as likely to be stalked by someone of a different race, 
with 89 percent of female stalking victims and 90 percent of male 
stalking victims reporting inter-racial victimization. \9\ S. 288, 
Justice for Native Survivors of Sexual Violence, would amend 25 U.S.C. 
1304 to include sexual assault, stalking, and trafficking crimes 
committed in Indian Country. It would untie the hands of tribal 
governments and allow them to extend the same protections to victims of 
sexual violence and stalking as are available to domestic violence 
victims. All victims of sexual violence, child abuse, stalking, 
trafficking, and assaults against law enforcement officers deserve the 
same protections that Congress afforded to domestic violence victims in 
VAWA 2013. S. 290 and S. 288 would close these gaps.
---------------------------------------------------------------------------
    \5\ Andre B. Rosay, Nat'l Inst. of Justice, Violence Against 
American Indian and Alaska Native Women and Men: 2010 Findings from the 
National Intimate Partner and Sexual Violence Survey, U.S. Dep't of 
Justice 11 (2016), available at https://www.ncjrs.gov/pdffiles1/nij/
249736.pdf.
    \6\ Id., at 29.
    \7\ Id., at 18.
    \8\ Id., at 29.
    \9\ Id., at 32.
---------------------------------------------------------------------------
    The repeal of section 910 of VAWA 2013 was a victory as it was a 
necessary step towards removing a discriminatory provision in the law 
that excluded all but one Alaska tribe from enhancing their response to 
violence against Native women in ways afforded other federally 
recognized tribes. Nevertheless, because of the Venetie decision, 
additional reforms are needed before Alaska tribes will be able to 
increase safety for Alaska Native women and hold all offenders 
accountable. This is because section 904 of VAWA 2013 limits the 
exercise of the special domestic violence criminal jurisdiction 
restored to tribes to certain crimes committed in ``Indian country.'' 
Yet, at the same time, the State does not have the resources to provide 
the level of justice needed in tribal communities and ultimately the 
State is not the local, tribal authority. In the NIJ report, we learned 
that American Indian and Alaska Native women are 3 times more likely to 
experience sexual violence by an interracial perpetrator than non-
Hispanic White-only females. \10\ Alaska Indian tribes need to be able 
to exercise special domestic violence criminal jurisdiction to address 
these staggering statistics.
---------------------------------------------------------------------------
    \10\ Id. at 18.
---------------------------------------------------------------------------
    H.R. 1585 begins to address these jurisdictional challenges. It 
recognizes a tribe's territorial jurisdiction equivalent to the 
corresponding village corporation's land base and traditional territory 
AND our own Representative Young, who voted in favor of HB 1585, 
expanded the jurisdiction definition of the pilot project to include 
``all lands within any Alaska Native village with a population that is 
at least 75 percent Alaska Native.'' \11\ In addition, removing the 
requirement of ``Indian country'' to enforce a protection order would 
assist Alaska Tribal villages and provide stronger footing for 
enforcing protection order violations.
---------------------------------------------------------------------------
    \11\ A federal regulation was developed after the U.S. District 
Court for the District of the Columbia held that exclusion of Alaska 
tribes from the land-into-process was not lawful. See Akiachak Native 
Community v. Salazar, 935 F. Supp. 2d 195 (D.D.C. 2013). The State of 
Alaska appealed the decision and its motion to stay was granted to 
prevent the DOI from considering specific applications or taking lands 
into trust in Alaska until resolution of the appeal. On December 18, 
2014, the DOI published its final rule rescinding the ``Alaska 
Exception,'' which became effective on January 22, 2015. 79 Fed. Reg. 
76888. However, this process was essentially suspended by Solicitor's 
opinion, M- 37043, June 29, 2018, which withdrew the Solicitor's 
Opinion on taking land into trust in Alaska.
---------------------------------------------------------------------------
    We have a desperate need for the reforms included in S. 290 and S. 
288 as is illustrated in the following story from an implementing 
tribe: A non-Indian man in an intimate relationship with a tribal 
member from the Sault Sainte Marie tribe moved in with her and her 16-
year-old daughter. After the man began making unwanted sexual advances 
on the girl, sending inappropriate text messages, and on one occasion 
groping the daughter, the tribe charged the defendant with domestic 
abuse and attempted to tie the sexual assault against the daughter to a 
pattern of abuse against the mother. The tribal court dismissed the 
charges for lack of jurisdiction and the defendant left the victim's 
home. Four months later, he was arrested by city police for kidnapping 
and repeatedly raping a 14-year old tribal member. Unfortunately, he 
was ultimately allowed to plead no contest to two less serious charges 
and was sentenced to 11 months in jail. This kidnapping and rape of a 
minor could have been prevented if the tribe had been able to exercise 
jurisdiction in the first case. Her life will never be the same. \12\
---------------------------------------------------------------------------
    \12\ VAWA 2013'S Special Domestic Violence Criminal Jurisdiction 
Five-Year Report,'' p. 24, (March 2018), vailable athttp://
www.ncai.org/resources/ncai-publications/SDVCJ_5_Year_Report.pdf.
---------------------------------------------------------------------------
    The United States has a federal Indian trust responsibility to the 
first people of the United States. In several cases discussing the 
trust responsibility, the Supreme Court has used language suggesting 
that it entails legal duties, moral obligations, and the fulfillment of 
understandings and expectations that have arisen over the entire course 
of the relationship between the United States and the federally 
recognized tribes. However, since Alaska entered the Union, the State 
has been ceded the federal jurisdiction among tribes and as a result 
left us without access to necessary resources.
    NYTOPA and Justice for Native Survivors Act Recommendations: We 
strongly support the Native Youth and Tribal Officer Protection Act. 
NYTOPA recognizes that Native children and law enforcement personnel 
involved in domestic violence incidents on tribal lands are equally in 
need of the protections that were extended to adult domestic violence 
victims in VAWA 2013. We also strongly support the Justice for Native 
Survivors of Sexual Violence Act to close another loophole in the SDVCJ 
provision of VAWA 2013 to ensure that Tribes have authority to 
prosecute sexual assault, sex trafficking, and stalking crimes. We 
appreciate Senator Udall, Senator Murkowski, and Senator Smith's effort 
to advance legislation that will fill some of the gaps in jurisdiction 
that continue to leave women and children without adequate protection 
on tribal lands. As the Committee continues its work, we have some 
technical suggestions to strengthen these bills--many of which were 
included in the tribal provisions included in HR 1585--that we look 
forward to discussing with you.
III. S. 227, Savanna's Act
    The outrage and anguish of the Native families who have lost loved 
ones to violence--who's mothers, daughters, sisters, and aunties have 
disappeared or been murdered--has recently propelled a conversation 
about missing and murdered indigenous women to the national level. But 
these deaths, these missing women, are the devastating manifestation of 
centuries of oppression and broken systems that have failed to protect 
Native women and children from birth to death for generations. It is 
the outgrowth of imposed poverty, institutional and individual racism 
that stems from the colonialism that as recently as my father's 
generation required attendance at boarding schools and forbade him from 
speaking his native language. Today we have no closure with many of our 
women dying unexpectedly and unnaturally. The manner of death, while it 
is far too often considered ``suspicious'' and often with visible 
injuries, they are classified as accidental, suicidal, or undetermined. 
In the village of Klawock, where my family is from, police suspected 
``foul play'' in the unnatural death of Francile Ella Turpin (37) on 
January 14, 2018, a year later, there is no resolution. \13\ Why is it 
that our women and families do not get the closure regarding the cause 
of death that other nationalities and the general population take for 
granted? Many of our communities lack law enforcement or even any 911 
services to speak of, so who do they call? The first responders are 
often volunteer medics whose first inclination is to address the 
injury. The possibility that there could be a crime committed is not 
even contemplated, and the scene can easily be contaminated before a 
semi-qualified individual can preserve the scene. Other potential first 
responders are tribal leaders, and our volunteer women advocates go to 
attempt to preserve any crime.
---------------------------------------------------------------------------
    \13\ https://www.ktva.com/story/37289178/klawock-police-say-foul-
play-suspected-in-womans-death
---------------------------------------------------------------------------
    How do we track the missing and murdered? We don't. NamUs is about 
the only database that tracks MMIW and while it does contain valuable 
information, it is a volunteer system and it does not currently talk to 
the FBI CJIS's Missing persons file, which is the system law 
enforcement is most likely to use. Anyone can have access to NamUs. All 
they have to do is set up an account and enter the information they 
want to enter about a missing person. The NamUs staff take that 
information and confirm with Law Enforcement before it can go out 
publicly. There are fewer missing Native persons in NamUs than there 
are in FBI CJIS's missing persons file, likely because law enforcement 
does not use it in the same way. NamUs is completely voluntary and was 
originally set up to try to match remains found with people who were 
missing. FBI CJIS's database is also voluntary except for entry of 
missing persons under age 18 which is mandatory, and then some states 
have mandatory missing person reports to CJIS by their state law, but 
it is way less than half. A tribe, and every person, have access to 
initiate cases in NamUs, however, the net effect of going that route is 
unknown. In addition, what does reliance on NamUs tell our MMIW 
families? Law enforcement has failed you, therefore you must now take 
on this duty. If they do not embrace this philosophy what happens? Will 
they be blamed for the lack of data?
    According to National Institute of Justice, the NamUs team was in 
Alaska October 2018 to do outreach with several law enforcement 
agencies, the Alaska medical examiner, Department of Public Safety, and 
others. During those discussions it was raised that there is a backlog 
in digitizing about 200 missing persons cases. Apparently, there is 
only one person currently working the backlog (Search and Rescue 
Program Coordinator, Missing Persons Clearinghouse Manager, Alaska 
State Troopers). That is not to say those cases are not being worked, 
.just that they are not digitized thus unknown how many of those 1200 
cases are American Indian and Alaska Natives.
    As for missing persons, Alaska has the highest number of any state 
in the union and these are not per capita numbers. As of January 2019, 
out of the 347 missing Alaska Native and American Indian people in the 
NamUs system 74 of those were from Alaska--the most of any state. 
Overall, 92 percent have been missing for less than a year, and the 
majority of cases are male--about 1/3 to 2/3 respectfully. Why does it 
take so long to work our cases compared to other populations?
    As for the murder epidemic, the Violence Policy Center reports that 
Alaska is ranked first among states with the highest homicide rates of 
women by men and is the most violent state, with Anchorage as the most 
violent city within the Union. The Seattle-based Urban Indian Health 
Institute reports that Alaska is among the top ten states with the 
highest number of missing and murdered Native Americans and Alaska 
Natives. We respectfully request that we protect the health and 
wellness of our urban American Indian and Alaska Native community by 
adding key elements throughout the legislation
    The House version of Savanna's Act, H.R. 2733, contains provisions 
that amended and corrected errors identified by tribes and tribal 
advocates in the original Senate version of the bill, S. 277. While we 
support the passage of Savanna's Act, our support currently extends to 
H.R. 2733. As to both versions of the bill, we remain concerned that 
both bills lack new funding--a resource that has been identified as 
critical in addressing the crisis of MMIW.
    Significant changes in H.R. 2733 from the S. 277 include provisions 
that expand the requirement for the creation of law enforcement 
guidelines to all U.S. Attorneys, not just those with Indian Country 
jurisdiction, and require such guidelines to be regionally appropriate. 
This change is critical as is demonstrated by a recent OIG study that 
found that the Tribal Law and Order Act requirements to the US 
Attorney's Offices has not worked well and creates inconsistent 
programs. \14\ Requiring all US Attorneys to create regionally 
appropriate guidelines will not accomplish what you all intend if there 
is not more local participation and control from the tribes.
---------------------------------------------------------------------------
    \14\ ``We found that not all districts ensure that TLOA 
requirements are being met and most Tribal Liaisons work autonomously 
and carry out duties at their own discretion.'' OIG Review of the 
Department's Tribal Law Enforcement Efforts Pursuant to the Tribal Law 
and Order Act of 2010, Evaluations and Inspections Division 19 
(December 2017).
---------------------------------------------------------------------------
    Recommendations to Savanna's Act: We urge the Senate to utilize 
H.R. 2733 as a starting point, but we continue to express concerns 
regarding the lack of new funds and recommend the Senate address these 
concerns in the mark-up of the bill.

  <bullet> The resources under the Act are proposed by allowing tribes 
        to use existing, limited funds they currently receive under the 
        Tribal Governments Grant Program to address the development of 
        a protocol to respond to MMIW cases.

  <bullet> Current funding under the Tribal Governments Grant Program 
        is inadequate and does not reach all Indian Tribes. If tribal 
        governments had adequate funds, they would already be 
        developing such protocols and increased responses.

  <bullet> Thus, funds for the incentives to tribes complying with 
        Savanna's Act will be taken from the funds currently received 
        by all Indian Tribes under the grant program, these funds are 
        already less than adequate to respond.

  <bullet> Indian tribes need additional resources to broaden and 
        address the crisis of MMIW. Further stretching of existing 
        funds, a tribe receives to provide incentives to others, falls 
        short of ``increasing support'' to Indian tribes.

  <bullet> Broadening the purpose areas for these grant programs does 
        not address the reality or restore the authority that the 
        Supreme Court's decision in Oliphant erased, leaving tribes 
        unable to investigate, arrest, and prosecute the perpetrators 
        who commit the majority of violent crimes on tribal lands.

  <bullet> We need to include references to urban Indian communities 
        and data in the legislative findings.

  <bullet> We should create or include urban conferral policies where 
        tribal consultation is included for tribal governments, as long 
        conference does not threaten or undermine tribal sovereignty 
        and the government-to-government relationship.

  <bullet> The Definitions section should be inclusive of urban Indian 
        people and organizations. As mentioned, we have over 6000 
        citizens in Washington State, with most in the Seattle area. 
        Other urban areas have similarly significant populations that 
        need to be considered.

  <bullet> Adopt the House approach of requiring the Attorney General 
        to publicly list the law enforcement agencies that comply with 
        the provisions of the legislation (rather than list those that 
        do not comply); and

  <bullet> Replace the affirmative preference subsections with an 
        implementation and incentive section that provides grant 
        authority to law enforcement organizations to implement the 
        provisions of the legislation and offers an incentive for those 
        that state and local agencies that comply, while removing the 
        preference provision in S. 277 that will punish Tribal Nations 
        lacking sufficient resources to implement the guidelines their 
        local U.S. Attorney creates.

IV. S. 982, Not Invisible Act of 2019
    As required by a provision included in VAWA 2005, DOJ holds an 
annual consultation with tribal governments on violence against women. 
For several years tribal leaders have raised concerns at the annual 
consultation about the inadequate response to cases of missing or 
murdered Native women. DOJ summarized tribal leader testimony on this 
issue in 2016:
    ``At the 2016 consultation, many tribal leaders testified that the 
disappearance and deaths of American Indian and Alaska Native (AI/AN) 
women are not taken seriously enough, and that increased awareness and 
a stronger law enforcement response are critical to saving Native 
women's lives. They noted that missing AI/AN women may have been 
trafficked, and they also provided examples of abusers who murdered 
their partners after engaging in a pattern of escalating violence for 
which they were not held accountable. Tribal leaders also raised 
concerns that cases involving Native victims are often mislabeled as 
runaways or suicides, and that cold cases are not given sufficient 
priority. Recommendations included the creation of a national working 
group to address these issues and an alert system to help locate 
victims soon after they disappear, as well as the development of an 
Indian country-wide protocol for missing Native women, children, and 
men.'' \15\ With the creation of the task force within this act, you 
will be acting on the recommendations of tribal nations at the 2016 OVW 
Consultation.
---------------------------------------------------------------------------
    \15\ U.S. Department of Justice, Office on Violence Against Women, 
``2017 Update on the Status of Tribal Consultation Recommendations,'' 
(20).
---------------------------------------------------------------------------
    Recommendations to the Not Invisible Act: We support the Not 
Invisible Act as a bipartisan bill to increase national focus on the 
silent crisis of missing and murdered Indigenous women. The increased 
awareness and attention to the issue of missing and murdered Indigenous 
women is long overdue and a critical first step to fully understanding 
the injustices and defining solutions. However, as written, the burden 
falls primarily on DOI to meet the requirements of the law and there is 
very little included to ensure that DOJ comes to the table as a full 
partner; as a matter of practice, it can be extremely difficult to 
require meaningful coordination and collaboration across Departments, 
and this must be a joint responsibility. We encourage you to include 
language that requires DOJ to also designate a lead staffer and point 
of contact for the work and to include reporting requirements for each 
agency to facilitate ongoing congressional oversight. We also recommend 
clarifying that victim advocates and the tribal domestic violence and 
sexual assault coalitions should be represented on the Advisory 
Committee.
V. Bridging Agency Data Gaps and Ensuring Safety for Native Communities 
        Act or ``BADGES''
    BADGES contains proposals that will offer many remedies to the data 
access issues. We need to go further and include a legislative fix that 
addresses the concerns of the Criminal Justice Information System 
(CJIS) about tribal access to federal databases for governmental 
purposes. Currently access may be authorized through federal statutes 
providing some access for certain situations to tribes and then 
deferring to state law to define and provide access. Such access is 
difficult for tribes to map out, determine who at what agency needs to 
authorize, develop a process, get User Agreements, Memoranda of 
Understandings, or Management Control Agreements in place; many of 
these barriers could be addressed by providing general authority to 
tribes to legislate access for governmental purposes just as the states 
and the federal government.
    28 USC 534(d) authorizes release of criminal history information to 
tribal law enforcement agencies, but doesn't allow release of criminal 
information to other tribal agencies for important, legitimate civil 
purposes, such as Emergency Placement of Children or ``Purpose Code 
X,'' employees that work with elders and vulnerable adults, etc. CJIS 
interprets the appropriations rider language from 92-544 (and in the 
notes of 28 USC 534) as a permanent statute that prevents sharing this 
information with tribal governments. In their view, for example, 
criminal history for the emergency placement of children (Purpose Code 
X) can only be shared ``if authorized by State statute and approved by 
the Attorney General, to officials of State and local governments for 
purposes of employment and licensing.'' We should be authorized to 
define our needs within the given parameters to legislate according to 
our needs.
    While there is tremendous diversity among all tribes, it is worth 
noting that many of the 229 tribes in Alaska experience extreme 
conditions that differ significantly from tribes outside Alaska. The 
Findings section of BADGES demonstrate that Indian Tribes are 
understaffed with law enforcement by about nearly 50 percent when 
compared to the national averages. Alaska tribes are in an even more 
difficult situation. Most of the Alaska Native villages are located in 
remote areas that are often inaccessible by road and have no local law 
enforcement presence. The Tribal Law and Order Commission found that 
``Alaska Department of Public Safety (ADPS) officers have primary 
responsibility for law enforcement in rural Alaska, but ADPS provides 
for only 1.0-1.4 field officers per million acres.'' \16\ Without a 
strong law enforcement presence, crime regularly occurs with impunity.
---------------------------------------------------------------------------
    \16\ A Roadmap for Making Native America Safer: Report to the 
President and Congress of the United States (November 2013), available 
at http://www.aisc.ucla.edu/iloc/report/.
---------------------------------------------------------------------------
    Recommendations BADGES: We need to amend federal law to authorize 
the sharing of this information with tribal governments for any 
legitimate purpose.
    Sec. 103. LAW ENFORCEMENT DATA SHARING WITH INDIAN TRIBES. \17\ 
Codifies the DOJ's Tribal Access Program (TAP), which enhances the 
ability of Tribal governments to access, enter, and obtain information 
from federally-maintained law enforcement databases, in statute and 
authorizes $3 million per year for five years to fund continuation of 
the program. TAP has done everything that it is authorized to do, 
however, at times access is limited by federal law and tribes can 
access the databases for only what is authorized by federal law through 
TAP. Many states are legislating around data entry and collection of 
MMIW issues. A tribe that wanted to create a legislative process, would 
be unable to fully implement their laws, because there is no general 
federal statute that gives tribes this level of access and 
determination. However, you could amend 28 USC 534, to authorize this 
level of tribal input. So for example, federal laws allow tribes to 
investigate people who will work with children but it doesn't allow 
access for people who work with our elders or vulnerable adults. 
Similarly, most tribes require that elected officials, and key 
personnel obtain background checks. A state can legislate to authorize 
this access, whereas a tribe does not have that direct access and often 
has to use channelers or use Lexis/Nexus. Also, the TAP program needs 
permanent funding otherwise it could be discontinued at any time.
---------------------------------------------------------------------------
    \17\ Previously Sec. 5.
---------------------------------------------------------------------------
Report on Indian Country Law Enforcement Personnel Resources and Need
    We agree that it is important to gain an understanding of existing 
personnel resources and case load to truly understand the needs for 
increased recruitment of agents. We also suggest including law 
enforcement agencies within DOI and other federal agencies that 
interface with Indian Country.
    In addition Sections 101 and 102 of BADGES leave out tribes in PL 
280 states who will not be able to participate with the law because it 
specifies BIA, FBI, etc., who exercise law enforcement in Indian 
country, which Alaska does not have.
    We support the development of new resources to address the MMIW 
crisis. We do express concern with eligible entities for this important 
new source of funding. In the definitions section of BADGES, the 
definition of ``relevant tribal stakeholder'' raises significant 
concern as it is inclusive of ``Indian Tribes,'' Indian Tribes as 
sovereigns should never be considered a relevant stakeholder, but 
generally eligible based on the unique relationship Tribes have with 
the federal government.
    We have significant concern that new funding addressing a tribal 
issue is inclusive of states and non-tribal national or regional 
organizations as eligible entities. New funding to address a tribal 
issue should first and foremost be distributed to tribes as sovereigns. 
States have sufficient funding to contribute to this work without 
dipping into the limited funding that tribes have.
    Furthermore, the lack of clarity in what constitutes ``represents 
substantial Indian constituency'' for a non-tribal national or regional 
organization also raises concern. Without clarity, any national or 
regional organization could claim that they represent a tribal 
constituency.
    Specific Recommendations for Bridging Agency Data Gaps and Ensuring 
Safety for Native Communities Act: Addressing Criminal Justice 
Information System Access Issues To improve Tribal access to CJIS is to 
amend 28 U.S.C. 534 by adding a new subsection:

         ``If authorized by tribal law and approved by the Attorney 
        General, the Attorney General shall also permit access to 
        officials of tribal governments for non-criminal justice, non-
        law enforcement employment, licensing purposes or any other 
        legitimate government purpose identified in tribal 
        legislation.''

    Another possible solution is to insert , ``civil'' before 
``background checks'' and adding after ``background checks,'' ``if 
authorized by Tribal law and approved by the Attorney General.'' It is 
critical that civil authority be included within this section too, so 
that once and for all the piecemeal, inefficient barriers to full 
legitimate access is resolved.
Definitions
    We recommend removing tribal governments from the definition of 
``tribal stakeholder'' and inserting ``Indian tribes and relevant 
tribal stakeholders'' throughout the bill wherever relevant.
VI. Support for the Reauthorization of the Violence Against Women's Act
    Tlingit & Haida strongly supports the ``Violence Against Women's 
Act of 2019'' (VAWA) (H.R. 1585) which passed the House on April 4, 
2019, and urges the Senate Committee on Indian Affairs to support 
bringing VAWA to the Senate floor. Since its enactment in 1995, each 
reauthorization of VAWA, has resulted in significant victories in 
support of the tribal authority and secured resources needed for 
increasing the safety of Native women across the United States. H.R. 
1585 includes important life-saving enhancements Tribes have repeatedly 
called for including:

        Addressing Jurisdictional Gaps

  <bullet> expands prosecution of non-Indians to include obstruction of 
        justice-type crimes, sexual assault crimes, sex trafficking and 
        stalking;

  <bullet> Recognizes that Native children are equally in need of the 
        protections that were extended to adult domestic violence 
        victims in VAWA 2013. The tribes implementing VAWA 2013 report 
        that children have been involved as victims in their cases 
        nearly 60 percent of the time, including as witnesses. However, 
        federal law currently limits tribal jurisdiction to prosecute 
        these crimes. H.R. 1585 would recognize tribal authority to 
        protect our children in tribal justice systems; and

  <bullet> Contains important amendments to clarify that Tribes in 
        Maine are able to exercise SDVCJ under VAWA 2013 and any 
        amendments.

        Addressing Unique Jurisdictional Challenges in Alaska

  <bullet> Creates pilot project for five Alaska Tribes and expands the 
        definition of Indian Country to include ANCSA lands, townsites 
        and communities that are 75 percent native.

        Improving the Response to Missing and Murdered Native Women and 
        Girls

  <bullet> Directs the Government Accountability Organization (GAO) to 
        submit a report on the response of law enforcement agencies to 
        reports of missing or murdered Indians, including 
        recommendations for legislative solutions; and

  <bullet> Addresses MMIW off tribal lands by amending the DOJ STOP 
        Formula Grant Program for states (authorized by 34 U.S.C  
        10441) to address the lack of victim resources for Native 
        American women in urban areas by providing for the inclusion of 
        victim advocates/resources in state courts for urban American 
        Indians/Alaskan Natives where 71 percent of the Native American 
        population resides due to federal relocation and termination 
        policies.

  <bullet> Clarifies that federal criminal information database sharing 
        extends to entities designated by a tribe as maintaining public 
        safety within a tribe's territorial jurisdiction that have no 
        federal or state arrest authority.

VII. Conclusion
    There is a unique opportunity to recognize these issues and make 
corrections to the laws.
    In Ling!t Yoo X'atangi, the Tlingit Language, as with other 
language groups in Alaska, we had no words or description for violence 
within a family home. We had traditional forms of justice that kept our 
community in check and women valued as the life giver of the family. We 
had community justice, which we are now returning to. Restoring and 
enhancing local, tribal governmental capacity to respond to violence 
against women provides for greater local control, safety, 
accountability, and transparency. We will have safer communities and a 
pathway for long lasting justice. We believe that it is critical that 
we work together to change laws, policies and that the federal 
government create additional funding opportunities to address and to 
eradicate the disproportionate violence against our women. We welcome 
many of the reforms included in the bills under discussion today and 
recognize the importance of improving protocols, data-sharing, and 
coordination. Our tribal governments are the frontline, and we need the 
federal government to uphold its responsibilities to assist us in 
safeguarding the lives of Native people by respecting our inherent 
authority while also adequately funding its trust and treaty 
responsibilities.
    Gunalcheesh! Haw'aa! Thank You!

    The Chairman. Thank you, Chief Justice.
    And now the Secretary, Lynn Malerba.

  STATEMENT OF HON. LYNN MALERBA, SECRETARY, UNITED SOUTH AND 
           EASTERN TRIBES SOVEREIGNTY PROTECTION FUND

    Ms. Malerba. Chairman Hoeven, Vice Chairman Udall, and 
members of the Committee, thank you for the opportunity to 
provide testimony on this important legislation.
    [Greeting in Native tongue.] I am called Chief Many Hearts, 
Lynn Malerba, Chief of the Mohegan Tribe, Secretary for the 
USET Sovereignty Protection Fund and member of the Department 
of Justice Tribal Nations Leadership Council.
    We are here today because the Federal Government is failing 
in its obligation to see that justice is served for tribal 
nations and Native people. Native women face murder rates up to 
ten times the national average. Approximately 56 percent of 
Native women experience sexual violence in their lifetime. 
Murder is the third leading cause of death for Native women 10 
to 24 years of age.
    These statistics are a stain on a nation that purports to 
be a nation of laws, a nation of justice. As our people are 
slaughtered and go missing, the United States turns a blind eye 
while denying our right to prosecute offenders and access law 
enforcement resources. The loss of our people due to this 
crisis should inspire deep shame within every branch of 
government and every American citizen.
    Through the murders of our women, we lose our sisters, our 
mothers, our friends, and importantly, subsequent generations 
of our tribal nations, and all of their potential. These losses 
are largely invisible, as the Federal Government neglects to 
even track them.
    Today, we ask this body and the Federal witnesses, how will 
you work to ensure that generations of Native people are not 
lost because of government policy neglect and inaction? You 
must examine your own hearts, your own sense of honor and 
consider whether your moral compass allows you to remain 
silent.
    Increased crime in Indian Country is a result of the 
shameful policies of the United States. The Federal Government 
took our homelands, banned our cultures, kidnapped our children 
and limited the exercise of our inherent sovereign rights and 
authorities. A gap in criminal jurisdiction stems from this 
failure to recognize our inherent sovereignty.
    When tribal nations are barred from prosecuting offenders 
and the Federal Government fails in its obligations, criminals 
are free to offend with impunity. This gap is further 
compounded for some tribal nations in our region who are 
subject to settlement acts that States argue prevent laws like 
VAWA and TOLOA from applying.
    The Federal Government has long failed to provide resources 
to fill the void left by its refusal to recognize our criminal 
jurisdiction. Even when it is clear that the Federal Government 
has jurisdiction, prosecutors often decline to prosecute. In 
fact, in 2019, Federal prosecutors declined a full 50 percent 
of cases in Indian Country.
    Despite the Federal trust obligation, Indian Country's 
police staffing does not meet national coverage standards. In 
fiscal year 2010, Indian Country only had 1.9 officers per 
1,000 residents, compared to a national average of 3.5 officers 
per 1,000 residents.
    These commonsense bills, if enacted, would address critical 
gaps in the exercise of VAWA jurisdiction and ensure that the 
U.S. fulfills more of its obligations to us. We urge the bills' 
sponsors to ensure that they apply to all tribal nations 
equally.
    Savanna's Act would increase the use of crime data bases, 
increase law enforcement cooperation, and increase data on 
missing and murdered Native people. We extend our appreciation 
to Senators Murkowski and Cortez Masto for their reintroduction 
of the bill and their willingness to make the requested 
changes.
    The Justice for Native Survivors of Sexual Violence Act 
would extend our restored jurisdiction to include crimes 
related to sexual violence, addressing a critical gap under 
VAWA, which tribal nations, the Department of Justice and 
others have reported just as an oversight in the drafting in 
the law.
    We must also do more to protect our greatest resource, our 
children, as well as the officers who work so hard to keep our 
communities safe. But due to another oversight in VAWA, tribal 
nations cannot prosecute crimes against them. The Eastern Band 
of Cherokee Indians, for example, reported that during an 
arrest, an offender threatened to kill the officers and carry 
out a mass shooting, and later struck a jailer, none of which 
was actionable under VAWA. We do not believe that this was the 
intent of those drafting the 2013 reauthorization. NYTOPA would 
ensure crimes against children and officers are included again 
in recognition of our inherent sovereignty.
    The Not Invisible Act would increase coordination within 
the Federal Government, including through a joint advisory 
committee on reducing violent crimes against Native people. 
However, we note that only three tribal leaders would be 
appointed, despite a large Federal presence. We urge that full 
diversity of Indian Country is reflected on this Committee.
    Finally, the BADGES for Native Communities Act would 
improve access to the Federal criminal data bases and data, 
promote recruitment of tribal police and improve law 
enforcement coordination and Federal handling of evidence. We 
ask that the funding mechanism for these critical provisions be 
reconsidered, as grants are not reflective of our government-
to-government relationship.
    In conclusion, we envision a future in which our children, 
our women, our elders and all Native people can live in healthy 
communities without fear of violence, knowing that justice will 
be served. While we ultimately seek the restoration of full 
criminal jurisdiction over our lands, these bills represent a 
very important advancement toward that goal.
    Thank you. I am happy to answer any questions you may have. 
And we do have full detailed comments in our written testimony. 
I would say [phrase in Native tongue], thank you very much.
    [The prepared statement of Ms. Malerba follows:]

 Prepared Statement of Hon. Lynn Malerba, Secretary, United South and 
               Eastern Tribes Sovereignty Protection Fund
    Chairman Hoeven, Vice Chairman Udall, and members of the Committee, 
thank you for this opportunity to provide testimony on important 
pending legislation related to public safety in Indian Country, 
including: Savanna's Act, S. 227; the Justice for Native Survivors of 
Sexual Violence Act, S. 288; the Native Youth and Tribal Officer 
Protection Act (NYTOPA), S. 290; the Not Invisible Act of 2019, S. 982; 
and the Bridging Agency Data Gaps and Ensuring Safety (BADGES) for 
Native Communities Act.
    United South and Eastern Tribes Sovereignty Protection Fund (USET 
SPF) is appreciative of the efforts of this body in strengthening and 
improving public safety across Indian Country, and supports these bills 
and the goals they seek to accomplish, while highlighting limited areas 
of concern below. For far too long, the United States has neglected its 
public safety obligations to Tribal Nations--both by failing to 
recognize and promote our inherent sovereign authorities, as well as 
failing to devote adequate resources to law enforcement and judicial 
infrastructure. This has created a crisis in Indian Country, as our 
people go missing and are murdered, and are denied the opportunity for 
safe and healthy communities enjoyed by other Americans. These bills, 
if enacted, would address critical gaps in the exercise of special 
domestic violence criminal jurisdiction and ensure that the United 
States fulfills more of its obligation to Indian Country by providing 
necessary resources. In doing so, we envision a future in which our 
children, women, elders, and all Native people can live in healthy, 
vibrant communities without fear of violence knowing that justice will 
be served. While we ultimately seek the restoration of full criminal 
jurisdiction over our lands, these bills represent important 
advancements toward that goal.
    USET SPF is a non-profit, inter-Tribal Nation organization 
representing 27 federally recognized Tribal Nations from Texas across 
to Florida and up to Maine. \1\ USET SPF is dedicated to maintaining an 
active federal agenda and supporting its Tribal Nation members in their 
relations with local, state, federal, and international governments. 
USET SPF advocates for actions that will address the needs of Native 
people, increase the ability of Tribal Nations to exercise our inherent 
sovereignty and right to self-governance, and carry out and uphold the 
government-to-government relationships between the United States and 
Tribal Nations as well as the unique obligations owed by the United 
States to Tribal Nations and Native people.
---------------------------------------------------------------------------
    \1\ USET SPF member Tribal Nations include: Alabama-Coushatta Tribe 
of Texas (TX), Aroostook Band of Micmac Indians (ME), Catawba Indian 
Nation (SC), Cayuga Nation (NY), Chitimacha Tribe of Louisiana (LA), 
Coushatta Tribe of Louisiana (LA), Eastern Band of Cherokee Indians 
(NC), Houlton Band of Maliseet Indians (ME), Jena Band of Choctaw 
Indians (LA), Mashantucket Pequot Indian Tribe (CT), Mashpee Wampanoag 
Tribe (MA), Miccosukee Tribe of Indians of Florida (FL), Mississippi 
Band of Choctaw Indians (MS), Mohegan Tribe of Indians of Connecticut 
(CT), Narragansett Indian Tribe (RI), Oneida Indian Nation (NY), 
Pamunkey Indian Tribe (VA), Passamaquoddy Tribe at Indian Township 
(ME), Passamaquoddy Tribe at Pleasant Point (ME), Penobscot Indian 
Nation (ME), Poarch Band of Creek Indians (AL), Saint Regis Mohawk 
Tribe (NY), Seminole Tribe of Florida (FL), Seneca Nation of Indians 
(NY), Shinnecock Indian Nation (NY), Tunica-Biloxi Tribe of Louisiana 
(LA), and Wampanoag Tribe of Gay Head (Aquinnah) (MA).
---------------------------------------------------------------------------
I. High Rate of Crime in Indian Country is Directly Attributable to 
        U.S. 
        Policy
    As you are well aware, Indian Country currently faces some of the 
highest rates of crime, with Tribal citizens 2.5 times more likely to 
become victims of violent crime and Native women, in particular, 
subject to higher rates of domestic violence and abuse. Many of the 
perpetrators of these crimes are non-Native people. The reasons behind 
the increased crime in Indian Country are complicated, but the United 
States holds much of the responsibility and that is at the root of 
today's challenges.
A. Historical Trauma Caused by United States Policies and Actions
    Increased crime in Indian Country flows, first and foremost, from 
the shameful policies of the United States. The United States took our 
homelands and placed us on reservations, often in remote areas with 
little or no resources or economies, prohibited exercise of our 
cultural practices, kidnapped our children, and took actions to limit 
the exercise of our inherent sovereign rights and authorities.
    These United States policies of termination and assimilation have 
caused ongoing trauma for Native people, and this trauma has left 
scars. Dehumanization of Native people over time is a tool to justify 
harms done to us--including colonizing our land. It marginalizes us in 
a way that makes us invisible within our own lands. And the larger 
society is desensitized to us, turning a blind eye to its role in 
continued injustices to our people and our governments.
    This historical trauma affects the crimes committed against us. 
Native people are viewed as less worthy of safety--less human. This 
mindset allows perpetrators to commit crimes against our bodies with 
less remorse. And it leads to law enforcement personnel and judicial 
systems not treating Native peoples' concerns as seriously. When our 
people go missing or are murdered, their loss is invisible, as it is 
most often ignored by the law enforcement community and society in 
general.
    The current crime rate in Indian Country is not surprising. It is a 
continuation of the genocide Native people have endured since first 
contact. It is time to address these issues at their root to stop the 
cycle of violence.
B. Failure of United States to Recognize Tribal Nations' Sovereign 
        Criminal 
        Jurisdiction
    One important reason for increased crime in Indian Country is the 
gap in jurisdiction stemming from the United States' failure to 
recognize our inherent criminal jurisdiction, allowing those who seek 
to do harm to hide in the darkness away from justice. When Tribal 
Nations are barred from prosecuting offenders and the federal 
government fails in the execution of its obligations, criminals are 
free to offend over and over again. And this gap is the U.S.' own 
doing.
    Tribal Nations are political, sovereign entities whose status stems 
from the inherent sovereignty we have as self-governing peoples, pre-
dating the founding of the Republic. A critical aspect of our inherent 
sovereignty is jurisdiction over our land and people, including 
inherent jurisdiction over crimes. Early Supreme Court decisions 
recognized this broad jurisdictional authority. See, e.g., United 
States v. Wheeler, 435 U.S. 313 (1978); Ex parte Crow Dog, 109 U.S. 556 
(1883). And Tribal Nations exercised jurisdiction over everyone who set 
foot on our lands, in parity with other units of government.
    But the United States has slowly chipped away at Tribal Nations' 
jurisdiction. At first, it found ways to put restrictions on the 
exercise of our inherent rights and authorities. And eventually, as its 
power grew, the United States shifted from acknowledging Tribal 
Nations' inherent rights and authorities to treating these rights and 
authorizes as grants from the United States. With this shift in 
mindset, recognition of our inherent sovereignty diminished, including 
our jurisdictional authorities.
    For example, in the 1978 decision of Oliphant v. Suquamish Indian 
Tribe, the Supreme Court struck what may be the biggest and most 
harmful blow to Tribal Nations' criminal jurisdiction. In that case, it 
held Tribal Nations lacked criminal jurisdiction over non-Native 
people, even for crimes committed within Indian Country. 435 U.S. 191 
(1978). It based this harmful decision on the faulty reasoning that--
while Supreme Court precedent recognizes that Tribal Nations possess 
aspects of our inherent sovereignty unless expressly divested--in the 
case of criminal jurisdiction over non-Native people the exercise of 
such inherent sovereignty was simply impractical for the United States. 
It said that, while Tribal Nations' jurisdiction flows from our 
inherent sovereignty, continued existence of criminal jurisdiction over 
non-Native people would be ``inconsistent'' with Tribal Nations' 
status, where our inherent sovereignty is now ``constrained so as not 
to conflict with the interests of [the United States'] overriding 
sovereignty.'' Id. at 208-10. Not only is this decision immoral and 
harmful, it is also illogical, as other units of government, such as 
states, exercise criminal jurisdiction over non-citizens present in 
their boundaries as a matter of routine. It is this very exercise of 
jurisdiction that keeps everyone safe--something that is clearly in the 
United States' best interests. Following Oliphant, Tribal Nations were 
barred from exercising criminal jurisdiction over non-Native peoples' 
crimes on our own land and against our own people--an authority held by 
virtually every other unit of government in this country.
    Congress, in the Indian Civil Rights Act, also acted to restrict 
Tribal Nations' criminal jurisdiction. Under the Indian Civil Rights 
Act, regardless of the crime, Tribal Nations were prohibited from 
imposing more than one year of incarceration and a $5,000 fine for an 
offense. 25 U.S.C.  1302(a)(7)(B). After this statute was enacted, 
Tribal Nations were not able to exercise criminal jurisdiction even 
over our own people in excess of the relatively low penalty amounts. 
Some have even argued the Major Crimes Act bars Tribal Nations' 
jurisdiction over serious crimes committed by our own people.
    The United States justifies its failure to recognize Tribal 
Nations' inherent sovereign power with legal fictions that satisfy its 
own interests. The federal government has continually moved to deny our 
authority, as it sought to build systems to reflect its assumed 
supremacy. It does not have this authority, and there are very real and 
practical consequences of the United States' wrongful taking of Tribal 
Nations' criminal jurisdiction; including leaving a vacuum that allows 
crime to grow unabated and the very need for the legislation this body 
is considering.
    These failures on behalf of the United States must be addressed in 
order to resolve the issue of crime in Indian Country and enable Tribal 
Nations to exercise our inherent authority as governments to care for 
our people. The benefits of safe, healthy, and prosperous Tribal 
communities stretch far beyond Indian Country. By recognizing Tribal 
Nations' inherent criminal jurisdiction over our land, the United 
States would facilitate our ability to function side-by-side with other 
sovereign entities in the fight to keep all Americans safe.
C. Failure of United States to Invest Resources Necessary to Fulfill 
        Trust Obligations
    As a result of the cession of millions of acres of land and natural 
resources, oftentimes by force, the United States has taken on unique 
legal and moral trust and treaty obligations to Tribal Nations and 
Native people. One of the most fundamental aspects of those obligations 
is to keep our people healthy and safe. This is especially true in the 
law enforcement context, where the United States has stripped Tribal 
Nations of the jurisdiction and resources we need to protect our 
people. At the same time, the United States has not invested in the 
infrastructure necessary to fulfill this obligation.
    The federal government has long failed to allocate the resources 
necessary to fill the void left by its refusal to recognize Tribal 
Nations' criminal jurisdiction over our land. Each time a crime takes 
place, the legal jurisprudence created by the United States requires a 
time consuming and complicated analysis necessary to determine who has 
jurisdiction. This determination requires an analysis of the 
perpetrator, the victim, the land on which the crime took place, the 
type of crime, and whether any statute applies that shifts the 
jurisdictional analysis, such as a restrictive settlement act. This 
murkiness leads to lost time--which can be deadly when a Native person 
is in danger.
    The federal government is also not dedicating the necessary 
resources to prosecuting crimes in Indian Country. Even when it is 
clear that the federal government (or a state government) has 
jurisdiction over a particular crime and the Tribal Nation does not, 
prosecutors often decline to prosecute, citing lack of resources or 
evidence. This leaves known perpetrators walking free in Indian 
Country, now armed with the knowledge that they are impervious to the 
law.
    The federal government is also failing to invest the resources 
required to properly coordinate information sharing and decisions about 
investigation and prosecution across law enforcement agencies. With 
extremely complicated overlapping jurisdiction, swift transmission of 
the necessary information and decisions about who will take the lead on 
a case is imperative. And cooperative agreements allow governmental 
entities to work together as partners, including Tribal Nations.
    Additionally, the federal government is not providing the resources 
necessary to combat crime in Indian Country. For example, Indian 
Country's police staffing does not meet the national police coverage 
standards. In FY 2020, Indian Country only had 1.9 officers per 1,000 
residents compared to an average of 3.5 officers per 1,000 residents 
nationwide. Again, cooperation across governmental entities, including 
with Tribal Nations, can help resolve police staffing issues.
    The federal government is also not upholding its trust 
responsibility and obligations to provide the funding necessary for 
Tribal Nations to exercise enhanced sentencing and expanded criminal 
jurisdiction under the Tribal Law and Order Act (TLOA) and the Tribal 
Nation provisions of the 2013 reauthorization of the Violence Against 
Women Act (VAWA). For Tribal Nations to fully exercise these 
authorities, Congress mandated that we must first put into place 
certain procedural protections for defendants. At the same time, 
following centuries of termination and assimilationist policy, the 
federal government has consistently and chronically underfunded line 
items and accounts dedicated to rebuild and support judicial 
infrastructure in Indian Country. It is incumbent upon the federal 
government to ensure Tribal Nations have funding and other resources to 
comply with these procedural requirements.
D. Restrictive Settlement Acts
    Some Tribal Nations, including some USET SPF member Tribal Nations, 
are living under restrictive settlement acts that further limit the 
ability to exercise criminal jurisdiction over their lands. These 
restrictive settlement acts flow from difficult circumstances in which 
states demanded unfair restrictions on Tribal Nations' rights in order 
for the Tribal Nations to have recognized rights to their lands or 
federal recognition. When Congress enacted these demands by the states 
into law, it allowed for diminishment of certain sovereign authorities 
exercised by other Tribal Nations across the United States.
    Some restrictive settlement acts purport to limit Tribal Nations' 
jurisdiction over their land or to give states jurisdiction over Tribal 
Nations' land, which is itself a problem. But, to make matters worse, 
there have been situations where a state has wrongly argued the 
existence of the restrictive settlement act prohibits application of 
later-enacted federal statutes that would restore to Tribal Nations 
aspects of our jurisdictional authority. In fact, some USET SPF member 
Tribal Nations report being threatened with lawsuits should they 
attempt to implement TLOA's enhanced sentencing provisions. Congress is 
often unaware of these arguments when enacting new legislation. USET 
SPF asserts that Congress did not intend these land claim settlements 
to forever prevent a handful of Tribal Nations from taking advantage of 
beneficial laws meant to improve the health, general welfare, and 
safety of Tribal citizens. We would like to further explore shortand 
long-term solutions to this problem with the Committee.
II. Past Congressional Actions to Recognize Tribal Nations' Sovereign 
        Jurisdiction
    Congress can and has-at the urging of Indian Country-taken steps to 
remove the restrictions the United States placed on Tribal Nations' 
exercise of our inherent sovereign criminal jurisdiction. Through these 
actions, Congress has moved to legally recognize our inherent 
authorities even after the United States acted to stomp them out. For 
example, although the Supreme Court initially ruled Tribal Nations lack 
criminal jurisdiction over Native people who are not their own 
citizens, Duro v. Reina, 495 U.S. 676 (1990), Congress swiftly restored 
that inherent jurisdiction, 25 U.S.C.  1301(2), and the Supreme Court 
recognized its restoration, United States v. Lara, 541 U.S. 193 (2004).
    In 2010, Congress enacted TLOA to amend the Indian Civil Rights 
Act. See 25 U.S.C.  1302. It increased the penalties a Tribal Nation 
may impose in cases where we have jurisdiction--allowing incarceration 
sentences of up to three years and a $15,000 fine per offense, with up 
to nine years of incarceration per criminal proceeding. 25 U.S.C.  
1302(a)(7)(C)-(D), (b). But TLOA requires Tribal Nations to provide 
certain procedural rights to defendants in order to exercise this 
enhanced sentencing. 25 U.S.C.  1302(c).
    In 2013, Congress included Tribal provisions when it reauthorized 
VAWA. See 25 U.S.C.  1304. Through VAWA, Congress restored the 
exercise of criminal jurisdiction (called special domestic violence 
criminal jurisdiction (SDVCJ)) over non-Native people in limited 
circumstances related to domestic and dating violence. 25 U.S.C.  
1304(b)(1). VAWA allows participating Tribal Nations to exercise SDVCJ 
over Indian Country crimes that: are dating or domestic violence 
(defined to require a certain type of relationship) or in furtherance 
of certain protection orders, 25 U.S.C.  1304(a)(1), (2), (5); when 
the victim or perpetrator is Native, 25 U.S.C.  1304(b)(4)(a); and 
when the perpetrator has certain ties to the Tribal Nation, 25 U.S.C.  
1304(b)(4)(B). Like TLOA, VAWA requires Tribal Nations to provide 
certain procedural rights to defendants to exercise SDVCJ, including 
the right to a trial. 25 U.S.C.  1304(d).
    The Tribal Nations that have been able to exercise jurisdiction 
under VAWA report success in bringing perpetrators to justice and 
keeping our people safe. As the Department of Justice (DOJ) testified 
before this Committee in 2016, VAWA has allowed Tribal Nations to 
``respond to long-time abusers who previously had evaded justice.''
    Although they are steps in the right direction, these existing laws 
do not do enough to provide for the exercise Tribal Nations' criminal 
jurisdiction, which rightfully belongs to us as a function of our 
inherent sovereignty. And they do not do enough to protect Native 
people from the violence that lives in the void left by limitations 
placed on Tribal Nations' exercise of criminal jurisdiction.
III. USET SPF Supports Pending Legislation
    Each of the bills before you today addresses some of the causes of 
the increased crime rate in Indian Country, as well as gaps in existing 
law. Some of the bills re-recognize our inherent sovereign criminal 
jurisdiction, while others facilitate information collection and 
sharing and cooperation across law enforcement agencies in furtherance 
of the United States' trust responsibility. USET SPF supports these 
bills as opportunities to support Tribal self-determination, better 
deliver upon the trust responsibility and obligations, and ultimately 
serve as pieces to the puzzle that lead to safer and stronger 
communities.
A. Savanna's Act, S. 227
    Savanna's Act is designed to enhance the use of crime databases, 
increase cooperation and standardization across law enforcement 
agencies with overlapping jurisdiction, and facilitate gathering data 
on missing and murdered Native people in furtherance of the United 
States' trust responsibility to provide the resources necessary to keep 
our people safe.
    Collecting and sharing criminal justice data in Indian Country is a 
well-known barrier to ensuring public safety for many Native 
communities, with criminal case information still fragmented and 
compartmentalized between different law enforcement agency data 
systems. Savanna's Act would require the DOJ, in consultation with 
Tribal Nations, to take certain actions to increase access to and use 
of crime databases to track Indian Country crimes. It would also 
require DOJ to train law enforcement agencies on how to take and record 
pertinent information and to train Tribal Nations and the public on how 
to access these databases. And it would require DOJ to collect and then 
report to Congress on information related to missing and murdered 
Native people.
    The high rate at which the federal government declines to prosecute 
crimes in Indian Country, including those over which Tribal Nations are 
not permitted to exercise their inherent jurisdiction, is a significant 
problem and a deep failure to uphold the sacred duty to our Nations and 
people. Savanna's Act would require DOJ to direct United States 
Attorneys with jurisdiction to prosecute Indian Country crimes.
    Coordination in information collecting and sharing across law 
enforcement agencies is a major barrier to solving crimes in Indian 
Country, which is made even more significant due to the complicated 
overlapping jurisdiction in Indian Country. Savanna's Act would require 
DOJ in consultation with Tribal Nations and others to develop 
standardized guidelines for responding to cases of missing and murdered 
Native people. The guidelines would include ways to better coordinate 
among law enforcement agencies and to increase response and follow up 
rates, best practices for conducting searches and identifying and 
handling remains, standards for collecting, reporting, and analyzing 
data and inputting it into criminal databases, and ways to ensure 
access to culturally appropriate victim services. Each Tribal Nation, 
federal, state, and local law enforcement agency would be directed to 
adopt the guidelines, and DOJ would be required to offer trainings.
    However, we note some language in S. 227, as currently drafted, 
that would serve to penalize Tribal Nations lacking the resources 
necessary to adopt and implement the guidelines DOJ creates. We support 
Savanna's Act as a tool for facilitating information collection and 
sharing as well as cooperation between law enforcement agencies for 
crimes in Indian Country in furtherance of the United States' trust 
responsibility to provide the resources necessary to keep our people 
safe. USET SPF has been informed that the bill's sponsors intend to 
correct this oversight during mark-up. We strongly support this 
amendment and extend our appreciation to Sens. Murkowski and Cortez-
Masto for the reintroduction of the bill and their willingness to make 
requested changes.
B. Justice for Native Survivors of Sexual Violence Act, S. 288
    The Justice for Native Survivors of Sexual Violence Act would 
extend Tribal Nations' restored jurisdiction over non-Native people, as 
authorized under VAWA, to include crimes related to sexual violence. In 
this way, it would recognize Tribal Nations' inherent sovereign 
authority to exercise criminal jurisdiction over our lands to address a 
critical gap in the SDVCJ under VAWA.
    According to a 2016 study by the National Institute for Justice, 
approximately 56 percent of Native women experience sexual violence in 
their lifetime, with one in seven experiencing that violence within the 
past year. Almost one in two Native women report being stalked. And the 
vast majority of these perpetrators are non-Native, preventing Tribal 
Nations from exercising criminal jurisdiction over them outside VAWA. 
However, VAWA as currently enacted does not extend to these crimes, 
which Tribal Nations, DOJ, and others involved in implementation of 
VAWA's SDVCJ have reported as an oversight in the drafting of the law. 
One such area is its application to sexual violence outside of a 
domestic relationship. The Justice for Native Survivors of Sexual 
Violence Act would extend VAWA's SDVCJ to include sex trafficking, 
sexual violence, and stalking. It would also add crimes of related 
conduct, defined to include violations of a Tribal Nation's criminal 
law occurring in connection with the exercise of VAWA SDVCJ.
    Additionally, Tribal Nations exercising VAWA's SDVCJ report that 
certain actions, such as attempted assaults, are difficult to prosecute 
because they may not qualify as ``violence'' under VAWA. Instead, law 
enforcement officers are forced to wait until the perpetrator comes 
back to inflict more violence on the victim. The Justice for Native 
Survivors of Sexual Violence Act would replace references to 
``violence'' within the definitions of dating violence and domestic 
violence with references to violations of the Tribal Nation's criminal 
laws, thereby making it clear the perpetrator need not have actually 
physically assaulted the victim. The crime of sexual violence added by 
the legislation is similarly defined by reference to nonconsensual 
sexual acts or contact prohibited by law.
    Those implementing VAWA also report that it does not function to 
protect Native people against sexual crimes committed while 
perpetrators are only briefly in Indian Country--such as during a visit 
to a casino. The legislation would remove VAWA's requirement that a 
defendant has ties to the Tribal Nation. In this way, Indian Country 
would no longer be open to perpetrators seeking out safe harbors for 
crime.
    However, the Justice for Native Survivors of Sexual Violence Act 
raises important implications for Tribal Nations living under 
restrictive settlement acts. To avoid any wrongful arguments that the 
legislation does not apply to Tribal Nations with restrictive 
settlement acts, we request you include the following language: ``All 
provisions of this Act apply to all federally recognized tribes, no 
matter where located, notwithstanding any prior acts of Congress 
limiting tribal jurisdiction or the application of federal law.''
    USET SPF supports the Justice for Native Survivors of Sexual 
Violence Act as an opportunity for this Congress to fix a dangerous 
oversight in the SDVCJ VAWA provision through the affirmation of 
inherent Tribal sovereignty and authority. We request the Committee 
consider amending the bill to include language that would prevent any 
wrongful arguments that it does not apply to Tribal Nations with 
restrictive settlement acts.
C. Native Youth and Tribal Officer Protection Act (NYTOPA), S. 290
    NYTOPA would address another serious gap in the SDVCJ VAWA 
provision by ensuring that it includes crimes against children and law 
enforcement officers-again, in recognition of our inherent sovereign 
rights and authorities. It would also provide important funding for 
VAWA implementation in furtherance of the United States' trust 
responsibility and obligations to provide the resources necessary to 
keep our people safe.
    Another oversight in the drafting of VAWA is its inapplicability to 
children involved in cases where a Tribal Nation is otherwise 
exercising VAWA's SDVCJ. Tribal Nations implementing VAWA report that 
children have been involved as victims or witnesses in nearly 60 
percent of the instances in which they exercised VAWA's SDVCJ. But VAWA 
does not extend to protect them. NYTOPA would amend VAWA to extend 
Tribal Nations' SDVCJ to crimes committed against a child by a 
caregiver that are related to physical force and violate a Tribal 
Nation's law.
    Yet another oversight in the drafting of VAWA is its 
inapplicability to police officers involved in cases where a Tribal 
Nation is otherwise exercising VAWA's SDVCJ. Implementing Tribal 
Nations have reported assaults on officers and other personnel involved 
in the criminal justice system. Domestic violence cases are the most 
common and most dangerous calls to which law enforcement respond, and 
VAWA does not give Tribal Nations the tools to protect officers when 
they carry out VAWA's SDVCJ. The Eastern Band of Cherokee Indians, for 
example, reported that a perpetrator during arrest under VAWA's SDVCJ 
threatened to kill officers and carry out a mass shooting and later 
struck a jailer--none of which was actionable under VAWA's SDVCJ. To 
remedy this problem, NYTOPA would amend VAWA to extend jurisdiction to 
crimes committed by a perpetrator already covered under VAWA's SDJPC 
against a Tribal Nation's officer or employee in the course of carrying 
out VAWA's SDJPC when the crime is related to exercise of VAWA's SDJPC 
and violates the Tribal Nation's law.
    Additionally, like the Justice for Native Survivors of Sexual 
Violence Act, NYTOPA would ensure crimes beyond actual assault are 
actionable under VAWA. It would do so by clarifying that attempts at 
and threats of physical force that violate a Tribal Nations' laws are 
covered.
    NYTOPA would also carry out important functions related to funding 
and coordination. It would authorize additional appropriations through 
2024 to carry out VAWA's SDJPC. And it would call for increased 
interagency coordination to ensure that federal programs that support 
Tribal Nations' justice systems and victim services are working 
effectively together and training on recognizing and responding to 
domestic violence. It would also require federal agencies to report to 
Congress on the effectiveness of federal programs intended to build the 
capacity of Tribal Nations to respond to crimes covered by VAWA as well 
as on federal coordination and training efforts.
    However, NYTOPA raises similar concerns for Tribal Nations with 
restrictive settlement acts that the Justice for Native Survivors of 
Sexual Violence Act raises, and we therefore request addition of the 
language provided above.
    USET SPF strongly supports NYTOPA as another opportunity for a more 
complete and appropriate application of VAWA's SDVCJ, as well as a more 
thorough recognition of Tribal jurisdiction in this space. We also 
support NYTOPA for its VAWA funding, does more to deliver upon the 
United States' trust responsibility and obligations to provide the 
resources necessary to keep our people safe. As with the Justice for 
Native Survivors Act, USET SPF requests the Committee consider amending 
the bill to include language that would prevent any wrongful arguments 
that it does not apply to Tribal Nations with restrictive settlement 
acts.
D. Not Invisible Act of 2019, S. 982
    The Not Invisible Act of 2019 would increase coordination within 
the federal government in furtherance of the United States' trust 
responsibility and obligations to provide for public safety in Indian 
Country. It would also provide a mechanism for Tribal Nations, Native 
people, and others with relevant expertise to advise the federal 
government on combatting violent crime within Indian Country and 
against Native people, addressing some of the historical trauma that 
leads to crime in Indian Country.
    Like lack of coordination between law enforcement agencies, lack of 
coordination within the federal government hampers efforts to keep 
Indian Country safe. The various agencies and bureaus with specific 
programs or grants aimed at reducing crime in Indian Country do not 
coordinate with each other to maximize efficiency. The Not Invisible 
Act of 2019 would require the Department of the Interior (DOI) to 
designate an official who reports directly to the Secretary to 
coordinate efforts related to violent crime in Indian Country and 
against Native people. This official would coordinate programs and 
grants across agencies and would work to provide training on how to 
effectively identify, respond to, and report violent crime in Indian 
Country or against Native people.
    The absence of Native peoples' voices in the federal government's 
decision making regarding efforts to reduce crime in Indian Country 
makes the federal government's efforts doomed from the beginning and 
flies in the face of its consultative responsibilities to Tribal 
Nations. The Not Invisible Act of 2019 would establish a DOI and DOJ 
joint advisory committee on reducing violent crime against Native 
people, which would include Tribal Nation representatives and other 
Native people with relevant expertise and life experience. However, 
USET SPF notes that only three Tribal leaders will be appointed to the 
Committee, despite the large federal presence provided for in the Act. 
Since this Committee would be broadly charged with making 
recommendations to DOI and DOJ on combatting violent crime in Indian 
Country and against Native people, it is vital that the full diversity 
of be reflected in its representation. We urge that the bill language 
be amended to include on the Committee representatives from each of the 
Bureau of Indian Affairs' 12 regions.
    USET SPF supports the Not Invisible Act of 2019 as a tool for 
enabling the federal government to increase its efficiency with regard 
to addressing the issue of crime in Indian Country in furtherance of 
the United States' trust responsibility to provide the resources 
necessary to keep our people safe. We also support the legislation for 
its efforts to ensure Native voices are part of decisionmaking, for it 
is through facilitating our voices to be heard that we will stop being 
invisible. However, we maintain that the Committee must reflect the 
full diversity of Indian Country, if it is to be successful.
E. Bridging Agency Data Gaps and Ensuring Safety (BADGES) for Native 
        Communities Act
    The BADGES for Native Communities Act would address inefficiencies 
in federal criminal databases, increase Tribal Nations' access to those 
databases, and improve public data on crimes and staffing. The 
legislation would also promote more efficient recruitment and retention 
of Bureau of Indian Affairs law enforcement personnel, provide 
resources to Tribal Nations for improved coordination with other law 
enforcement agencies, and mitigate federal law enforcement mishandling 
of evidence.
    While DOJ operates two databases for missing person cases--the 
National Crime Information Center database for law enforcement and the 
publicly accessible National Missing and Unidentified Persons System--
the systems do not share data with each other. And Tribal Nation, 
federal, state, and local authorities are not required to add missing 
adults to the systems. This leads to high numbers of our missing 
falling through the cracks. An Urban Indian Health Institute found that 
of 5,712 reported missing Native women and girls in 2016, only 116 had 
been logged in DOJ's database. This is unconscionable.
    The BADGES for Native Communities Act would ensure the National 
Missing and Unidentified Persons System contains information related to 
Indian Country cases and facilitate Indian Country access to it. It 
would call on DOJ to transmit information on missing persons and 
unidentified remains contained in national crime information databases 
to the National Missing and Unidentified Persons System, thereby 
sharing information between the systems. In the interim, it would 
require DOJ to enter into the National Missing and Unidentified Persons 
System information related to missing persons and unidentified remains 
when the victim is a Native person or last seen on Indian land. It 
would require DOJ, with the help of designated Tribal Nation liaisons, 
to ensure Tribal Nations gain access to the National Missing and 
Unidentified Persons System. The legislation would require DOJ to 
report to Congress on these efforts.
    The BADGES for Native Communities Act would also ensure Indian 
Country has access to the National Crime Information Center. Through 
VAWA, Tribal Nations were authorized to access the National Crime 
Information Center database, but DOJ did not facilitate this access 
until launching the Tribal Access Program (TAP) pilot project in 2015. 
Many Tribal Nations remain on the waitlist to access TAP. The BADGES 
for Native Communities Act would require DOJ to ensure Tribal law 
enforcement officials have access to the National Crime Information 
Center. It would also codify TAP and authorize additional funding for 
the program, which we continue to support.
    Additionally, the BADGES for Native Communities Act would create a 
grant program for addressing the issue of missing and murdered Native 
people. Grants would be available for establishing centers to document 
and track missing and murdered person cases when the victim is a Native 
person or last seen on Indian land, for establishing a commission to 
coordinate between Tribal Nation, federal, state, and local law 
enforcement regarding such cases, and to develop resources related to 
such cases. While we strongly support dedicated funding for these 
activities, we request that the mechanism be reconsidered. Grant 
funding fails to reflect the unique nature of the federal trust 
obligation and Tribal Nations' sovereignty by treating Tribal Nations 
as non-profits rather than governments. Further, all Tribal Nations, 
and not only those with funding to participate in grant-writing 
processes, should have access to this important funding.
    The BADGES for Native Communities Act would also address the issue 
of law enforcement personnel in Indian Country. It would provide a 
streamlined system for obtaining background checks on Bureau of Indian 
Affairs law enforcement applicants, making the hiring process easier. 
It would also address retention by creating resources for mental health 
wellness programs for Indian Country law enforcement officers. The 
legislation would require DOJ to report to Congress on Indian Country 
law enforcement personnel resources and need.
    Last, the legislation would call for the Government Accountability 
Office to conduct a study on federal law enforcement evidence 
collection, handling, and processing and the extent to which it affects 
the rate at which United States Attorneys decline to prosecute cases.
    As with other legislation before you today, BADGES would likely 
benefit from language confirming its application to all federally-
recognized Tribal Nations notwithstanding existing settlement acts. We 
look forward to working with Vice Chairman Udall to ensure final 
legislative language accomplishes this goal.
    USET SPF supports the BADGES for Native Communities Act as it seeks 
to provide parity for Tribal Nations in access to federal crime 
information, collection, and tracking. This is an important step toward 
building a stronger public safety foundation in Indian Country. USET 
SPF also supports the legislation for its efforts to resolve cases 
related to missing and murdered Native people take steps towards 
increasing acquisition and retention of law enforcement personnel and 
understanding the issue of mishandling of evidence. As with other 
legislation before you today, these provisions seek to do more to 
uphold the federal trust responsibility and obligations, as well as 
support Tribal Nation efforts to see that justice is served for our 
people.
IV. Conclusion
    The public safety crisis facing Tribal Nations and our people is 
directly attributable, at least in part, to U.S. policies of 
colonialism, termination, and assimilation, as well as the chronic 
failure to deliver upon the trust responsibility and obligations. These 
policies stole our homelands, tried to steal our cultures, and limited 
our ability to exercise our inherent sovereign rights and authorities. 
The United States, including all branches of government must act to 
provide parity to Tribal Nations in the exercise of our inherent 
sovereign rights and authorities. Our people cannot remain invisible 
and forgotten, as Tribal Nations work to navigate the jurisdictional 
maze that has grown up around Indian Country while the United States 
turns a blind eye.
    USET SPF supports the legislation before you for consideration 
today and believes it represents a major step in the right direction 
toward the United States recognizing Tribal Nations' inherent sovereign 
rights and authorities. These bills recognize Tribal Nations' inherent 
sovereign right to exercise criminal jurisdiction over our land, and 
they provide the resources the United States owes to keep our people 
safe. As sovereign governments, Tribal Nations have a duty to protect 
our citizens, and provide for safe and productive communities. This 
cannot truly be accomplished without the full restoration of criminal 
jurisdiction to our governments through a fix to the Supreme Court 
decision in Oliphant. While we call upon this Congress to take up and 
pass today's legislation, we strongly urge this Committee to consider 
how it might take action to fully recognize Tribal criminal 
jurisdiction over all persons and activities in our homelands for all 
Tribal Nations. Only then will we have the ability to truly protect our 
people. We thank you for holding today's important hearing and look 
forward to further opportunities to discuss improved public safety in 
Indian Country.

    The Chairman. Thank you. Now we will start with five-minute 
rounds of questions. We do have five votes through this, so we 
are going to do our best to continue. Vice Chairman Udall has 
already gone to cover the first vote. He will be back.
    Given the number of witnesses and the number of questions 
that they will want to ask, we are going to try to keep going 
through the votes. We will see how that goes. If we get into 
later rounds of votes, and we need to suspend for a short 
period of time, we may do that. But at least for the time 
being, we will proceed.
    My first question is for Mr. Toulou. In the proposed 
substitute amendment for Savanna's Act, to be offered by 
Senators Murkowski and Cortez Masto, there is a requirement for 
the Department of Justice to publicly list law enforcement 
agencies that are in compliance with the proposed provisions of 
the substitute amendment. This is different from the introduced 
bill that requires the DOJ to list the law enforcement agencies 
that do not comply with the implementation.
    So I want to know if that creates any challenges for the 
DOJ, to publicly list law enforcement agencies that are in 
compliance.
    Mr. Toulou. Thank you for that question, Chairman. It is 
hard for me to comment for the whole department on this, but 
let me explain why our initial, why we initially had problems 
with some of the issues around announcing or not announcing 
grant related, I don't know, penalties is probably the wrong 
word, around agencies that don't comply. That is that we work 
closely with law enforcement, and we prefer to work them 
through issues when they are not doing what they need to do, 
rather than have a punitive result for them not doing what was 
included in the bill.
    This seems to me, this is me personally, like a reasonable 
way of doing that. Because what we are doing is, we are letting 
the agencies who are doing the right job get the credit they 
deserve. But I would want to take it back to my folks at the 
department and discuss it with them. We deal with grants and 
deal with agencies directly.
    The Chairman. That is exactly why I brought it up, because 
we would want you to work with the bill's sponsors.
    Mr. Toulou. Yes, I will do that.
    The Chairman. So the Department of Justice, again for you, 
Mr. Toulou, the Department of Justice operates two data bases 
that track missing person cases. The first is the FBI's 
National Crime Information Center Database for Law Enforcement. 
The second is the National Institute of Justice's National 
Missing and Unidentified Persons System, the NaMus system, 
which is a publicly accessible data clearinghouse.
    So, should both data bases be able to talk to each other, 
to make sure that information is being shared?
    Mr. Toulou. We think that would be, given the parameters 
that we would need to work through with CJIS and NaMus, we 
think that is a good idea.
    The Chairman. And is that effort underway?
    Mr. Toulou. Yes, they are talking together. We have made 
efforts already to try to put those two databases in contact. 
Keep in mind, one is a criminal justice database, and some of 
the information in that should not be available to the general 
public, just for the reason we don't release other criminal 
justice information. But we think there is a way of doing it 
where we can get the relevant information out and shield the 
criminal justice information. It is underway, it is tricky. But 
we agree, the two databases should speak to each other.
    The Chairman. All right. Mr. Addington, you testified 
before this Committee in December on the issue of crime data, 
and highlighted the fact that BIA had partnered with DOJ's 
missing and unidentified, the NaMus system. Can you provide the 
Committee with an update on how this is going?
    Mr. Addington. Yes, thank you for the question, Chairman. 
We did work with NaMus to make those data fields for tribal 
affiliation and some different data fields that we could 
collect data. Those went live, I believe, at the end of 
February. The Bureau of Indian Affairs actually worked with the 
NaMus staff to send up our program analysts to actually be 
trained in how to enter data, so we could go back and start 
entering all the data from the Bureau of Indian Affairs direct 
services agencies, and then begin working with the tribal law 
enforcement programs to try to get them to enter their data as 
well.
    I pulled a report from the system a couple of weeks ago, 
and there was about 372 Native entries in the system. Those are 
not all just from Indian Country; they are from everywhere. We 
are hoping once we get all of our data entered, that we will be 
able to actually pull data specifically from Indian Country 
locations, because that is some of the data fields that were 
added to it, so we can tell you how many actual people are 
missing from the reservations, from Indian Country, and how 
many people are missing that are not from Indian Country.
    So we are entering our data and we are hoping as we move 
forward, we get the tribal programs to start entering their 
data. There is a lot, Alaska has done a fabulous job with 
entering a lot of their missing persons in the system already. 
But our program analysts are actually working with tribal 
programs to encourage them to enter the data as well.
    So we are hoping this year we get most of those cases 
entered into the system, so we can actually pull a report and 
have a good idea actually how many missing persons cases are 
unsolved in Indian Country.
    The Chairman. Same hearing back in December, you testified 
about the need to better equip law enforcement on collecting 
evidence, especially with regard to missing and murdered Indian 
people. Who is responsible for collecting this type of evidence 
for missing and murdered Indian people? Do tribal law 
enforcement officers need to perform better, BIA law 
enforcement, or the FBI? In your opinion, which entity needs 
the most training in this area?
    Mr. Addington. I think all three could use more training in 
that area. It depends on who is operating the program, if it is 
a tribal law enforcement program, we have had issues with being 
able to get the data collected, better respond to a missing 
person call. And if you don't process the scene like you would 
if someone, if it was a crime, then sometimes you miss 
collecting very important evidence. We have seen that across 
Indian Country in different pockets.
    But we have put a lot better training out there in our 
Indian police academy, and are working with BIA and DOJ. So we 
do have some specific training on evidence collection and those 
kinds of things that we put out there. So we are providing that 
the best we can.
    I think everybody can always use more training in those 
areas. As times change, and how you collect evidence, and how 
the missing person, we learn more all the time of different 
stories about a missing person case that didn't get done 
correctly. I think training everyone in the proper way to do it 
would be beneficial across the board.
    The Chairman. Senator Cortez Masto.
    Senator Cortez Masto. Thank you, and thank you to the 
Chairman for holding these hearings on these important bills. I 
appreciate it.
    Mr. Toulou, let me jump back to Savanna's Act, in section 
7, that you just were talking about. I think you characterized 
it, what we are trying to do is provide a carrot, not a stick. 
That is what the amended language does. I didn't hear that you 
had concerns about it, other than you had to run it up the 
chain to make sure everybody signs off on it within DOJ. Is 
that correct?
    Mr. Toulou. I do not personally have concerns about it. I 
don't speak for the entire department. I think we have had a 
lot of back and forth on this bill, we feel pretty comfortable 
where it is. There are some technical issues we want to work 
through with your staff on section 7.
    Senator Cortez Masto. And that is the only section that you 
have concerns or technical concerns about?
    Mr. Toulou. Yes.
    Senator Cortez Masto. Thank you.
    Mr. Addington, Savanna's Act, do you have any concerns 
about Savanna's Act at all? Do you support it?
    Mr. Addington. Yes, we support it. We don't have any 
concerns at this time.
    Senator Cortez Masto. Thank you. So let me then talk about 
the Not Invisible Act. Mr. Toulou, let me jump back to you.
    In your testimony, you said the Department of Justice would 
like to work with the Committee on language in the bill, the 
Not Invisible Act, to ensure it achieves its stated goals. What 
it is trying to do is create the advisory committee and create 
a point person within the Bureau of Indian Affairs. What is 
your concern that it won't achieve its stated goals?
    Mr. Toulou. I think we have a complicated process where we 
work with other agencies and we have special responsibilities 
and duties at the Department of Justice. We coordinate well 
with the Department of Interior. But who is coordinating those 
activities outside the department and is the forward-facing 
face of the department is something we want to talk to you 
about, and how that gets done?
    In the U.S. Attorney's offices, for instance, the U.S. 
attorneys are the chief Federal law enforcement in that area. 
We want to make sure that the existing, and the largely 
successful, understanding their issues, processes for 
communicating with our law enforcement partners are preserved 
in a way we can move forward.
    Senator Cortez Masto. Is that type of activity not 
happening now?
    Mr. Toulou. Yes, it is.
    Senator Cortez Masto. So it is happening.
    Mr. Toulou. We are talking, and I think Charlie and I have 
a good relationship, the people in the field have a good 
relationship.
    Senator Cortez Masto. So this would be just a codification 
of what you are already doing.
    Mr. Toulou. I think the way it is structured is different 
than what is already going on, particularly having the 
coordinator within the Bureau of Indian Affairs.
    Senator Cortez Masto. Okay. So what it is really doing is 
looking to not only coordinate the agencies, but looking at 
best practices and bringing in our Native communities to be a 
part of that discussion. Do you have concerns about that at 
all?
    Mr. Toulou. We don't have concerns as far as working with 
Native communities on these issues. We would, I think, want to 
talk to you about how the bill is structured. I can't speak for 
the entire department, but there were a lot of moving pieces in 
that bill. We think the intent of the bill, and I think I said 
that in my testimony, is something we applaud and support. But 
this is a bill that I think we would really like to sit down 
and talk with you about.
    Senator Cortez Masto. So what I would prefer, and we had 
asked back in March to get information from both of the 
agencies to go through this, and we haven't received any 
response until today, and what I am hearing is that you have 
some concerns about the structure, but that doesn't give me 
specifics. That is what I am looking for. So can I get a 
commitment from you that within the next couple of weeks you 
will sit down with us to identify your concerns in the Not 
Invisible Act so we can address those?
    Mr. Toulou. Yes, I would be happy to talk to you.
    Senator Cortez Masto. And Mr. Addington, the same?
    Mr. Addington. Absolutely. I think we have already been in 
contact with someone from your staff to do that.
    Senator Cortez Masto. I appreciate that. Thank you very 
much.
    Let me jump over then to Chief Justice Demmert and Ms. 
Malerba. Thank you so much for being here. Let me just say, I 
don't disagree with anything that you have said. You are living 
it every single day. We have really a responsibility here at 
the Federal level to address every single concern that you have 
talked about.
    I can tell you, somebody that was on the ground, as the 
attorney general, working with our tribal communities in 
Nevada, this is something that is happening across the Country. 
Everybody should be outraged; everybody should be looking to 
address. And when I say everyone, not just us here in Congress 
that are Federal agencies. On a local, State, everybody should 
be working with you to address this issue and making sure that 
we are all communicating and talking to one another, and 
listening.
    So I cannot thank you enough for being here. I support this 
legislation. Thank you for the feedback. If you have any other 
feedback or any other ideas or issues that we should be 
addressing here at the Federal level, I look forward to talking 
with you. Thank you again for being here.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Mr. Toulou, I want to begin with you. You indicated in your 
testimony that you felt that the engagement from members on 
these matters in front of us was unprecedented, unprecedented 
engagement. You mentioned a sense of urgency that the Attorney 
General has placed on addressing these issues of public safety 
and the crisis.
    I would ask those of you within the Department of Justice 
and within the Department of the Interior, let's have an 
unprecedented engagement, not just amongst the members. I am 
looking forward, and am working with Senator Cortez Masto as we 
work on not only Savanna's, but on Not Invisible, and all these 
others, we need unprecedented engagement. Because the urgency 
of this situation is just not as to these bills: it is bigger, 
it is broader.
    So I want to take my question with you. The visit that the 
Attorney General had, that you have had, really, it makes clear 
that the system that we have in place in Alaska to provide 
basic public safety is just not working for so many Alaskans. 
We know that we have to be working together with the tribes, 
the local residents, the State, the Federal level.
    You have noted that you see the overlap in these five 
bills, that is good. I appreciate what you have said, that we 
need to have a renewed commitment to improving public safety in 
Indian Country and Native villages.
    But back home, I am wondering, as they saw not only the 
buildup to the Attorney General's office played out in the 
evening news, and in the newspapers, they saw what happened on 
the ground, they saw the discussions, the expectations are 
high. Certainly our staffs are working, but what can you say 
publicly is happening within the Department of Justice in terms 
of next steps? I am talking with my friend, Mr. Moran here, as 
the chairman of the CJS subcommittee. I am saying, Jerry, we 
need to make sure that these programs that you have oversight 
on, that they are going to be working to address some of the 
challenges that the Attorney General and that you have seen.
    Can you give me any specifics here today?
    Mr. Toulou. I should not steal my boss's thunder as these 
things come out, but he has been working, and tasked us to 
work, since we have been back, we have met on at least a weekly 
basis. I have reached out to the tribal partners up there, 
particularly the AVCP and TCC about how we can provide better 
support to the field.
    I expect we will see something coming out in the next few 
weeks. He was very concerned about law enforcement resources. 
He has asked us to look at that very closely. We will be 
talking to the U.S. Attorney later this week about matters we 
can take in hand.
    I understand the urgency, and I understand that people want 
to see a reaction. We wanted to make sure this trip wasn't just 
a photo opportunity and we thank you for your support in making 
it a meaningful opportunity. We intend to take meaningful 
action.
    Senator Murkowski. And know that, again, as he works to 
roll things out, you have a lot of folks who are willing to 
work with you. We are going to need all of us to address this.
    Next question is also to you, and specific to Alaska. I 
mentioned the pilot program that Congressman Young has included 
in the House VAWA bill. This is the Alaska pilot. Is DOJ 
supportive of this concept?
    Mr. Toulou. We understand that much of the jurisdictional 
issues that Alaska has is not similar to other areas.
    Senator Murkowski. Right.
    Mr. Toulou. We see this as an opportunity to work on that. 
We would like to talk to you about it, but it does seem to us 
to be a very good option for discussion.
    Senator Murkowski. Well, we do want to talk to you about it 
and I think the statements that have been made in the past 
about support for existing special domestic violence 
jurisdiction, there has been kind of a measured response and 
concern about the judicial aspect. You wanted to know that it 
has been supported; it is going to be supported in the courts, 
we understand that you have reiterated that again. But I think 
we know we have a unique situation in the State of Alaska. You 
recognize it, the Attorney General recognizes it.
    Justice Demmert, I want to thank you for your comments and 
reiterate what Senator Cortez Masto has said. Thank you, not 
only for your input as it relates to the situations with Alaska 
tribes, but your leadership within NCAI and your work on the 
VAWA task force.
    As you have heard, and you know, I am supportive of 
establishing the pilot for the exercise of the special domestic 
violence criminal jurisdiction in the State. You have mentioned 
the statistics. Over 250 percent, Native women over-
represented. So our statistics almost shock the conscience. 
Then when you look at the level of public safety, knowing that 
one in three communities in the State of Alaska have no local 
law enforcement. For those who are sitting behind you, let me 
say it again, one in three communities in the State of Alaska 
have no local law enforcement. That means no State troopers, no 
VPSOs, no TPOs, tribal police officers. We have a situation 
that is just not sustainable.
    Then of course what you have is, in these communities that 
don't have law enforcement, that can't be reached by the road, 
you have four times as many sex offenders that are there per 
capita than the national average. Why is that? Well, because 
they know they are home free. They can live the life of a 
perpetrator, knowing that nobody is going to be able to 
prosecute them.
    So this is more of a thank you to you for the effort that 
you are doing. But know that we have work to do with the VAWA 
legislation moving forward. I know that the narrowness of the 
VAWA 2013 is an ongoing source of frustration for implementing 
by the tribes. We know we have some gaps that we need to fill.
    There is legislation out there that would allow for 
expansion to crimes against children, law enforcement officers. 
I think that is a specific piece of it. But know that this is a 
time for us to address the deficiencies that we know exist with 
VAWA 2013. So we want to work with you on that.
    Mr. Chairman, my time is well over, and we have votes. I am 
going to try to come back, though, because these are big 
issues. Thank you all for your testimony here today.
    Senator Udall. [Presiding] Thank you, Senator Murkowski.
    Chief Malerba and Chief Justice Demmert, in 2018, the 
National Congress of American Indians published a report on 
lessons learned from the first five years of VAWA 2013 tribal 
jurisdiction. Notably, tribes reported that about 58 percent of 
domestic violence they deal with involved children, yet 
children are not protected under the 2013 Tribal Special 
Domestic Violence Criminal Jurisdiction provisions.
    Have either of you seen the impact of this jurisdictional 
gap on Native communities? Chief, why don't you start?
    Ms. Malerba. Absolutely. What you see is there is a term, 
my background is nursing. So there is a term called ACEs, and 
it is Adverse Childhood Events. What happens is that affects 
that child right throughout their entire life. You see more 
substance abuse, you see less achievement in school, you see 
children that will then also become perpetrators, because that 
has been their way of life.
    So it is something that is pervasive. It not only affects 
that child, but it affects the next generations, and it affects 
the entire family. So this is something that needs to be 
corrected, it just can't continue to be sustained.
    The Chairman. Great. Thank you. Chief Justice?
    Ms. Demmert. Yes, I would echo those comments. One of the 
implementing tribes in NCAI's five-year report says that an 
Indian woman who was assaulted and raped by the non-Indian 
father of her children, the couple's eight-year old son 
disclosed in his statement to police that he was punched in the 
face by his father. That is not an unusual situation. Children 
are in the home. Very often, we look at law enforcement and 
medics as being the first responders. Our children are really 
the first responders. They are the ones who are in the home 
when these situations are happening.
    The rate is about 60 percent of the cases involve children 
in our Special Domestic Violence Court Jurisdiction cases. To 
not have those cases picked up by any other authority is just 
really a tragic situation that fuels the perpetrators and 
emboldens them to commit these crimes. Thank you for the 
question, Senator Udall.
    Senator Udall. Thank you. According to the data I have 
seen, some of the most dangerous calls police respond to are 
related to domestic violence and domestic disturbances. One of 
my home State tribes, the Navajo Nation, has had five of its 
police officers die in the line of duty since 2011. Three of 
those deaths were related to domestic violence incidents.
    Mr. Addington, does BIA have any data on the total number 
of OJS and tribal officers assaulted or killed in the line of 
duty as a result of domestic disturbance calls?
    Mr. Addington. Thank you for that question, Chairman. We 
don't have specific data just on domestic violence calls, but 
we do have the data on the number of officers, tribal officers 
or officers in Indian Country, that have been assaulted. In 
just over the last eight years, it is about 5,150 officers that 
have been assaulted in Indian Country, a very high number.
    A lot of these are responding to domestic violence calls. 
When they get there, responding to domestic violence calls, it 
is one of the most extremely dangerous calls that an officer 
will go on. Because when they get there, things have already 
escalated to the point where someone has to call law 
enforcement. So you have one or both parties that is already 
agitated, and sometimes they become aggressive toward the law 
enforcement officer.
    So we try to tailor our training as well to these types of 
calls in rural settings, because the officers are responding to 
these calls with little or no backup. That is what we are 
trying to mirror our training, tailor it to those types of 
calls and try to expand our training footprint, not only 
throughout the United States and put in more training for the 
tribes up north. We already have our Indian Police Academy down 
in New Mexico as well. So we are trying to expand those 
training opportunities, so we can get it out to the field, get 
those officers trained, as times change, and they are 
responding to more violent calls.
    Senator Udall. Do you think it makes sense for tribal 
jurisdiction to be able to be assumed over these kinds of law 
enforcement assaults that we are talking about?
    Mr. Addington. Absolutely. Absolutely. Our tribal law 
enforcement out there is some of the best law enforcement. I 
would put them up against anyone in the Nation. They are 
extremely talented law enforcement officers. But they are 
sometimes put in rural areas where they have little or no 
backup and they deal with it every day. These calls are 
extremely dangerous that they go on. Lots of domestic violence 
calls in Indian Country. So we need to give them the tools and 
the training so they can make sure that they are keeping it as 
safe as possible out there.
    Senator Udall. And my additional point was tribal courts, 
and what this legislation does give them authority to 
prosecute, assaults against law enforcement officers.
    Mr. Addington. Absolutely.
    Senator Udall. Yes. Senator Daines.

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Senator Udall.
    I want to thank you all for coming here today as we 
continue to work to put an end to the missing and murdered 
indigenous women crisis. As I travel around Montana, I often 
hear, too often, that it takes up to two weeks to receive 
reports of missing family members, because of inefficient law 
enforcement. I also know many of these horrendous crimes in 
Indian Country are related to substance abuse, meth, alcohol, 
other.
    That is why today I am introducing two bills to address 
both these issues, both supported by tribal communities in 
Montana. First, the Finding and Investigating Native 
Disappearances Act, or the FIND Act, would help improve trust 
between tribal families, law enforcement and other agencies so 
that reporting from families in Indian Country will increase. 
It also confronts the impacts of meth and other drugs on 
violent crimes in Indian Country and will help ensure that 
tribes and Congress fully understand this tragic connection 
between the two.
    I also introduced the Tribal Accountability and Reporting 
to Congress Act, or the TRAC Act, which would require the 
tribal liaisons at the U.S. Attorneys' offices to provide 
Congress with an annual report on incidences of missing and 
murdered people in Indian Country. This transparency and 
accountability will compel Federal law enforcement to 
prioritize this growing crisis and hopefully will save lives.
    Mr. Addington, does the Office of Justice Services at the 
BIA have a specific program to put in place to work on building 
trust in the community so that families feel more confident and 
more comfortable coming to law enforcement?
    Mr. Addington. Thank you for that question, Senator. We do 
have community policing programs that we do training to tribal 
officers to try to engage them with the tribal communities, to 
make sure that officers are not just someone that you see in 
the car driving by, they are actually getting out and getting 
in touch with the communities that they work in. In some areas, 
it depends on the level of participation.
    Senator Daines. Is there room for improvement?
    Mr. Addington. There is always room for improvement, and a 
lot of times what we see is the tribal officer just doesn't 
have the resources. They are too busy going on calls, rather 
than to do something proactive.
    Senator Daines. My question is, would you work with me on 
this FIND Act, to help address these shortcomings?
    Mr. Addington. Absolutely.
    Senator Daines. The most vital resource in any missing 
persons case is time. We simply have to find ways to increase 
trust between our tribal communities to ensure we protect this 
very valuable resources. Thank you, Mr. Chairman.
    Senator Udall. Thank you very much, Senator Daines.
    Let me ask Chief Malerba, I recently spoke on the Senate 
Floor about an incident on the Eastern Band of Cherokee Indian 
Reservation where a non-Indian individual charged with beating 
and strangling his girlfriend assaulted a corrections officer 
after his arrest. The tribe referred this case for Federal 
prosecution, but the U.S. Attorney's office ultimate dropped 
the case.
    Chief, do you believe that tribes need the authority to 
hold domestic violence defendants accountable if they assault 
tribal justice personnel during the course of their arrest, 
trial or incarceration?
    Ms. Malerba. Thank you, Senator Udall. I absolutely believe 
that the tribes have jurisdiction and should have jurisdiction 
no matter who is committing the crime on our reservation. In 
fact, the statistic is that 96 percent of assaults on 
reservations occur and are perpetrated by non-Natives.
    Connecticut would no longer be responsible for jurisdiction 
for a crime committed in Rhode Island by a Connecticut citizen. 
So why wouldn't it be the same for Indian Country, to be able 
to prosecute the crimes that happen within their territory? We 
have the resources. We have the ability. And I think that it is 
time that our sovereignty has been recognized in just that way.
    I really appreciate your asking that question.
    Senator Udall. Great. Thank you for that answer.
    Mr. Toulou, what does the Department of Justice's research 
into officer assaults and fatalities tell us about the dangers 
of responding to domestic disputes?
    Mr. Toulou. Unfortunately, I can't respond to the specifics 
about the report. I can get back to you on that. I will say 
that as a former assistant U.S. Attorney who used to do 
domestic violence cases, I knew from the officers I dealt with 
that one of the most dangerous calls they could take was a 
domestic violence call. It was frightening, and the work they 
do is amazing.
    So I will get back to you on that issue, but we understand 
it is an issue.
    Senator Udall. Thank you. Give us a good answer for the 
record, that will be terrific. Thank you.
    The BADGES for Native Communities Act seeks to remove the 
barriers that prevent the BIA from getting trained officers out 
in the field, as well as provide officers who are already out 
in Native communities with the resources, they need to keep 
doing their jobs effectively. Section 204 of my bill would 
require the Departments of Justice and Health and Human 
Services to work with BIA's office of Justice Services to make 
certain BIA and tribal police departments have access to 
Federal resources for PTSD and other line of duty related 
mental health traumas they might encounter.
    Mr. Addington, do your officers and tribal officers need 
additional mental health resources to address on the stress 
they encounter in the line of duty and do you believe access to 
more culturally appropriate resources would decrease officer 
burnout?
    Mr. Addington. Thank you for the question, Senator. I 
absolutely believe it will decrease officer burnout. Our police 
officers in Indian Country, they are work in a very, very 
stressful, dangerous environment where they respond to a myriad 
of calls involving a lot of visual trauma to adults and 
children. Officers a lot of times, this causes PTSD or 
depression or anxiety, or as they work a lot of hours without 
days off just because of shortage. And there is not any real 
counseling or services out there for those tribal officers.
    I talked to one of the tribes in your district, and they 
were asking me, look, we have to drive a long way just to 
contract services with a counselor in another town, a long way 
away. And that is unacceptable. Officers need to have those 
resources at their fingertips. And it needs to be culturally 
appropriate. Just bringing someone in, we have tried it in the 
past, we would bring a contractor in to talk to some of our 
officers. And of course, they come in and say the wrong thing 
and offend someone, the officers are not going to talk to those 
folks.
    So we do need the resources out there. We don't have them. 
We have a peer support group that goes around after we have 
officer involved shootings or traumatic incidents. But that is 
after the fact. We need some mental health first aid for our 
folks, so they know who to call if they need something and get 
that support.
    Senator Udall. Would BIA support having the Department of 
Justice and HHS assistance in building up these resources?
    Mr. Addington. Absolutely. I have, with the assistance of 
the Administration of Native Americans Commissioner, we have 
already been in a few calls with SAMHSA about resources as 
well. I welcome any support from any programs that we can get 
as much help for our officers out in Indian Country that we 
can. It is a much-needed resources.
    Senator Udall. Yes. Mr. Toulou, do you have any thoughts on 
the role of the Department of Justice in this?
    Mr. Toulou. I know that the department, through the Office 
of Justice Programs, has funds available for tribal officers. I 
am not sure how they interface with another Federal agency, but 
these are Federal partners. We understand the stress that is on 
them. I would be willing to talk to BIA after this and the 
folks back in our grant-making components, and figure out if 
there are any compatibility issues. Because it is an important 
need.
    Senator Udall. Great. Thank you. The 2017 Indian Country 
Investigations and Prosecutions Report from the Department of 
Justice says that the declination rate has been relatively 
steady at 37 percent. In April, I received a letter from 16 
former U.S. Attorneys expressing their full support for the 
Native Youth and Tribal Officer Protection Act, and linking the 
disproportionately high rates of violent crime in Indian 
Country to this near-static Federal declination rate.
    So I would like to add this letter to the record, and 
without any objection, I would see that it has been added.
    Reading from the letter now, they note that, ``Too often, 
United States Attorneys offices with jurisdiction declined to 
prosecute a non-Indian perpetrated crime committed on tribal 
lands. The fact that many violent crimes committed against 
American Indians are never prosecuted is contributing to the 
high rates of violence Native women and children face.'' These 
former U.S. Attorneys go on to stress that restoring tribal 
jurisdiction over crimes against tribal law enforcement and 
children, like S. 290 proposes to do, is critically important.
    So Mr. Toulou, as a former assistant U.S. Attorney in 
Montana, do you agree with your colleagues that the low 
prosecution rates are linked to higher rates of violence in 
Indian Country?
    Mr. Toulou. I think the more we can do with prosecutions, 
the better. That is going to probably have positive results on 
what happens in Indian Country moving forward.
    Senator Udall. Yes. And I know you gave testimony in 2016 
before the Committee, and you said too many cases of domestic 
violence and dating violence committed by non-Indians against 
their Indian spouses and dating partners went unprosecuted and 
unpunished. As a result of this jurisdictional gap, as well as 
other factors, Native American women have suffered some of the 
highest rates of violence at the hands of intimate partners in 
the United States. So you, I think, stated it pretty strongly 
there.
    Chief Justice Demmert, do you agree that restoring tribal 
jurisdiction over violent crimes like those covered by S. 290 
and S. 288 is necessary to get known violent offenders off the 
streets of Indian Country before their dangerous behavior 
escalates to deadly levels?
    Ms. Demmert. Absolutely. We need to have all the tools that 
our Federal and State counterparts have, and the ability to 
prosecute. So we need that authority and resources to combat 
these issues. And authority is to describe the jurisdiction in 
a way that is meaningful and doesn't provide loopholes to these 
perpetrators who seem to just understand those problems in our 
ability to hold them accountable. So thank you for the 
question, but absolutely.
    Senator Udall. Mr. Addington, the Tribal Law and Order Act 
of 2010 requires the BIA to submit an annual report to Congress 
on the unmet staffing needs of law enforcement, corrections and 
tribal court programs. The 2017 annual report reflects the 
BIA's direct service law enforcement program's staffing, but 
leaves several open questions. Mr. Addington, for example, what 
are the current national and regional law enforcement vacancy 
rates for BIA, and does the department track officer attrition 
rates or causes?
    Mr. Addington. Thank you for that question, Senator. Yes, 
our direct service programs and tribal law enforcement programs 
across the Nation may vary anywhere still from 1.8 to 3.2 
officers per 1,000 residents. A lot of that is attributed to 
being able to get law enforcement officers recruited and get 
them through the background. Of course, the BADGES will help us 
with that, because that is one of the biggest obstacles we have 
under the Tribal Law and Order Act. We do have to do tribal 
backgrounds for tribal law enforcement officers if requested by 
the tribe, the BIA has to do those.
    So getting them through a background process and getting 
them boots on the ground quicker, we do track, if we do have 
folks that leave, if we can do an exit interview with them, if 
it is not something abruptly, and then we do track why they 
left, and an attrition rate, to say, okay, why are you leaving. 
We have a lot that leave just because of working long hours and 
then family issues as well, which has contributed to some of 
the things that they go through as law enforcement officers.
    Senator Udall. Yes. Chief Justice Demmert, do you have any 
recommendations for how Congress might improve the usefulness 
of BIA's Law Enforcement Unmet Staffing Needs report?
    Ms. Demmert. Well, interestingly, we really don't have BIA 
law enforcement in Alaska. So give us some of those staff, and 
that would greatly improve a lot of our situation.
    As you heard Senator Murkowski say, one in three or nearly 
40 percent of our communities lack any law enforcement 
whatsoever. Because of how P.L. 280 has been funded and 
applied, many of the law enforcement and tribal court resources 
fail to reach us in Alaska. We would really like to see that 
change.
    So we thank you for the question. I just want to say, if I 
could, about the declination issue, our tribal liaisons are 
working very hard to meet the requirements of their jobs, which 
includes training and education, as well as prosecuting cases 
that may be all around the State, and many hours away. It is no 
wonder that the declination rate is so high, and that they are 
unable to reach the communities that they need to.
    So again, getting back to your original question to me 
about would this benefit our communities, having this improved 
jurisdiction, absolutely. Because no one is doing it, 
especially in Alaska. We have so many crimes that go 
unprosecuted and uninvestigated. So we look forward to these 
improvements in the jurisdictional components of both of those 
bills. Thank you very much, Senator Udall, for the question.
    Senator Udall. We are in the middle of back and forth in 
votes and everything, so from everything we can tell, everybody 
has asked all their questions. There will be, from what you can 
tell, no more questions today. I want to remind all of you that 
the hearing record will be open for two weeks. We really 
appreciate your time and effort here.
    With that, the hearing will be adjourned. Thank you.
    [Whereupon, at 4:08 p.m., the hearing was adjourned.]

                            A P P E N D I X

 Prepared Statement of the National Indigenous Women's Resource Center
    On behalf of the National Indigenous Women's Resource Center 
(NIWRC), we are pleased to provide testimony to the Senate Committee on 
Indian Affairs on Savanna's Act, the Justice for Native Survivors of 
Sexual Violence, the Native Youth and Tribal Officer Protection Act 
(NYTOPA), the Not Invisible Act, and the Bridging Agency Data Gaps & 
Ensuring Safety for Native Communities Act (BADGES). NIWRC is also 
using this opportunity to urge the Committee to support bringing the 
House version of the Violence Against Women Act (VAWA), H.R. 1585, to a 
vote on the Senate floor.
    NIWRC is a Native nonprofit organization that was created 
specifically to serve as the National Indian Resource Center (NIRC) 
Addressing Domestic Violence and Safety for Indian Women. NIWRC is 
dedicated to reclaiming the sovereignty of Native Nations and 
safeguarding Native women and their children. Through public awareness 
and resource development, training and technical assistance, policy 
development, and research activities, we provide leadership across the 
Nation to show that offenders can and should be held accountable and 
that Native women and their children are entitled to: (1) safety from 
violence within their homes and in their community; (2) justice both on 
and off tribal lands; and (3) access to services designed by and for 
Native women based on their tribal beliefs and practices.
    The National Institute of Justice, through the USDOJ, released an 
alarming study in May 2016, \1\ confirming what many of us working to 
protect Indian women and children already knew. American Indian and 
Alaska Native (AI/AN) women experience severe rates of violence in 
their lifetimes, including:

  <bullet> 38 percent who were unable to receive necessary services, 
        including medical care and legal services

  <bullet> 56.1 percent have experienced sexual violence;

  <bullet> 55.5 percent have experienced physical violence by an 
        intimate partner;

  <bullet> 48.8 percent have experienced stalking; and

  <bullet> 66.4 percent have experienced psychological aggression by an 
        intimate partner.

    These are not just statistics. These numbers represent the lived 
experiences of many Native women. Continued systemic change is needed 
if we are to address this violence in a meaningful way for AI/AN women. 
It is in these numbers that we see the effect of the devastatingly 
complex legal framework and various intersections that Native survivors 
of this violence must confront. It is also in these numbers that we are 
able to fully grasp the failure of the Federal Government to completely 
fulfill its federal trust responsibility to Tribes and Indian people. 
The Federal Government is obliged under the doctrine of trust 
responsibility to Tribal Nations, as the United States ``has charged 
itself with moral obligations of the highest responsibility and trust, 
. .. to the fulfillment of which the national honor has been 
committed.'', \2\ This trust relationship originates from the hundreds 
of treaties and other agreements that the United States government 
entered into with Tribal Nations., \3\
Current System Response Inadequate
    As the Committee is aware, there are countless examples of missing 
and murdered Native women and children where insufficient resources and 
lack of clarity on jurisdictional responsibilities have exacerbated the 
efforts to locate those that are missing.
    In 2006, Vicky Eagleman went missing, just after the 2005 
reauthorization of the Violence Against Women Act and inclusion of the 
historic Title IX Safety for Indian Women. It really seemed change was 
coming. The events that took place over the days following Vicky's 
disappearance, however, made clear that all of the changes won through 
VAWA fell short of what was needed. June Left Hand, Vicky's mother, 
reported her disappearance. Deep within her, June felt strongly that 
something was wrong. When she called the BIA, their response was: 
``Vicky was off partying, don't worry Vicky will show up, she ran off 
with a biker to Sturgis.'' The lack of response and regard for a 
missing Native woman was unacceptable then, and it is unacceptable now. 
The response has always been slow and ineffective. 27 days later, 
community members found Vicky's body, and 13 years later, the case 
remains unsolved with no one held accountable for her murder.
    Her disappearance created a sinking feeling that it would take 
decades, lifetimes--even generations--to overhaul this system that has 
never protected Native women, and that many more lives would be taken 
before the Federal Government would take action to right this wrong.
    In 2013, Malinda Limberhand, on the Northern Cheyenne reservation, 
also tried to report her daughter Hanna Harris as missing. The 
similarities in the response--or lack of response--from law enforcement 
between Vicky and Hanna are so close that it is a gut punch. Malinda 
was told, ``Hanna is just too scared to come home.'' Like June, Malinda 
was told she could search for Hanna herself. And, like in Vicky's case, 
Malinda and the community did find Hanna, but it was too late.
    NIWRC has covered the crisis of MMIW consistently over the years, 
since 2008, through our quarterly publication Restoration. The outrage 
of the families, the Tribes, and so many others across the United 
States and the world has finally elevated this issue from a local to a 
national level, and from an issue most treated as merely a family 
responsibility to an issue many now recognize as one of Congressional 
and United Nations' responsibility. Now that the injustices are in the 
public's eye, has the response of the system changed? The answer is a 
resounding no, it has not changed. Kimberly Loring Heavy Runner's 
recent testimony before the Senate Committee on Indian Affairs hearing 
on MMIW described the same failures in her sister's disappearance and 
murder., \4\ Ashley Loring Heavy Runner went missing June 12, 2017, on 
the Blackfeet Reservation. The family received the same response 
Malinda and June received. They were not taken seriously and told: 
``Ashley is of age and can leave whenever she wants to.''
    From Vicky's disappearance on July 28, 2006, to Hanna's 
disappearance on July 4, 2013, to Ashley's on June 12, 2017, little has 
changed, and the system's failed response remains the same.
    During this period of more than a decade, it is apparent that not 
much has changed; hundreds of Native women and girls have gone missing 
and have been murdered.
    The current system response is inadequate and the rate at which we 
are losing Native women is unacceptable. NIWRC calls on this Committee 
and all of Congress to provide a deeper and broader response to the 
crisis of MMIW. In 2018, the U.S. Commission on Civil Rights released 
the Broken Promises Report, \5\ which continued to affirm the need for 
the Federal Government to fulfill its trust responsibility with 
appropriate allocation of resources to law enforcement and Tribal 
Nations. MMIW and the perpetuation of injustice impacting Native women 
disproportionately reflects the lack of resources available to Tribes 
to provide victim services and justice and the failure of local, state 
and federal responses to these crimes. NIWRC is committed to working 
with federal lawmakers to strengthen local, tribal authority to respond 
to these crimes and ensure availability of resources for Tribes. 
Addressing the injustices Native women endure adequately will require 
reforming the legal framework which diminishes tribal authority. To 
truly meet its trust responsibility to assist Tribes in safeguarding 
Native women, the Federal Government will have to provide adequate 
resources for victims through the tribal advocacy programs they need. 
Ultimately, the Federal Government must restore local tribal authority 
and jurisdiction.
Challenges Created by Legal Framework
    The crisis of missing and murdered Native women in the context of 
gender-based violence is the result of legal barriers rooted in the 
federal legal framework. This on-going crisis has been raised by tribal 
leaders at every VAWA mandated government-to-government annual 
consultation since 2006. A strong national response is needed to 
respond to the countless reports of missing and murdered Native women 
and girls. Tribal Nations and family members continue to witness daily 
reports of another sister, mother, daughter, granddaughter, relative, 
or community member lost to violence, which sends shock waves across 
all of Indian Country.
    Although the Supreme Court made clear in Oliphant that Congress has 
the constitutional authority to restore the tribal criminal 
jurisdiction that the Supreme Court has removed,, \6\ until tribal 
criminal jurisdiction over non-Indian perpetrated crimes of murder is 
restored, whether a Tribal Government has authority to investigate, 
arrest, and/or prosecute when a Native woman is missing depends upon 
the Indian/non-Indian status of the offender, the location of the 
crime, the nature of the crime, and the status of the land where the 
crime was committed. \7\
    The consequence of this current jurisdictional quagmire is that, 
most times, when a Native woman goes missing on tribal lands and the 
local Tribal Government cannot demonstrate that the perpetrator was 
Indian-or that the crime took place on lands that qualify as ``Indian 
country'' under 18 U.S.C.
  <bullet> 1151(a)--then the Tribal Government is without jurisdiction, 
        although the Federal Government could have jurisdiction, the 
        Federal Government most often declines to intervene or take on 
        the case. \8\
    The non-existent response of law enforcement leaves the 
responsibility of a search effort to the family members or tribal 
community. There is no question that the pillars beneath the crisis of 
missing and murdered are the restrictions on tribal authority to 
prosecute non-Natives for crimes committed on tribal lands and the 
severe resource disparity in Indian Country at large. The current legal 
framework fails to respond to the abduction, disappearance and murder 
of Native women and girls because that same framework was born during 
an era of termination of Indian Tribes and a prejudiced belief that 
Tribal Nations' responses to such crimes were not just as defined by 
Western standards of justice. We often speak of a ``broken system'' or 
of legal reform, but the truth is that the legal framework that applies 
in Indian Country was not designed to protect Native women and girls.
    We know that the restoration of tribal criminal jurisdiction over 
non-Indians works. Five years ago, when Congress passed the Violence 
Against Women in 2013, the re-authorization of VAWA included a 
provision, known as Special Domestic Violence Criminal Jurisdiction 
(SDVCJ), that reaffirmed the inherent sovereign authority of Tribal 
Governments to exercise criminal jurisdiction over certain non-Indians 
who criminally violate qualifying protection orders or commit domestic 
or dating violence crimes against Indian victims on tribal lands. \9\
    In the six years since VAWA was reauthorized in 2013, over two 
dozen Tribal Governments have begun exercising criminal jurisdiction 
over non-Indians and several dozen more are in varying stages of 
planning to implement the law.
    From 2013 to 2018, the implementing Tribes reported making 143 
arrests of 128 non-Indian abusers. These arrests ultimately led to 74 
convictions, 5 acquittals, and as of 2018, there were 24 cases then 
pending. There has not been a single petition for habeas corpus review 
brought in federal court in an SDVCJ case. Although some argued, prior 
to VAWA 2013's passage, that Tribal Courts would be incapable of fairly 
implementing SDVCJ, the absence of even a single habeas petition in the 
first five years reveals that those arguments were unfounded and likely 
based on prejudice alone. Moreover, for the Tribes that have 
implemented SDVCJ, their juries acquitted more often than they 
convicted non-Indian defendants. The bias that many previously asserted 
should prevent Tribal Nations from arresting and prosecuting non-
Indians simply does not exist.
    The National Congress of American Indians has issued a report 
summarizing the experiences of the Tribal Nations that implemented VAWA 
SDVCJ, showing the true difference that the 2013 Reauthorization has 
been making on the ground for Native victims. NIWRC encourages you to 
review this report in its entirety as the information, data, and 
analysis contained in the report demonstrates that the restored tribal 
criminal jurisdiction in VAWA 2013 (SDVCJ) increased public safety for 
all of those-both Indian and non-Indian- living on tribal lands and in 
tribal communities. By all accounts, it has been an incredible success.
    Until or unless the inherent authority of Tribal Nations to protect 
their citizens on tribal lands is fully restored, our Native women and 
children will not be safe living in their own homes. The restoration of 
tribal criminal jurisdiction is a critical and requisite component to 
effectively addressing the murdered and missing indigenous women's 
crisis in the United States.
Meeting the Federal Trust Responsibility
    We applaud the efforts of members of this Committee and other 
Congressional champions for demanding accountability and proposing 
amendments to federal law to safeguard Native women and their children 
and address the injustices of missing and murdered Indian women. NIWRC 
is hopeful that these actions are just the beginning of the reforms to 
come.
    Reforms in Indian Country are rooted in the federal trust 
responsibility to assist Indian Tribes in safeguarding the lives on 
Indian women. It is imperative that reforms address the entire spectrum 
of violence Native women experience--birth to death.
    It is critical to have tribal programs in place that provide 
meaningful interventions to Indian victims before domestic and sexual 
violence, including sex trafficking, escalates to abductions, homicide 
or murder. Funding for such services is needed in Indian Country and 
urban areas. Less than one-half of all Indian Tribes receive funding to 
serve victims of crimes enumerated under VAWA. The vast majority of 
Indian Tribes lack any services for victims and many of these Tribes 
are geographically isolated in rural or remote areas. Generally, more 
funding is available for victim services programs in urban areas than 
for Indian Tribes. Many Tribes continue to serve their people wherever 
they are located, including urban areas, with what limited resources 
they have.
    However, the funding for tribal services remains insufficient. 
According to the National Institute of Justice, 38 percent of Indian 
victims were unable to receive necessary services, including medical 
care and legal services., \10\ Resources like the StrongHearts Native 
Helpline, a culturally appropriate, confidential service for Native 
Americans affected by domestic violence and dating violence, have found 
that there is a severe tribal resources disparity that limits how and 
what advocacy and justice services Tribal Governments are able to 
develop and provide to citizens and non-Indian residents.
    This resource disparity is, in large part, due to the fact that 
Tribes did not have direct access to the Crime Victims Fund (CVF) 
through the Victims of Crime Act (VOCA) until 2018. Though the FY18 
Omnibus Spending Bill included a 3 percent set aside for Tribal 
Governments, a permanent fix is needed. There must be a government-to-
government funding stream legislatively established for Tribal 
Governments accessing the CVF, and DOJ must consult on the best ways to 
distribute these direly needed funds to Indian Country.
    While Tribes were grateful for the opportunity to access VOCA funds 
to improve services in their communities, DOJ failed to consult on the 
administration and distribution of the funding; this failure to consult 
resulted in funding being returned to the CVF. Of the $133.1 million 
appropriated for tribal crime victim services in FY 2018, less than 
$100 million of it was disbursed to Tribes as directed by Congress. It 
is very concerning that $24 million of appropriated funds were returned 
to the CVF. Tribes have worked for years to educate members of Congress 
and the Administration about the dire need for victim services in 
tribal communities. At every opportunity over the past several years, 
Tribes have urged DOJ to administer this funding on a non-competitive, 
streamlined basis, in order to ensure that these funds are disbursed 
efficiently and equitably in a way that works for the tribal 
communities they are intended to serve. DOJ's attempts to administer 
this funding to date raises grave concerns about DOJ's capacity to 
successfully administer this funding.
    In 2019, DOJ unilaterally made the decision to utilize CTAS process 
for FY 2019 funding. As such, DOJ received only 59 applications for 
funding through the CTAS process, which at most would allow DOJ to 
allocate about $29 million of the $167 million available.
    Critical resources like the StrongHearts Native Helpline, Tribal 
Domestic Violence and Sexual Assault Coalitions, tribally-run or Native 
based shelter and sexual assault services, services designed to address 
sex trafficking, tribal housing, legal services, comprehensive medical 
and forensic services, mental health services, services for Native 
children and youth affected by domestic and sexual violence, other 
culturally appropriate programs and services, and technical assistance 
supporting tribal response development are absolutely vital to any 
meaningful response to violence in tribal communities. The current 
funding available in Indian Country is inadequate to address these 
needs--from the provision of basic, emergency services and responses to 
more comprehensive, long term services--the failure to distribute the 
funding to Tribal Nations who administer these services and programs 
constitutes a breach of the federal trust responsibility to assist 
Indian Tribes in safeguarding the lives of Indian women., \11\ Without 
adequate federal assistance and improved distribution of existing 
resources for Indian Tribes, Indian women will continue to go missing 
and be murdered at the highest rates in the country.
Key Policy Recommendations to Improve System Response
    NIWRC's technical expertise and experience makes clear that an 
effective response to the crisis of missing and murdered Indian women 
is inextricably linked to the restoring the inherent authority of 
Tribal Nations to prosecute all five of the crimes identified in VAWA 
Title IX--domestic violence, dating violence, sexual assault, stalking 
and sex trafficking. Native women experience a continuum of violence, 
with MMIW at the extreme end of the continuum.
    Responding to MMIW is not an issue that can be addressed in 
isolation, but rather needs to be seen as one manifestation of the 
violence that threatens Native women and girls throughout their 
lifetimes. In doing so, the policy recommendations that we put forward 
below relate heavily to reforms that are needed in the context of 
gender-based violence. NIWRC's response to MMIW centers on following 
essential standards of safety: access to local support services for 
victims, local authority to respond and hold offenders accountable, 
coordination between law enforcement agencies, and access to national 
victim services resources.
    To achieve these standards, specific reforms are required to 
increase protections to safeguard Native women and their children, and 
address the injustices of missing and murdered Indian women:

        1.  Access to local support services: Legislation should focus 
        on prevention by addressing underlying infrastructure concerns 
        as represented by tribal leaders, advocates, and survivors. It 
        is particularly important to address the current housing and 
        shelter deficiency that exists in tribal communities. To ensure 
        there is access to local support services, the long-standing 
        resource disparity faced by Indian Tribes must be addressed.

        2.  Local authority to respond and hold offenders accountable: 
        Experts agree that to achieve accountability of offenders, an 
        immediate, consistent, and appropriate response is required. In 
        order to be immediate and consistent in tribal communities, the 
        local Tribal Government must be able to respond. It is 
        necessary to consider adopting legislation that would 
        strengthen the local tribal response, including but not limited 
        to:

          a. Closing the non-Indian offender loophole: We urge the 
        Senate to enact legislation to strengthen tribal sovereignty by 
        addressing the remaining jurisdictional gaps with respect to 
        the Special Domestic Violence Criminal Jurisdiction (SDVCJ) 
        provisions in the Violence Against Women Act (VAWA) by adopting 
        provisions in VAWA 2019 included in House bill H.R. 1585, 
        including provisions in the Native Youth and Tribal Officer 
        Protection Act and in the Justice for Native Survivors Act 
        House bill, as well as ensuring Tribes in Maine and Alaska are 
        able to exercise SDVCJ like the rest of Indian Country;

          b. Improving tribal access to national crime information 
        systems: Expand and create a dedicated funding stream to 
        support permanent authorization for the Department of Justice's 
        Tribal Access Program (TAP) to ensure that all Tribes have 
        access to federal Criminal Justice Information Service systems;

        3.  Coordination between law enforcement agencies: It is 
        imperative that tribal, federal, and state law enforcement 
        agencies coordinate their response to cases of missing and 
        murdered Native women and girls. Coordination includes the 
        development of local and inter-jurisdictional protocols, 
        establishing standardized protocols based on best practices, in 
        consultation with Tribal Governments as mandated by VAWA, and 
        improving data collection without hampering funding for Tribal 
        Governments and tribal programs; and

        4.  Access to national victim services resources: To increase 
        access to victim resources at the local level, Indian Tribes 
        must have access to funding resources. Establishing permanent 
        funding for victim services in tribal communities is key. Set 
        aside resources for local, tribal responses to MMIW, such as a 
        permanent tribal Victims of Crime Act (VOCA) set aside for 
        tribal victim assistance and compensation programs.

    When implementation is considered in the context of the 229 Indian 
Tribes located in Alaska, these standards require reforms to address 
the unique jurisdictional challenges Alaska Tribes face. The proposed 
pilot project for Alaska Tribes to exercise SDVCJ over non-Indian 
perpetrators committing acts of domestic and sexual violence, as 
contained within the House bill H.R. 1585, sets into motion the 
beginning of the complex set of reforms required to achieve these 
standards of safety.
NIWRC Position on Proposed Legislation
Reauthorization of the Violence Against Women's Act
    NIWRC strongly supports H.R. 1585, the ``Violence Against Women's 
Act of 2019'' (VAWA), which passed the House on April 4, 2019, and 
urges the Senate Committee on Indian Affairs to support bringing VAWA 
to the Senate floor.
    Since its enactment in 1995, each reauthorization of VAWA, has 
resulted in significant victories in support of tribal authority, and 
each VAWA reauthorization has secured resources needed for increasing 
the safety of Native women across the United States.

  <bullet> 1994--VAWA included a 4 percent dedicated funding stream for 
        American Indians and Alaska Natives Tribes with a statutory 
        purpose of ``developing, enlarging, or strengthening programs 
        addressing the needs and circumstances of Indian tribes in 
        dealing with violent crimes, including sexual assault and 
        domestic violence, against women;"

  <bullet> 2000--VAWA increased the tribal dedicated funding stream 
        from 4 percent to 5 percent, provided increased clarity 
        regarding Tribal Court protection orders and enforcement, and 
        created a tribal coalition grant program;

  <bullet> 2005--VAWA included a Safety for Indian Women Title, 
        recognizing the unique legal relationship of the United States 
        to Indian Tribes and women. Congress explicitly provided that 
        the title was ``to strengthen the capacity of Indian tribes to 
        exercise their sovereign authority to respond to violent crimes 
        committed against women.'' It authorized the creation of a 
        single VAWA tribal grant program, increased the tribal funding 
        to 10 percent generally, created a Deputy Director for Tribal 
        Affairs, and mandated annual tribal-federal VAWA consultations. 
        VAWA 2005 also added dating violence as a new purpose area; and

  <bullet> 2013--VAWA included a historic amendment affirming inherent 
        tribal authority over non-Indians committing specific acts of 
        domestic violence, dating violence or violation of certain 
        protection orders in the Indian country of the Tribe, provided 
        increased funding for the tribal coalitions program, and 
        recognized sex trafficking as a new purpose area under the 
        tribal grants program.

    H.R. 1585 includes important life-saving enhancements that Tribes 
and NIWRC have repeatedly called for including:

        Addressing Jurisdictional Gaps

  <bullet> Reauthorizes 2013 provisions and expands prosecution of non-
        Indians to include obstruction of justice-type crimes, sexual 
        assault crimes, sex trafficking and stalking;

  <bullet> Recognizes that Native children are equally in need of the 
        protections that were extended to adult domestic violence 
        victims in VAWA 2013. The Tribes implementing VAWA 2013 report 
        that children have been involved as victims in their cases 
        nearly 60 percent of the time, including as witnesses. However, 
        federal law currently limits tribal jurisdiction to prosecute 
        these crimes. H.R. 1585 would recognize tribal authority to 
        protect our children in tribal justice systems; and

  <bullet> Contains important amendments to ensure Tribes in Maine and 
        Alaska are able to exercise SDVCJ.

    As discussed in their recent analysis of H.R. 1585,, \12\ the DOJ 
has expressed support for section 903(5) amending 25 U.S.C.  
1304(b)(1) to permit participating Tribes in the State of Maine to 
exercise SDVCJ. This provision addresses an omission in the original 
legislation, which failed to explicitly mention Maine Tribes, as 
required by the Maine Indian Claims Settlement Act.

        Addressing Unique Jurisdictional Challenges in Alaska

  <bullet> Creates pilot project for five Alaska Tribes and expands the 
        definition of Indian country to include ANCSA lands, townsites 
        and communities that are 75 percent Native.

    DOJ has also expressed support for section 903(9) of H.R. 1585, 
authorizing a pilot project to allow up to five Indian Tribes in Alaska 
to implement SDVCJ.

        Improving the Response to Missing and Murdered Native Women and 
        Girls

  <bullet> Directs the Government Accountability Organization (GAO) to 
        submit a report on the response of law enforcement agencies to 
        reports of missing or murdered Indians, including 
        recommendations for legislative solutions; and

  <bullet> Addresses MMIW off tribal lands by amending the DOJ STOP 
        Formula Grant Program for states (authorized by 34 U.S.C  
        10441) to address the lack of victim resources for Native 
        American women in urban areas and providing for the inclusion 
        of victim advocates/resources in state courts for urban 
        American Indians/Alaskan Natives where 71 percent of the Native 
        American population resides due to federal relocation and 
        termination policies.

  <bullet> Clarifies that federal criminal information database sharing 
        extends to entities designated by a Tribe as maintaining public 
        safety within a Tribe's territorial jurisdiction that have no 
        federal or state arrest authority.

        Dedicated Funding Stream for DOJ's Tribal Access Program

  <bullet> Creates a dedicated funding stream to support permanent 
        authorization for the Department of Justice's Tribal Access 
        Program (TAP) to ensure that all Tribes have access to federal 
        Criminal Justice Information Service systems.

    DOJ supports this proposed amendment but also requests an 
additional amendment., \13\ The proposed amendment would authorize an 
annual appropriation of $3 million to enhance the ability of Tribal 
Governments to access, enter information into, and obtain information 
from Federal criminal information databases. Since August 2015, the 
Department has supported such access through its Tribal Access Program 
for National Crime Information (TAP), but has lacked a stable and 
consistent funding source for the program, which this amendment would 
provide. DOJ also requested that the proposed amendment authorize the 
Attorney General to use prior year unobligated balances appropriated 
under 34 U.S.C.  20903 (for tribal protection order and sex offender 
registries) to support TAP with the following language. NIWRC strongly 
supports the proposed amendment DOJ includes in their analysis quoted 
below:

        ``(b)ADDITIONAL FUNDING.--

        The Attorney General is authorized to use any balances 
        remaining under the heading ``State and Local Law Enforcement 
        Activities, Office on Violence Against Women, Violence Against 
        Women Prevention and Prosecution Programs'' from prior year 
        appropriations for tracking violence against Indian women, as 
        authorized by section 905 of the Violence Against Women and 
        Department of Justice Reauthorization Act of 2005 (Public Law 
        109-162), to enhance the ability of tribal government entities 
        to access, enter information into, and obtain information from, 
        federal criminal information databases, as authorized by 
        section 534 of title 28, United States Code. Some or all of 
        such balances may be transferred, at the discretion of the 
        Attorney General, to any Department of Justice account, as 
        needed to support the tribal access program for national crime 
        information in furtherance of this purpose.''

        Addressing the Resource Disparity

  <bullet> Alleviates the costs Tribes incur due to the expansion of 
        criminal jurisdiction and allows the Attorney General to 
        reimburse Tribes for costs incurred from implementing SDVCJ.

    Violence Against Women's Act 2019 Recommendations: Pass a Senate 
bill identical to H.R. 1585 in support of the tribal authority and 
resources needed for increasing the safety of Native women across the 
United States.
S.277 Savanna's Act 2019
    NIWRC appreciates the attention to these issues and would like to 
see the Senate version amended to reflect the changes that are included 
in the House bill, H.R. 2733, which we support.
    The House version of Savanna's Act, H.R. 2733, contains provisions 
that amended and corrected errors identified by Tribes and tribal 
advocates in the original Senate version of the bill, S. 277, and thus 
although NIWRC supports the passage of Savanna's Act, NIWRC's support 
currently extends to H.R. 2733. As to both versions of the bill, NIWRC 
remains concerned that both lack new funding--a resource that has been 
identified as critical to addressing the crisis of MMIW.
    Significant changes in H.R. 2733 from the S.277 include provisions 
that:

  <bullet> Expand the requirement for the creation of law enforcement 
        guidelines to all U.S. Attorneys, not just those with ``Indian 
        country'' jurisdiction, and require such guidelines to be 
        regionally appropriate;

  <bullet> Require the Attorney General to publicly list the law 
        enforcement agencies that comply with the provisions of the 
        legislation (rather than listing those that don't comply); and

  <bullet> Replace the affirmative preference subsections with an 
        implementation and incentive section that provides grant 
        authority to law enforcement organizations to implement the 
        provisions of the legislation and increases the amount of those 
        grants for those that comply, while removing the preference 
        provision in S. 277 that will punish Tribal Nations lacking 
        sufficient resources to implement the guidelines their local 
        U.S. Attorney creates.

    Savanna's Act Recommendations: NIWRC urges the Senate to utilize 
H.R. 2733 as a starting point, but we continue to express concerns 
regarding the lack of new funds and recommend the Senate address these 
concerns in the mark-up of the bill.

  <bullet> The resources under the Act are proposed by allowing Tribes 
        to use existing, limited funds they currently receive under the 
        Tribal Governments Grant Program to address the development of 
        a protocol to respond to MMIW cases.

  <bullet> Current funding under the Tribal Governments Grant Program 
        is inadequate and does not reach all Indian Tribes. If Tribal 
        Governments had adequate funds, they would already be 
        developing such protocols and increased responses.

  <bullet> Thus, funds for the incentives to Tribes complying with 
        Savanna's Act will be taken from the funds currently received 
        by all Indian Tribes under the grant program, and without 
        increased or new funding, the other lifesaving services that 
        Tribes provide with this grant funding will be reduced.

  <bullet> Indian Tribes need increased, additional resources to 
        broaden and address the crisis of MMIW. Further stretching of 
        the existing funds that a Tribe receives, to provide incentives 
        to others, falls short of ``increasing support'' to Indian 
        Tribes.

  <bullet> Finally, broadening the purpose areas for these grant 
        programs does not address the reality or restore the authority 
        that the Supreme Court's decision in Oliphant decision erased, 
        leaving Tribes unable to investigate, arrest, and prosecute the 
        perpetrators who commit the majority of violent crimes on 
        tribal lands.

S.290 Native Youth and Tribal Officer Protection Act (NYTOPA)
    NIWRC strongly supports protecting Native children and law 
enforcement personnel involved in domestic violence incidents on tribal 
lands. Native children and law enforcement personnel are equally in 
need of the protections that were extended to adult domestic violence 
victims in VAWA 2013.
    The expanded jurisdiction under S. 290, as currently written, will 
not benefit the 228 Alaska Indian tribes who are currently ineligible 
to exercise Special Domestic Violence Criminal Jurisdiction pursuant to 
VAWA 2013. We call on Congress for a jurisdictional fix to the Alaska 
Native Indian country issue, and were pleased to see the Alaska Native 
pilot project included in the House VAWA bill, H.R. 1585.
    We have additional concerns with NYTOPA as written. Amending the 
current VAWA 904 to limit the restored jurisdiction to-as drafted in 
NYTOPA--crimes that constitute ``covered conduct'' will place many of 
our tribal police officers, as well as domestic violence victims, in 
harm's way. The current draft of NYTOPA defines ``covered conduct'' as:

        (4) COVERED CONDUCT.--The term `covered conduct' means conduct 
        that--

          (A) involves the use, attempted use, or threatened use of 
        physical force against the person or property of another; and

          (B) violates the criminal law of the Indian tribe that has 
        jurisdiction over the Indian country where the conduct occurs.

    Thus, NYTOPA amends the definitions of ``dating violence'' and `` 
domestic violence'' in the current VAWA 904, and instead states that 
VAWA 904's restored tribal criminal jurisdiction only extends to 
``covered conduct,'' which requires ``the use, attempted use, or 
threatened use of physical force.''
    Tethering restored tribal criminal jurisdiction to this definition 
will require Tribes, for jurisdictional purposes, to establish that the 
non-Indian perpetrator ``threatened the use of physical force'' before 
the Tribe can determine whether the domestic violence crime committed 
against the tribal citizen is a crime for which the police officer may 
arrest. This ambiguity may seem negligent on paper, but in real life, 
our law enforcement officers--especially when answering a domestic 
violence call--should not be put in a place where they have to 
determine whether a perpetrator's threats or acts of violence 
incorporate sufficient ``physical force'' such that they can exercise 
tribal jurisdiction and permit the officer to arrest the perpetrator 
and protect the victim. Prior to NYTOPA, the definition of ``dating 
violence'' and domestic violence'' under VAWA 904 simply referred to 
``violence committed by a person who is'' in a specified relationship 
with the victim, in line with the understanding that many domestic 
violence perpetrators use various means of violence and intimidation 
against their victims that do not all fall within the narrowly defined 
window of ``physical force.'' \14\
    Native Youth and Tribal Officer Protection Act Recommendations: To 
address our concerns with regard to Alaska Tribes' inability to 
exercise SDVCJ, we urge the Senate to include a provision similar to 
the Alaska Native Pilot Project included in H.R. 1585 in both S. 290 
and S. 288.
    To address our concerns regarding definitions within NYTOPA, we 
suggest first amending section 1304(c) ``CRIMINAL CONDUCT'' to include 
the following crimes (in addition to the three crimes of dating 
violence, domestic violence, and violations of protective orders 
already listed: (1) assault of a law enforcement or correctional 
officer; (2) attendant crime. Next, we recommend eliminating the 
reference to ``covered conduct'' altogether, as well as ``related 
conduct,'' and using the following proposed amended definitions 
instead:

    Amend 25 U.S.C. 1304 to read as follows:

        (a) Definitions.--In this section:

         (1) Assault of a law enforcement or correctional officer.--The 
        term `assault of a law enforcement or correctional officer' 
        means any criminal violation of the law of the Indian tribe 
        that has jurisdiction over the Indian country where the 
        violation occurs that involves the threatened, attempted, or 
        actual harmful or offensive touching of a law enforcement or 
        correctional officer.

         (2) Attendant Crime.--The term `attendant crime' means any 
        criminal violation of the law of the Indian tribe that has 
        jurisdiction over the Indian country where the violation occurs 
        that occurs with, as a result of, or near in time to an act 
        which there is reasonable suspicion to believe is a crime of 
        dating violence, domestic violence, violation of a protection 
        order, sex trafficking, sexual violence, or stalking.

         (3) Dating Violence.--The term `dating violence' means 
        violence any violation of the criminal law of the Indian tribe 
        that has jurisdiction over the Indian country where the 
        violation occurs committed by a person who is or has been in a 
        social relationship of a romantic or intimate nature with the 
        victim, as determined by the length of the relationship, the 
        type of relationship, and the frequency of interaction between 
        the persons involved in the relationship.

         (4) Domestic Violence.--The term `domestic violence' means 
        violence any violation of the criminal law of the Indian tribe 
        that has jurisdiction over the Indian country where the 
        violation occurs where

           
    (A) The act is committed by a current or former spouse or intimate 
partner of the victim, by a person with whom the victim shares a child 
in common, by a person who is cohabitating with or has cohabitated with 
the victim as a spouse or intimate partner, or by a person similarly 
situated to a spouse of the victim under the domestic- or family-
violence laws of an Indian tribe that has jurisdiction over the Indian 
country where the violence act occurs; or

           (B) The victim is a child, an individual under the age of 
        18, or an elder as defined by tribal law who resides or has 
        resided in the same household as the defendant.

    These proposed definition changes would keep NYTOPA more closely 
tied to VAWA's purpose and would also encompass attendant crimes, 
crimes against cops, and crimes involving threats to court staff, 
witness tampering, lying to police, juror intimidation, etc., that can 
and do arise during prosecution of VAWA cases. These proposed 
definitions would also extend tribal criminal jurisdiction to domestic 
violence crimes committed against children, in line with the purpose 
behind NYTOPA.
S.288 Justice for Native Survivors of Sexual Violence Act
    NIWRC supports the Justice for Native Survivors of Sexual Violence 
Act to close another loophole in the SDVCJ provision of VAWA 2013. 
Passage of S. 288 will ensure that Tribes have authority to prosecute 
sexual assault, sex trafficking, and stalking crimes; however we 
express concern that the expanded jurisdiction under S. 288, as 
currently written, will not benefit the 228 Alaska Indian Tribes who 
are currently ineligible to exercise Special Domestic Violence Criminal 
Jurisdiction pursuant to VAWA 2013. We call on Congress for a 
jurisdictional fix to the Alaska Native Indian country issue, and were 
pleased to see the Alaska Native pilot project included in the House 
VAWA bill, H.R. 1585.
    Justice for Native Survivors of Sexual Violence Act 
Recommendations: NIWRC recommends that the Senate pass the Justice for 
Native Survivors of Sexual Violence Act as an important enhancement to 
VAWA to hold non-Indian offenders accountable for sexual assault, sex 
trafficking, and stalking crimes through the passage of a bill with 
provisions identical to those found in H.R. 1585, including the Alaska 
Native Pilot Project.
S. 982 The Not Invisible Act
    NIWRC supports the Not Invisible Act as a bipartisan bill to 
increase national focus on the injustice of missing and murdered 
Indigenous women. The increased awareness and attention to the issue of 
missing and murdered Indigenous women is long overdue and a critical 
first step to fully understanding the injustices and supporting tribal 
defined solutions. As affirmed in the 2009 Apology to Native Peoples, 
the U.S. recognized that there have been years of official 
depredations, ill-conceived policies, and the breaking of covenants by 
the Federal Government regarding Indian tribes; and apologized for the 
many instances of violence, maltreatment, and neglect inflicted on 
Native Peoples. In 2018, the U.S. Commission on Civil Rights released 
the Broken Promises Report which continued to affirm the need for the 
Federal Government to fulfill its trust responsibility with appropriate 
allocation of resources. MMIW and the perpetuation of injustice 
impacting Native women disproportionately reflects the lack of 
resources for Tribes to provide victim and justice service, as well as 
the failure of local, state and federal responses to these crimes. 
NIWRC is committed to working with federal lawmakers to strengthen 
local, tribal authority to respond to these crimes and ensure 
availability of resources for Tribes.
    Not Invisible Act Recommendations: NIWRC recommends increasing the 
number of elected tribal leaders on the advisory committee to at least 
1 per DOI region to ensure that perspectives from across Indian Country 
are included.
S.1853 Bridging Agency Data Gaps and Ensuring Safety for Native 
        Communities Act
    NIWRC supports aspects of the Bridging Agency Data Gaps and 
Ensuring Safety for Native Communities Act (BADGES), as the NIWRC 
acknowledges that database access continues to be of concern, however, 
BADGES does not address the lack of access to the extent that is needed 
or necessary to effectively address the MMIW crisis.
Addressing Criminal Justice Information System Access Issues
    While in the Tribal Law and Order Act of 2010 Congress required the 
Attorney General to ensure that tribal agencies that met applicable 
requirements would be permitted access to national crime information 
databases, the ability of Tribes to fully participate in national 
criminal justice information sharing via state networks has been 
dependent upon various regulations, statutes and policies of the 
respective state in which a Tribe's land is located. Tribes have 
learned during implementation of the Tribal Access Program (TAP) that 
tribal access is piecemeal and incredibly challenging.
    We need a legislative fix that addresses the barriers Tribes face 
in accessing the Criminal Justice Information System (CJIS) for 
governmental purposes. Currently access may be authorized through 
federal statutes providing some access for certain situations to Tribes 
and then deferring to state law to define and provide that access. Such 
access is difficult for Tribes to map out, determine who at what agency 
needs to authorize, develop a process, get User Agreements, Memoranda 
of Understandings, or Management Control Agreements in place just to 
ensure that those who are employed in positions of trust are safe to be 
around sensitive data concerning our most vulnerable populations.
    28 USC 534(d) authorizes release of criminal history information to 
tribal law enforcement agencies, but doesn't allow release of criminal 
information to other tribal agencies for important, legitimate civil 
purposes, such as Emergency Placement of Children or ``Purpose Code 
X,'' the evaluation of employees that work with elders and vulnerable 
adults, etc.
    CJIS interprets the appropriations rider language from 92-544 (and 
in the notes of 28 USC 534) as a permanent statute that prevents 
sharing this information with Tribal Governments. In their view, for 
example, criminal history for the emergency placement of children 
(Purpose Code X) can only be shared ``if authorized by State statute 
and approved by the Attorney General, to officials of State and local 
governments for purposes of employment and licensing.''
    We need to amend federal law to authorize the sharing of this 
information with Tribal Governments for any legitimate purpose.
Report on Indian Country Law Enforcement Personnel Resources and Need
    NIWRC agrees that it is important to gain an understanding of 
existing personnel resources and case load to truly understand the 
needs for increased recruitment of agents. We also suggest including 
law enforcement agencies within DOI and other federal agencies that 
interface with Indian Country.
Missing and Murdered Response Coordination Grant Program
    NIWRC supports the development of new resources for Tribal 
Governments to address the MMIW crisis at a local level. We are 
concerned with eligible entities for this important new source of 
funding. In the definitions section of BADGES, the definition of 
``relevant tribal stakeholder'' raises significant concern as it is 
inclusive of ``Indian Tribes.'' Indian Tribes, as separate sovereigns, 
should never be considered a ``relevant stakeholder'' because they are 
eligible for federal funding based on the unique relationship Tribes 
maintain with the federal government and the concomitant federal trust 
duties and responsibilities that are the result of this continued 
relationship.
    NIWRC has significant concerns that new funding addressing a tribal 
issue is being offered to states and non-tribal national or regional 
organizations. New funding to address a tribal issue should first and 
foremost be distributed to Tribes as sovereigns. States have had 
multiple sources of funding for law enforcement to contribute to this 
work without dipping into the limited funding that Tribes have.
    Furthermore, the lack of clarity in what constitutes ``represents 
substantial Indian constituency'' for a non-tribal national or regional 
organization also raises concern. Without clarity, any national or 
regional organization could claim that they represent a tribal 
constituency.
    Bridging Agency Data Gaps and Ensuring Safety for Native 
Communities Act Recommendations:
Addressing Criminal Justice Information System Access Issues
    The most direct and effective route to improve tribal access to 
CJIS would be to simply amend the Tribal Law and Order Act by 
renumbering 534(d) and adding a new subsection:

         ``If authorized by tribal law and approved by the Attorney 
        General, the Attorney General shall also permit access to 
        officials of Tribal Governments for non-criminal justice, non-
        law enforcement employment, licensing purposes or any other 
        legitimate government purpose identified in tribal 
        legislation.''

    Another possible solution is to insert on Page 10, line 5, the 
addition ``civil'' before ``background checks'' and adding after 
``background checks,'' ``if authorized by Tribal law and approved by 
the Attorney General.'' It is critical that civil authority be included 
to ensure full tribal governmental access.
Report on Indian Country Law Enforcement Personnel Resources and Need
    NIWRC recommends the report be inclusive of DOI and other law 
enforcement agencies that interface with Indian country.
Missing and Murdered Response Coordination Grant Program
  <bullet> Focus eligibility on Indian Tribes and tribal organizations.

  <bullet> Include Indian Tribes as eligible entities outside of the 
        relevant tribal stakeholder definition.

Conclusion
    As discussed above, the current system response is inadequate and 
the rate at which we are losing Native women is devastating to our 
tribal communities and to the Nation as a whole. The federal Indian 
legal framework is complex and creates many barriers for victims and 
Tribes working to protect their citizens. Furthermore, resources are 
scarce, and culturally appropriate resources are practically non-
existent. In this context, we appreciate this Committee's work to 
improve the system response and ask you to seriously consider the 
recommendations set forth in this testimony to further improve each of 
these important pieces of legislation. Tribal sovereignty and safety 
for Native women are wholly intertwined, and we wish to close by 
reminding Congress of their obligation to assist Indian Tribes in 
safeguarding the lives of Native women.
    Thank you for the opportunity to provide testimony on the crisis 
that our Tribal Governments face in protecting our women and children.
    ENDNOTES

    1. DEPARTMENT OF JUSTICE, NAT'L INST. OF JUSTICE, VIOLENCE AGAINST 
AMERICAN INDIAN AND ALASKA NATIVE WOMEN AND MEN: 2010 FINDINGS FROM THE 
NATIONAL INTIMATE PARTNER AND SEXUAL VIOLENCE SURVEY 26 (May 2016), 
https://www.ncjrs.gov/pdffiles1/nij/249736.pdf.
    2. United States v. Jicarilla Apache Tribe, 131 S. Ct. at 2324, 
citing Seminole Nation v. United States, 316, U.S. 286, 296-97 (1942) 
and Heckman v. United States, 224 U.S. 413, 437 (1912).
    3. Cherokee Nation v. Georgia, 30 U.S. 1 (1831), Worcester v. 
Georgia, 31 U.S. 515 (1832).
    4. https://www.indian.senate.gov/sites/default/files/
Kimberly%20Loring%20Heavy%20Runner%20Final.pdf.
    5. https://www.usccr.gov/pubs/2018/12-20-Broken-Promises.pdf
    6. Oliphant v. Suquamish Indian Tribe, 435 U.S. 191 (1978) at 206-
212 (``Congress has the constitutional authority to decide whether 
Indian tribes should be authorized to try and to punish non-Indians.'')
    7. See The General Crimes Act, 18 U.S.C.  1152 (providing that 
federal courts have jurisdiction over interracial crimes committed in 
Indian country); the Assimilative Crimes Act, 18 U.S.C.  1; the Major 
Crimes Act, 18 U.S.C.  1153 (providing federal criminal jurisdiction 
over ten enumerated major crimes committed in Indian country that is 
exclusive of the states); Public Law 83-280, 18 U.S.C.  1162 
(delegating federal jurisdiction to six states over most crimes 
throughout most of Indian country within their state borders); Oliphant 
v. Suquamish Indian Tribe, 435 U.S. 191 (1978) (holding that Tribes 
lack criminal jurisdiction over non-Indian defendants); Violence 
Against Women Reauthorization Act of 2013, S. 47, 113th Congress, Title 
IX (2013) (expanding tribal criminal jurisdiction to non-Indians for 
the crimes of domestic violence, dating violence and the violation of 
protection orders so long as the defendant has certain ties to the 
community and the tribe provides certain due process protections).
    8. From 2005-2009, the Government Accountability Office (GAO) found 
that U.S. Attorneys declined to prosecute nearly 52 percent of violent 
crimes in Indian country. U.S. GAO, U.S. Department of Justice 
Declinations of Indian Country Criminal Matters, Report No. GAO-11-
167R, 3 (2010).
    9. 5 U.S.C.  1304.
    10. Andre B. Rosay, Violence Against American Indian and Alaska 
Native Women and Men: 2010 Findings from the National Intimate Partner 
and Sexual Violence Survey. Washington, D.C.: U.S. Dept. of Justice, 
National Institute of Justice, 2016, NCJ 249736.
    11. 34 USC  10452 Note
    12. Administration Comments on H.R. 1585, The Violence Against 
Women Reauthorization Act of 2015, page 22. File attached.
    13. Administration Comments on H.R. 1585, The Violence Against 
Women Reauthorization Act of 2015, pages 19--21.
    14. NYTOPA's proposed amendment to VAWA 904s definition of ``dating 
violence'' and ``domestic violence'' is all the more concerning now, 
given the Supreme Court's recent decisions in Johnson and Castleman 
where the Supreme Court, in a separate federal statute, interpreted 
``physical force'' to be more narrow than the common law definition of 
assault and common understanding of what constitutes ``domestic 
violence.'' See United States v. Castleman, 527 U.S. 157 (2014); 
Johnson v. United States, 559 U.S. 133 (2010).
                                 ______
                                 
Prepared Statement of Lacina Tangnaqudo Onco, Congressional Advocate on 
   Native American Policy, Friends Committee on National Legislation
    The Friends Committee on National Legislation urges members of the 
Senate Committee on Indian Affairs to support all five bills pertaining 
to the public safety of Native communities that will receive testimony 
today. We ask that this statement be included in today's hearing 
record.
    Thank you for receiving testimony today on five paramount bills 
which address the violence against Native Americans and Alaska Natives 
that currently afflicts Indigenous communities across the nation. The 
Indian Affairs Committee has clearly listened to and responded to what 
you have heard from Indian Country in order to introduce legislation 
that is effectual and constructive. The recent introduction of 
B.A.D.G.E.S. (S. 1853) demonstrates the priority that the Committee is 
giving to the issue of the advancement of Native public safety.
    The Friends Committee on National Legislation supports the passage 
of the following legislation: The Justice for Native Survivors of 
Sexual Violence Act (S. 288), Savanna's Act (S. 227), the Not Invisible 
Act of 2019 (S. 982), the Native Youth and Tribal Officer Protection 
Act (S. 290), and Bridging Agency Data Gaps and Ensuring Safety for 
Native Communities (S. 1853). These bills ameliorate communications 
between tribal and non-Native law enforcement agencies, improve how 
homicide and missing persons cases are carried out in Indian Country, 
provide protections for children and tribal officers who are also 
victims of domestic violence, and honor the memory of these victims 
through powerful legislation designed to curb this high prevalence of 
violence committed against Indigenous women by largely non-Native 
perpetrators.
    FCNL has committed itself as a Quaker organization to the 
improvement of the historic relationship between tribes and faith 
groups while speaking out on current concerns for tribes. Recently FCNL 
has advocated for the introduction of a Senate version of H.R. 1585, 
the Violence Against Women Reauthorization Act of 2019. We are 
particularly supportive of that bill's tribal provisions. It is 
essential that non-Native allies support legislation that secures equal 
rights for Indigenous peoples. Several of the bills being discussed 
into today's hearing were included in H.R. 1585 and have made this 
reauthorization of VAWA crucial for the protection of Native women.
    This epidemic of violence against Native women must be more than 
simply addressed by Congress; it must be acted upon. We urge you to 
support these five bills and encourage their passage through the Senate 
whether as a part of VAWA reauthorization or as stand-alone bills.
                                 ______
                                 
    Prepared Statement of the National Congress of American Indians
    We are pleased to offer testimony on five pending bills aimed at 
improving public safety in Indian Country. As this Committee has long 
recognized, the system for administering justice on tribal lands is 
simply not working. The federal government has drastically underfunded 
tribal justice systems for decades. At the same time, under federal 
law, the hands of tribal governments to administer justice on their own 
lands are often tied, and Indian communities are largely dependent on 
the Department of Justice or state law enforcement agencies for 
investigation and prosecution of violent crimes and other felonies 
committed on Indian reservations. For too long these outside agencies 
have had, at best, a culture of apathy toward their responsibilities in 
Indian Country. As a result, Native people in the United States are 
left with little protection from violent crime and often no access to 
justice when they are victimized.
    Twelve years ago, the National Congress of American Indians (NCAI) 
passed a resolution at its Midyear conference in Anchorage, Alaska, and 
provided testimony to this Committee calling for Congress to empower 
tribal justice systems to address crime in their communities. This was 
followed by several years of hearings and legislative drafting in the 
Senate Committee on Indian Affairs. From that resolution, as well as a 
great deal of effort from many tribes and the leadership of this 
Committee, Congress enacted the Tribal Law and Order Act of 2010 (TLOA) 
and set the stage for a partial reaffirmation of inherent tribal 
jurisdiction through the Violence Against Women Act Reauthorization of 
2013 (VAWA 2013). We recognize your commitment in introducing the 
legislation that is the subject of this hearing, and greatly appreciate 
your continuing efforts to build on those laws as a partner supporting 
and assisting our tribal governments in fulfilling our governmental 
responsibilities to our citizens. This testimony addresses each of the 
bills included on the hearing agenda.
S. 290, The Native Youth and Tribal Officer Protection Act and S. 288, 
        The Justice for Native Survivors of Sexual Violence Act

         ``We'll give you a head start.'' In 2014 a man attacked his 
        wife in a public parking lot. He bit and hit her in a car. When 
        she ran out of the car and rushed into a women's restroom to 
        seek shelter, he followed her and continued to hit, punch, and 
        kick her. The police were called. In any other case, the man 
        would have been arrested and charged. But this assault took 
        place on the Sisseton-Wahpeton Oyate's reservation land and the 
        Native victim was assaulted by a non-Indian. Under federal law, 
        neither the tribal nor the state government had jurisdiction to 
        prosecute the man. So, the tribal and state police who 
        responded did the best they could do. They held the man in 
        custody and told the woman they would try to give her a ``head 
        start.'' Fortunately for the victim during this particular 
        incident, the non-Indian perpetrator caused enough of a scene 
        in the presence of the state police that he was arrested for 
        disorderly conduct, which is considered a victimless crime that 
        falls under state jurisdiction. Ultimately, after the enactment 
        of VAWA 2013, Sisseton-Wahpeton Oyate was finally able to bring 
        the man who beat his wife in the parking lot to justice. When 
        he beat his wife again, the tribal government was able to 
        arrest and charge the man with assault. He eventually pled 
        guilty in tribal court.

    We share this story because it demonstrates that the tribal 
jurisdiction provisions that were included in VAWA 2013, commonly 
referred to as Special Domestic Violence Criminal Jurisdiction (SDVCJ), 
are making a real difference for victims in Indian Country. Quite 
simply, that change in the law is saving lives. Since passage of VAWA 
2013, NCAI has been providing technical assistance to the tribes who 
are implementing the law. Through this work, we have witnessed the ways 
in which the reaffirmation of inherent tribal jurisdiction has 
transformed safety for some victims in Indian Country and also the ways 
in which it falls short. We have included as an attachment to this 
testimony a detailed report that analyzes the impacts of VAWA 2013's 
landmark tribal jurisdiction provision in the six years after its 
enactment.
    Our examination of the tribal nations' early exercise of SDVCJ 
demonstrates that the law has enhanced the ability of tribal 
governments to combat domestic violence perpetrated by non-Indians on 
tribal lands, while at the same time protecting non-Indians' rights in 
impartial, tribal forums. \1\ As the above example from Sisseton-
Wahpeton illustrates, by exercising SDVCJ, many tribal communities have 
increased safety and justice for victims who had previously seen little 
of either. Implementation of SDVCJ has had other positive outcomes as 
well. For many tribes, it has led to much-needed community 
conversations about domestic violence. For others it has provided an 
impetus to more comprehensively update tribal criminal codes and court 
processes. Implementation of SDVCJ has also resulted in increased 
collaboration among tribes and between the local, state, federal, and 
tribal governments.
---------------------------------------------------------------------------
    \1\ See Angela R. Riley, Crime and Governance in Indian Country, 63 
UCLA L. REV. 1564, 1572 (2016) (``[I]mplementation has been a success 
in several respects. Tribes have provided defendants with the requisite 
procedural protections, and the preliminary data reveal that the laws 
are improving the safety and security of reservation residents.'').
---------------------------------------------------------------------------
    Implementation of VAWA 2013 has also revealed, however, places 
where the jurisdictional framework continues to leave victims--
including children, law enforcement, and victims of sexual violence, 
stalking, and trafficking--vulnerable.
    The tribes implementing SDVCJ report that children have been 
involved as victims or witnesses in SDVCJ cases nearly 60 percent of 
the time. These children have been assaulted or have faced physical 
intimidation and threats, are living in fear, and are at risk for 
developing school-related problems, medical illnesses, post-traumatic 
stress disorder, and other impairments. \2\
---------------------------------------------------------------------------
    \2\ See U.S. Department of Justice, ATTORNEY GENERAL'S ADVISORY 
COMMITTEE ON AMERICAN INDIAN AND ALASKA NATIVE CHILDREN EXPOSED TO 
VIOLENCE, REPORT OF THE ADVISORY COMMITTEE ON AMERICAN INDIAN AND 
ALASKA NATIVE CHILDREN EXPOSED TO VIOLENCE: ENDING VIOLENCE SO CHILDREN 
CAN THRIVE (Nov. 2014).
---------------------------------------------------------------------------
    Like many state codes, many tribal codes define ``domestic 
violence'' to include crimes committed against children by their 
caregivers or others in the household. \3\ Federal law, however, 
currently limits SDVCJ to crimes committed only against intimate 
partners or dating partners, and tribes are therefore unable to 
prosecute crimes involving children against non-Indian offenders. The 
common scenario reported by tribes is that they are only able to charge 
a non-Indian batterer for violence against the mother, and can do 
nothing about violence against the children. Instead, tribes are left 
to refer these cases to state or federal authorities, who may or may 
not pursue them.
---------------------------------------------------------------------------
    \3\ Child Welfare Information Gateway. (2017). Definitions of 
Domestic Violence: State Statutes. Washington, DC: U.S. Department of 
Health and Human Services, Children's Bureau. Available at https://
www.childwelfare.gov/pubPDFs/defdomvio.pdf#page=1&view=Introduction.
---------------------------------------------------------------------------
    This frustration is further compounded by the prevalence and 
severity of this problem. According to DOJ, American Indian and Alaska 
Native children suffer exposure to violence at rates higher than any 
other race in the United States. \4\ This violence has immediate and 
long term effects, including: increased rates of altered neurological 
development, poor physical and mental health, poor school performance, 
substance abuse, and overrepresentation in the juvenile justice system. 
Children who experience abuse and neglect or witness violence are at 
higher risk for depression, suicidal thoughts, and suicide attempts. 
Indian youth have the highest rate of suicide among all ethnic groups 
in the U.S. \5\ Due to exposure to violence, Native children experience 
post-traumatic stress disorder at a rate of 22 percent--the same levels 
as Iraq and Afghanistan war veterans and triple the rate of the rest of 
the population. \6\ There is a growing trend among the states to 
recognize that even when children are not the direct victims of 
domestic violence, they experience real and lasting harm from 
witnessing it. \7\ According to the National Conference of State 
Legislatures, ``approximately 23 states address child witnessing of 
domestic violence somewhere in statute. While some consider it an 
aggravating circumstance when sentencing a perpetrator, other states 
have created a separate offense that may be levied.'' \8\
---------------------------------------------------------------------------
    \4\ AG Advisory Committee, supra, note 2.
    \5\ Centers for Disease Control and Prevention, ``Suicides Among 
American Indian/Alaska Natives--National Violent Death Reporting 
System, 18 States, 2003-2014,'' (2018), available at https://
www.cdc.gov/mmwr/volumes/67/wr/mm6708a1.htm.
    \6\ AG Advisory Committee, supra, note 2, at 38.
    \7\ Child Welfare Information Gateway. (2016). Child Witnesses to 
Domestic Violence: State Statutes. Washington, DC: U.S. Department of 
Health and Human Services, Children's Bureau. Available at https://
www.childwelfare.gov/pubPDFs/witnessdv.pdf.
    \8\ National Conference of State Legislatures, ``Domestic Violence/
Domestic Abuse Definitions and Relationships,'' June 13, 2019, 
available at http://www.ncsl.org/research/human-services/domestic-
violence-domestic-abuse-definitions-and-relationships.aspx.
---------------------------------------------------------------------------
    The legislation under consideration today responds to many of the 
gaps identified in NCAI's report, and we appreciate Senator Udall, 
Senator Murkowski, and Senator Smith's leadership in introducing the 
Native Youth and Tribal Officer Protection Act (NYTOPA), S. 290, and 
the Justice for Native Survivors of Sexual Violence Act (JNSSV), S. 
288, both of which NCAI strongly supports. Both of these bills would 
build on the success of the VAWA 2013 provision that reaffirmed the 
inherent sovereign authority of Indian tribal governments to exercise 
criminal jurisdiction over certain non-Indians who criminally violate 
qualifying protection orders or commit domestic or dating violence 
crimes against Indian victims on tribal lands. \9\ NCAI has long 
supported full reaffirmation of tribal authority on tribal lands, and 
we welcome the important steps in that direction in these bills.
---------------------------------------------------------------------------
    \9\ 25 U.S.C.  1304.
---------------------------------------------------------------------------
    NYTOPA, would amend 25 U.S.C.  1304 to remove barriers that 
currently prevent tribes from exercising their inherent tribal 
jurisdiction over certain non-Indians who commit crimes against Native 
children in Indian Country. A recent case from the Sault Sainte Marie 
Tribe of Chippewa Indians, located in Michigan, illustrates how this 
gap in the law has real consequences for Native victims:

         A non-Indian man in an intimate relationship with a tribal 
        member moved in with her and her 16 year-old daughter. After 
        the man began making unwanted sexual advances on the girl, 
        sending inappropriate text messages, and on one occasion 
        groping the daughter, the tribe charged the defendant with 
        domestic abuse and attempted to tie the sexual assault against 
        the daughter to a pattern of abuse against the mother. The 
        tribal court dismissed the charges for lack of jurisdiction and 
        the defendant left the victim's home. Four months later, he was 
        arrested by city police for kidnapping and repeatedly raping a 
        14-year old tribal member. Unfortunately, he was ultimately 
        allowed to plead no contest to two less serious charges and was 
        sentenced to 11 months in jail. This kidnapping and rape of a 
        minor could have been prevented if the tribe had been able to 
        exercise jurisdiction in the first case. If NYTOPA had been 
        law, the tribe could have protected this victim.

    NYTOPA would similarly address another significant gap in VAWA 
2013. Since SDVCJ is limited to domestic violence, dating violence, and 
protection order violations, tribes also lack jurisdiction to charge a 
non-Indian offender for crimes that may occur within the context of the 
criminal justice process. These crimes might include resisting arrest, 
assaulting an officer, witness tampering, juror intimidation, or 
obstruction of justice. Several tribes have reported assaults on their 
officers or bailiffs committed by non-Indian SDVCJ defendants that the 
tribe is unable to prosecute given the restrictions on tribal 
jurisdiction under federal law. Domestic violence cases are both the 
most common and the most lethal calls that law enforcement responds to, 
and the limits on tribal authority to prosecute these crimes creates an 
obvious public safety concern.
    An example from the Eastern Band of Cherokee Indians illustrates 
the need for the provision in NYTOPA that addresses this issue:

         Tribal police for the Eastern Band of Cherokee Indians 
        responded to a domestic violence call that involved 
        strangulation of a female tribal member by a non-Indian. When 
        officers arrived on the scene, the defendant threatened to kill 
        the officers and to come back with a gun to shoot up the 
        reservation. In custody he struck a jailer, who was also an 
        enrolled tribal member, causing bruising and a split lip. 
        Because the tribe could not charge for the non-DV crimes, the 
        case was referred for federal prosecution. The 
        defendantultimately pled guilty to strangulation in federal 
        court, but the charges related to the assault on the jailer and 
        the threats of retaliation were dismissed.

    JNSSV also includes important amendments that will help bring 
justice to victims of violence in Indian Country. Federal law currently 
prevents tribal governments from prosecuting crimes of sexual assault, 
trafficking, and stalking when those crimes are committed by a non-
Indian against an Indian victim. A 2016 study from the National 
Institute for Justice (NIJ), found that approximately 56 percent of 
Native women experience sexual violence within their lifetime, with 1 
in 7 experiencing it in the past year. \10\ Nearly 1 in 2 report being 
stalked. \11\
---------------------------------------------------------------------------
    \10\ Andre B. Rosay, Nat'l Inst. of Justice, Violence Against 
American Indian and Alaska Native Women and Men: 2010 Findings from the 
National Intimate Partner and Sexual Violence Survey, U.S. Dep't of 
Justice 11 (2016), available at https://www.ncjrs.gov/pdffiles1/nij/
249736.pdf.
    \11\ Id., at 29.
---------------------------------------------------------------------------
    Unlike the general population where rape, sexual assault, and 
intimate partner violence are usually intra-racial, Native women are 
more likely to be raped or assaulted by someone of a different race. 
NIJ found that 96 percent of Native women and 89 percent of male 
victims reported being victimized by a non-Indian. \12\ Native victims 
of sexual violence are three times as likely to have experienced sexual 
violence by an interracial perpetrator as non-Hispanic White victims. 
\13\ Similarly, Native stalking victims are nearly four times as likely 
to be stalked by someone of a different race, with 89 percent of female 
stalking victims and 90 percent of male stalking victims reporting 
inter-racial victimization. \14\ JNSSV would amend 25 U.S.C.  1304 to 
include sexual assault, stalking, and trafficking crimes committed in 
Indian Country. It would untie the hands of tribal governments and 
allow them to extend the same protections to victims of sexual violence 
and stalking as are available to domestic violence victims. A case from 
the Pascua Yaqui Tribe illustrates the importance of this provision:
---------------------------------------------------------------------------
    \12\ Id., at 18.
    \13\ Id., at 29.
    \14\ Id., at 32.
---------------------------------------------------------------------------
    A female tribal member who worked at the tribal casino was fixing 
slot machines when she was harassed by a group of intoxicated, non-
Indian patrons. As casino security personnel arrived to remove the men 
from the casino, one of them grabbed the female employee by her 
genitals and squeezed. The casino surveillance system captured the 
incident on camera and the employee wanted charges to be filed. Because 
the offender was non-Indian, the tribe lacked jurisdiction and could 
only refer the case to federal prosecutors. The U.S. Attorney's Office 
did charge the case, but pled it down to a non-sex offense misdemeanor 
despite the clear evidence and willingness of the victim to cooperate. 
The tribe has said that while they are grateful that the U.S. 
Attorney's Office charged the case, they are disappointed that the 
criminal record will reflect only a simple assault and have stated that 
this is a far more generous plea than the tribe would have offered if 
they had jurisdiction to prosecute the case.
    We appreciate Senator Udall, Senator Murkowski, and Senator Smith's 
efforts to advance legislation that will fill some of the gaps in 
jurisdiction that continue to leave vulnerable victims--including 
children and law enforcement officers--without adequate protection on 
tribal lands. NYTOPA and JNSSV will give tribal governments additional 
tools to provide justice and safety to victims in Indian Country, and 
we urge the Committee to prioritize passage of these bills.
    As the Committee continues its work, we have some technical 
suggestions to further strengthen these bills that have been developed 
in conjunction with the tribal attorneys and prosecutors who have spent 
the past six years implementing the underlying statute that these bills 
seek to amend. Many of these suggestions have been incorporated in the 
tribal provisions of H.R. 1585, which passed in the House with bi-
partisan support earlier this year. Specifically, we recommend that 
NYTOPA be amended as follows:

  <bullet> Change the definition of ``domestic violence'' to refer to 
        the tribal code's definition. One of the primary concerns 
        tribal nations have had in implementing VAWA 2013 relates to 
        confusion about what the phrase ``violence committed'' means in 
        the definition of ``domestic violence'' used in 25 U.S.C.   
        1304. For example, the question has recently arisen whether 
        stalking of a victim by a domestic violence offender 
        constitutes ``violence committed'' for purposes of SDVCJ. The 
        tribal prosecutor who has raised the question thinks it likely 
        does not meet the federal definition and the tribe is in the 
        position of waiting for the defendant's conduct to escalate 
        before he can be punished. We urge you to change the language 
        in NYTOPA to replace ``violence committed'' with ``any 
        violation of the criminal law of the Indian tribe that has 
        jurisdiction over the Indian country where the violation 
        occurs.'' This language is very similar to what was included in 
        the Tribal Youth and Community Protection Act several years 
        ago. This definition will allow for prosecution of all crimes 
        typically deemed domestic violence under state and tribal 
        domestic violence codes.

  <bullet> Allow tribes to prosecute all crimes occurring in a 
        conjunction with a domestic violence incident. Another 
        significant issue tribes have faced in implementing VAWA 2013 
        is the inability to prosecute all of the crimes that occur 
        within a domestic violence situation. When someone assaults 
        their domestic partner, they often commit crimes beyond the 
        common law definition of assault. Those crimes often include 
        destruction of property, false imprisonment, endangering the 
        welfare of minors by committing the assault in front of 
        children (giving rise to lifelong trauma in those children), 
        reckless endangerment, assaults and threats against significant 
        others or loved ones intended to intimidate and harass the 
        domestic partner, and countless other crimes. Those crimes are 
        often easier to prosecute than the underlying domestic violence 
        assault, as domestic violence assaults often depend on the 
        cooperation of the victim, which can be difficult in a domestic 
        violence situation. Other accompanying crimes that often occur 
        in a domestic violence incident, however, are easier to prove 
        and thereby provide a mechanism for prosecutors to successfully 
        hold the perpetrator accountable. Tribal prosecutors have 
        described the limitations they face in prosecuting non-Indians 
        as trying some of the most difficult cases a prosecutor 
        confronts with one hand tied behind their back. For these 
        reasons, we encourage you to consider adding the ability to 
        prosecute crimes that are attendant to crimes of domestic 
        violence. A case from the Confederated Tribes of the Umatilla 
        Indian Reservation illustrates the importance of this 
        recommendation:

         The defendant was a repeat domestic violence offender, and 
        when law enforcement arrived, he attempted to flee the scene in 
        his vehicle. He was intoxicated, however, and crashed the 
        vehicle into the neighbor's fence. If Umatilla had jurisdiction 
        to charge him for DUI and for destruction of property they 
        would have been able to charge and convict him quickly and 
        easily given the evidence. The tribal prosecutor may have also 
        been able to leverage the additional charges to secure a plea 
        on the domestic violence charge. Instead, the tribe was only 
        able to charge the domestic violence offense, which put the 
        most pressure on the victim to testify. Over the eight months 
        that the tribe spent prosecuting him for domestic violence, the 
        victim, who suffered a severe concussion in the incident, 
        changed her mind multiple times about whether to testify. 
        Eventually the defendant was sentenced to 24 months, one month 
        in custody, 23 months suspended sentence, followed by three 
        years probation.

  <bullet> Include obstruction of justice crimes. Protecting law 
        enforcement would be best accomplished by removing existing 
        restrictions on the ability of tribal nations to prosecute 
        assaults on law enforcement or correctional officers, and 
        obstruction of justice related crimes, generally. This approach 
        is simpler than attempting to define covered individuals and 
        related conduct under the current NYTOPA language and would not 
        require having to prove a domestic violence assault beyond a 
        reasonable doubt before establishing jurisdiction to prosecute 
        an assault on law enforcement as we believe could be required 
        under NYTOPA. It would also cover issues like witness 
        intimidation, jury tampering, lying to law enforcement, threats 
        to court staff, and other related crimes and issues that can 
        arise in investigations and prosecutions of domestic violence 
        crimes and undermine the integrity of the process.

  <bullet> Include children in the definition of domestic violence. 
        Finally, to best protect children, rather than attempting to 
        define caregiver, child violence, and covered conduct, we 
        recommend that a paragraph be added to the existing definition 
        of domestic violence to include situations where the victim is 
        a child (or elder) that resides or has resided in the same 
        household as the defendant or the defendant's current or former 
        partner as was done in H.R. 1585. We believe that this would 
        cover all of the crimes involving children that the 
        implementing tribes have encountered to date, many of which 
        involve endangering the welfare of a minor by committing the 
        act in their presence, which is a crime that NYTOPA does not 
        currently address.

    We look forward to discussing these suggestions further as the 
Committee considers this important legislation.
S. 227, Savanna's Act
    When a Native woman goes missing or is murdered, her family, 
friends, and community are devastated by the loss. Oftentimes her 
family and community are left searching for answers for years, with 
little help from local authorities. Many times tribal law enforcement 
does not have the resources or the jurisdiction to investigate these 
cases. The families of victims have no resources or services to turn to 
and are left organizing their own searches and conducting their own 
investigations. The outrage and pain of these families has propelled 
the issue of missing and murdered Indian women from the local to the 
national level, and we appreciate the various bills that have been 
introduced at the state and federal levels in response.
    In 2016, NCAI adopted a resolution, PHX-16-077, Addressing the 
Crisis of Missing and Murdered Native Women, that called for increased 
coordination across agencies; the review and revision of protocols for 
responding to the disappearance of Native women; and access to services 
for victims and their families. Savanna's Act would help to increase 
accountability for federal and state officials with jurisdiction in 
these cases and would improve information sharing among jurisdictions. 
We appreciate the broad bipartisan support for the bill.
    NCAI and other stakeholders have been in discussions with the 
sponsors of the legislation in both the House and Senate about the 
possible unintended consequences of some of the provisions currently 
included in S. 227. We appreciate the changes that have been made to 
the bill in the House and the Senate sponsors' willingness to adopt 
those changes as well. There is also a need for new resources for 
tribes to address these issues. Given the magnitude of this need, 
Congress should provide new programming in addition to expanding tribal 
access to existing grant programs. Finally, we understand that urban 
Indian organizations have made recommendations to ensure that the needs 
of the urban Native population are met. We support the inclusion of 
additional language to ensure that Native women are protected across 
the country and look forward to discussing specific recommendations 
with you as the bill moves forward.
S. 982, Not Invisible Act of 2019
    The Not Invisible Act is another important piece in the effort to 
improve the response to missing and murdered Indians. The Advisory 
Committee it creates will be an important mechanism for identifying 
best practices and increasing collaboration and coordination among 
stakeholders. The designated coordinator at the Department of the 
Interior (DOI) will also help ensure that these issues are prioritized. 
However, as written, the burden falls primarily on DOI to meet the 
requirements of the law, and there is very little included to ensure 
that the DOJ comes to the table as a full partner. We recommend 
similarly requiring the Attorney General to designate a coordinator who 
can work in partnership with the DOI designated coordinator.
S. 1853, BADGES Act
    NCAI appreciates the attention to the issues addressed in the 
BADGES Act. We are particularly pleased to see the inclusion of a $3 
million authorization for DOJ's Tribal Access Program (TAP), which we 
have previously supported. Ensuring that tribal governments have access 
to the National Crime Information Center (NCIC) databases has been a 
priority for NCAI for many years. With the TAP program, DOJ has finally 
begun to make headway in addressing the challenges that have long 
prevented tribal access, and this funding will help more tribal nations 
to access the program.
    We also echo the recommendations made by Justice Demmert on behalf 
of the Central Council of Tlingit and Haida Indians of Alaska with 
regard to the definition of ``tribal stakeholder'' used in the bill. We 
recommend removing Indian tribes from that definition and changing 
``tribal stakeholder'' to ``Indian tribes and tribal stakeholders'' as 
appropriate throughout the bill. We think this approach more 
appropriately recognizes the sovereignty of tribal nations and the 
government-to-government relationship.
Conclusion
    NCAI greatly appreciates the work of the Senators and the Committee 
on these important bills. We urge continuing dialogue with tribal 
leaders on the legislation and look forward to working with the 
Committee as the bills move forward.
                                 ______
                                 
         Prepared Statement of the Port Gamble S'Klallam Tribe
    The Port Gamble S'Klallam Tribe (Tribe) thanks Chairman Hoeven, 
Vice Chairman Udall, and members of the Committee for holding a 
legislative hearing to consider important bills related to public 
safety in Indian Country: Savanna's Act, S. 227; the Justice for Native 
Survivors of Sexual Violence Act, S. 288; the Native Youth and Tribal 
Officer Protection Act (NYTOPA), S. 290; the Not Invisible Act of 2019, 
S. 982; and the Bridging Agency Data Gaps and Ensuring Safety (BADGES) 
for Native Communities Act, S. 1853. Our Tribe supports these bills as 
they will help address important issues related to the safety of Native 
people.
    Our Tribe also supports the testimony presented by the United South 
and Eastern Tribes and the Chief Judge of the Central Council Tlingit 
and Haida Indian Tribes of Alaska. We incorporate their testimony by 
reference into our testimony.
I. Causes of Crime Against Native People
    The high rates of crime in Indian Country and against Native people 
are attributable to the United States' policies towards tribes and 
Native people over time. Two elements of those policies are especially 
detrimental to the effort to keep Native people safe:

        (1)  The limitations the United States has placed on tribes ' 
        exercise of criminal jurisdiction on their land, especially 
        over non-Native people, which they possess as an aspect of 
        their inherent sovereignty; and

        (2)  The United States' failure to fulfill its trust 
        responsibility to ensure Native people are able to live in safe 
        and healthy communities, including by providing adequate law 
        enforcement and court resources.

    Both of these elements must be addressed to successfully reduce the 
rate of crime against Native people and in Indian Country.
II. Support for Pending Legislation
A. Restoration of Tribes' Inherent Criminal Jurisdiction
    The Justice for Native Survivors of Sexual Violence Act, S. 288, 
and NYTOPA, S. 290, would restore tribes' criminal jurisdiction over 
domestic violence and sexual violence crimes, including when committed 
by non-Native people. This legislation would serve as a step towards 
the United States recognizing tribes' inherent criminal jurisdiction 
over their land, and is an important step forward to fill certain gaps 
left by the 2013 reauthorization of the Violence Against Women Act 
(VAWA 2013).
    In VAWA 2013, Congress included provisions specifically related to 
tribes. See 25 U.S.C.  1304. Congress restored tribes' inherent 
criminal jurisdiction over non-Native people in limited circumstances 
related to domestic and dating violence. 25 U.S.C.  1304(b)(l). This 
is known as special domestic violence criminal jurisdiction (SDVCJ). 
Notably, to exercise this criminal jurisdiction, VA WA requires tribes 
to provide certain procedural rights to defendants. 25 U.S.C.  
1304(d).
    In exercising VA W A criminal jurisdiction, tribes have found that 
there are certain crimes that regularly occur alongside the crimes that 
tribes can prosecute under VA W A 2013 that are shielded from tribal 
law enforcement and prosecution. The Justice for Native Survivors of 
Sexual Violence Act and NYTOPA would extend tribes' jurisdiction as 
authorized under VA WA 2013's SDVCJ to cover some of these specific 
types of crimes, thus filling an important gap in law enforcement and 
protection for some of the most vulnerable tribal members.
    The Justice for Native Survivors of Sexual Violence Act would 
extend SDVCJ to sexual violence occurring outside a domestic 
relationship, including sex trafficking, sexual violence, and stalking 
as well as crimes of related conduct. NYTOPA would extend SDVCJ to 
certain crimes committed against a child by a caregiver as well as to 
certain crimes against law enforcement personnel that take place during 
a domestic violence scenario.
    Both bills would also make changes to VA W A 2013 to ensure it 
extends to crimes that do not necessarily involve an actual physical 
assault--such as attempted or threatened violence. Thus, tribes 
exercising SDVCJ would not be forced to wait until a perpetrator 
succeeded in his efforts to commit physical assault on his victim.
    Additionally, the Justice for Native Survivors of Sexual Violence 
Act would remove VA W A 2013's SDVCJ requirement that a defendant have 
specific enumerated and long-lasting ties to the tribe. With the 
passage of this bill, Indian Country would no longer be open to 
perpetrators seeking out safe harbors for crime.
    In its testimony, the Department of Justice (DOJ) noted its desire 
to work with the Committee to ensure the Justice for Native Survivors 
of Sexual Violence Act and NYTOP A ``weather judicial challenges.'' 
Yet, as DOJ said in its testimony, exercising criminal jurisdiction is 
a crucial aspect of sovereignty, and Congress has authority to restore 
to tribes the criminal jurisdiction they possess as an aspect of their 
inherent sovereignty. See, e.g., United States v. Lara, 541 U.S. 193 
(2004) (holding that Congress, via 25 U.S.C.  1301(2), was within its 
authority to restore tribes' inherent criminal jurisdiction over Native 
people who are not citizens of the particular tribe exercising 
jurisdiction, even after the Supreme Court in Duro v. Reina, 495 U.S. 
676 (1990), concluded such jurisdiction had been divested). Further, in 
VAWA 2013, Congress was careful to require tribes to provide defendants 
certain due process rights when exercising SDVCJ. See 25 U.S.C.  
1304(d). Thus, the Justice for Native Survivors of Sexual Violence Act 
and NYTOP A would withstand any judicial challenges that may be raised.
    Our Tribe supports the extension of SDVCJ that these bills would 
make. Tribes have the right as part of our inherent sovereignty to 
exercise criminal jurisdiction over our land to keep our people safe. 
Enactment of the Justice for Native Survivors of Sexual Violence Act 
and NYTOPA would be a step toward restoring of this jurisdiction.
B. Increased Federal Resources As Required by Trust Responsibility
    The bills before the Committee would also take steps to ensure the 
United States fulfills its trust responsibility to ensure Native people 
are able to live in safe and healthy communities, including by 
providing resources to facilitate law enforcement and prosecution.
    Significantly, some of the bills before the Committee would provide 
federal funding. NYTOP A, S. 290, would authorize additional 
appropriations through 2024 to aid tribes in carrying out VA W A's 
criminal jurisdiction. The BADGES for Native Communities Act, S. 1853, 
would create a grant program for information sharing and coordination. 
It would also provide additional funding for tribes to access the 
National Crime Information Center database.
    Additionally, some of the bills would facilitate information 
gathering for crimes against Native people or taking place in Indian 
Country. Savanna's Act, S. 227, would call on the DOJ to create 
standardized guidelines for responding to cases. The Not Invisible Act 
of2019, S. 982, would require the Department of the Interior (DOl) to 
designate an official to provide training on how to effectively 
identify, respond to, and report crimes. The BADGES for Native 
Communities Act would call on the Government Accountability Office to 
conduct a study on federal law enforcement evidence collection, 
handling, and processing.
    Some of the bills would also facilitate information sharing across 
law enforcement agencies. The BADGES for Native Communities Act would 
direct the DOJ to ensure information related to certain cases is added 
to the publicly accessible National Missing and Unidentified Persons 
System. It would also direct the DOJ to facilitate tribes' access to 
that database and the National Crime Information Center database. 
Savanna's Act would also direct the DOJ to take certain actions to 
increase access to and use of crime databases.
    The bills would also work to ensure coordination across law 
enforcement agencies and federal agencies relevant to the safety 
ofNative people and in Indian Country. NYTOPA calls for increased 
coordination between federal agencies, including by ensuring federal 
programs supporting tribes' justice systems and victim services are 
working effectively together. The Not Invisible Act of 2019 would 
establish a DOI/DOJ joint advisory committee on reducing violent crime 
against Native people, which would include tribal representatives. The 
bill also calls for a DOl-designated official to coordinate programs 
and grants across agencies.
    The bills would also deal with federal prosecution of crime in 
Indian Country. Savanna's Act would require the DOJ to direct United 
States Attorneys with jurisdiction to prosecute Indian Country crimes. 
The BADGES for Native Communities Act would examine the extent to which 
federal law enforcement evidence collection, handling, and processing 
affects the rate at which United States Attorneys decline to prosecute 
cases.
    Additionally, the BADGES for Native Communities Act would address 
law enforcement personnel operating in Indian Country. It would 
streamline the process for hiring law enforcement officers and provide 
resources for mental health and wellness programs for them.
    The Tribe supports these efforts to fulfill the federal 
government's trust responsibility. Through provision of funding to 
tribes, enhanced crime information gathering and sharing, increased 
cooperation across law enforcement agencies and federal agencies, 
increased federal prosecution, and law enforcement personnel retention, 
the federal government will be taking a step towards fulfilling its 
trust responsibility to keep Native people safe.
III. Conclusion
    The United States must act to stop the crime Native people are 
forced to live with every day. This can only be done through 
recognizing tribes' inherent criminal jurisdiction over their land and 
through providing the federal resources the federal trust 
responsibility demands. One step towards addressing the ongoing crisis 
is passage of the bills pending before the Committee. We urge you to 
act quickly to move these bills forward to enactment. We also urge you 
to work in the Senate to pass a comprehensive VAWA reauthorization bill 
like H.R. 1585, which the House passed and includes many of these 
bills' provisions.
                                 ______
                                 
    Prepared Statement of Hon. Victor Joseph, Chief, Tanana Chiefs 
                               Conference
    The Tanana Chiefs Conference (TCC) is an intertribal consortium of 
37 federally-recognized Indian tribes and 4 additional Alaska Native 
communities located across the Interior region of Alaska. Our region 
stretches from the Brooks Range on the north, to the Alaska Range on 
the south, from the Canadian border on the east to almost Norton Sound 
on the west. Our area covers some 235,000 square miles--150,400,000 
acres--half again as large as California and almost as large as Texas. 
With no roads to most of our communities, travel is by boat in the 
summer, snow machine in the winter, and otherwise by small plane when 
weather permits.
    Our villages live a highly successful subsistence way of life, and 
our languages, cultures and lifeways are intact. But historical events 
outside of our control have made life particularly difficult. First, 
the federal government turned over its own law enforcement functions to 
the State through Public Law 280, saddling the State with a law 
enforcement burden it had insufficient resources to carry out. Then 
when Congress settled our land claims in 1971, the Alaska Native Claims 
Settlement Act created new corporations to hold and invest most village 
lands. As part of ANCSA, the core of our communities were designated 
for current or future state-chartered municipal governments--
governments which in many villages were never formed. As a result, most 
of the ``Indian country'' of our villages was eliminated (as the 
Supreme Court would later hold in the Venetie case), severely 
curtailing the ability of the villages to govern their own affairs.
    With these changes in legal status and governing authority, along 
with other pressures, our village governments have suffered and our 
communities entered a period of increasing dysfunction and danger, 
especially for women. Today, the statistics in Alaska are stunning:

  <bullet> Alaska domestic violence rates are 10 times the national 
        average, and sexual assaults against Alaska Native women are 12 
        times the national average. Many offenders are non-Native.

  <bullet> Alaska Native women are over-represented by 250 percent 
        among domestic violence victims. Although Alaska Natives 
        comprise just 19 percent of the state population, Native women 
        constitute 47 percent of all reported rape victims. Every 18 
        hours an Alaska Native woman is sexually assaulted.

  <bullet> One out of every 4 Alaska Native youth suffers post-
        traumatic stress (PTSD) due to childhood exposure to violence--
        the same rate as Afghanistan War veterans.

  <bullet> State-based law enforcement is virtually nonexistent in most 
        Alaska Native villages. State troopers are only present in hub 
        cities. VPSOs are only present in 40 out of 229 villages.

  <bullet> The suicide rate in village Alaska is 6 times the national 
        rate, the alcohol-related mortality rate is 3.5 times the 
        national rate, and 95 percent of rural crimes in Alaska are 
        alcohol related.

  <bullet> Although some laws and law reform proposals are tied to 
        ``Indian Country,'' tribal territorial jurisdiction vanished 
        almost entirely with the enactment of the 1971 Alaska Native 
        Claims Settlement Act. Most crimes do not occur on the few 
        remaining lands that constitute ``Indian country'' under 
        federal law (allotments, townsite lots, trust lands). While 
        some law reform measures are also keyed to lands owned by 
        Alaska Native Corporations (ANCs), almost no one lives on ANC 
        lands.

    In short, today there is a law enforcement crisis in our 
communities of epic proportions. But under current law, there is no 
effective means to combat it and the tribal governments who are closest 
to the problem have virtually no tools whatsoever to address the issue 
themselves.
    It is with these observations that TCC has examined the several 
bills now pending before this Committee. While all four bills are very 
well-intentioned and all mention Alaska Natives, there is little in 
these bills that is actually workable as a means for improving local 
tribal law enforcement in our communities, and for protecting our most 
vulnerable tribal members.
    For instance, S. 227 (Savannah's Act) notes in section 2(a)(7) that 
``the complicated jurisdictional scheme that exists in Indian country'' 
`` has a significant negative impact on the ability to provide public 
safety to Indian communities;'' is ``exploited by criminals;'' and 
demands ``a high degree of commitment and cooperation among Tribal 
Federal, and State law enforcement officials.'' It also recites the 
importance of ``empower[ing] tribal governments'' ``to effectively 
respond to cases of missing and murdered Indians.''
    Yet the bill's operative provisions are then tied to the very 
jurisdictional hooks regarding ``Indian lands'' that have proven to be 
so problematic for Alaska Tribes. For instance, Section 3(4) defines 
Indian lands to include ``Indian country'' under 18 U.S.C. 1151, even 
though for most practical purposes there isn't any Indian country in 
Alaska outside of a few isolated tracts of trust and restricted fee 
lands, and hardly any people actually live on those lands. Section 
3(4)(B) also mentions Alaska Native corporation (ANC) lands, but again 
virtually no people live on ANCSA lands. This makes the bill's 
limitations to ``Indian land'' extremely problematic in Alaska. Alaska 
Native villages are left out.
    Later, section 5 of S. 227 builds on the federal government's 
existing jurisdiction over ``Indian country'' crimes, but that 
jurisdiction is again of little help in village Alaska, both because of 
the small amount of Indian country in Alaska villages and because 
Public Law 280 transferred the federal government's jurisdiction over 
those areas to the State. Here, too, Alaska villages are left out.
    S. 288 is similarly problematic for Tribes in Alaska because 
sections 2(2) and 2(4)(C) focus on enhancing tribal criminal 
jurisdiction in ``Indian country,'' thereby excluding Alaska Native 
villages.
    S. 290 in section 3(2)(G) seeks to expand tribal jurisdiction but 
defines the term ``covered conduct'' to mean certain conduct that 
``violates the criminal law of the Indian tribe that has jurisdiction 
over the Indian country where the conduct occurs,'' again making these 
measures largely ineffective in Alaska. Ultimately, with these 
limitations it is difficult to see how the Report addressed in Section 
5(b)(1) will help Alaska tribes, despite the critically important need 
to focus on the ``effectiveness'' of ``Federal programs. . .intended to 
build the capacity of criminal justice systems of Indian tribes to 
investigate and prosecute offenses relating to dating violence, 
domestic violence, child violence, and related conduct.''
    S. 982 carries some of the same problems as the other bills, 
including S. 227, such as by limiting ``Indian lands'' to Indian 
country (including reservation and trust) lands or ANC-owned lands 
(sec. 3(4)). The bill softens this limitation by frequently focusing 
its provisions to speak of crimes ``within Indian lands and of 
Indians,'' but this hardly overcomes the core problem that just as with 
the other bills, S. 982 bill fails to focus on the extreme law 
enforcement problems confronting Alaska Native villages.
    As Congressman Young correctly noted earlier this year, the current 
situation confronting Alaska Native villages, combined with the unique 
history of congressional treatment of these areas, demands an Alaska 
solution to a unique Alaska problem. Either the term ``Indian country'' 
needs to be redefined to include all lands within each Alaska Native 
village, or Congress needs to simply declare that tribes shall have 
criminal and civil jurisdiction in and around their villages without 
regard to the term ``Indian country.'' Alaska Tribes cannot enforce the 
rule of law in their communities and provide for civil society 
according to tribal customs, traditions and laws without a fresh 
declaration from Congress clearly declaring their authority to do so.
    Alaska tribal authority should be declared to be broad and plenary 
with respect to tribal members. In the case of non-Natives present in 
the villages, it should at a minimum cover sexual violence, child 
violence, alcohol, and related crimes, including the crimes identified 
in S. 288. This should be done, not on a limited or pilot basis, but on 
a broad basis to protect all women and children in all Alaska Native 
villages. The time to wait while more women are raped or murdered is 
over. While greater federal assistance is also critically needed, first 
and foremost our tribes must be empowered to protect their own. They 
are the front line, the first responders, and as a matter of basic 
self-governance they must be returned the tools they need to protect 
their communities.
    Thank you for the opportunity to offer these views on S. 277, S. 
288, S. 290 and S. 982.
                                 ______
                                 
Prepared Statement of Hon. Ryan Jackson, Chairman, Hoopa Valley Indian 
                          Tribe of California
    Chairman Hoeven, Vice Chairman Udall, and members of the Committee, 
thank you for this opportunity to provide testimony on important bills 
relating to public safety in Indian Country, including: Savanna's Act, 
S. 227; Justice for Native Survivors of Sexual Violence Act, S. 288; 
Native Youth and Tribal Officer Protection Act, S. 290; Not Invisible 
Act of 2019, S. 982; and Bridging Agency Data Gaps and Ensuring Safety 
for Native Communities Act, S. 1853.
    The Hoopa Valley Indian Tribe of California appreciates the efforts 
of the committee to strengthen public safety in Indian Country. We 
support these bills and the goals they seek to accomplish.
    In the past, the United States has neglected its public safety 
obligations to Indian Tribes by failing to recognize and promote our 
inherent sovereign authority as well as failing to devote adequate 
resources to law enforcement and judicial infrastructure. These bills, 
if enacted, would address gaps in the exercise of special domestic 
violence criminal jurisdiction and help the United States fulfill more 
of its obligations to Indian country by providing necessary financial 
resources. We envision a future in which our children, women, elders, 
and all Native people can live in healthy, vibrant communities without 
fear of violence and with confidence that justice will be served. These 
bills represent advancements toward that goal.
    For thou sands of years before the white men came, the people of 
Hoopa Valley occupied the area among the coastal mountains ofN01them 
California along the final reaches of the Trinity River and its 
confluence with the Klamath River. Theirs was a peaceful land, rarely 
troubled by violence or threatened by outsiders. Although it was a rich 
land, its abundant resources did not tempt the Hoopa people's neighbors 
because the surrounding areas also had plentiful fish and game, and 
anything they lacked could easily be obtained from trade. The coming of 
European settlers, beginning with the Spanish in 1775, the British of 
the Hudson's Bay Company in the 1820s, and ultimately the Americans and 
the goldminers of the 1850s changed all of this.
    The huge influx of white men had a disastrous impact on California 
Indians. The State of California and Governor Newsom have recently 
issued a formal apology for the genocide committed against California 
Indians. In 1850, only two years after the United States acquired the 
territory from Mexico, the federal government saw that something would 
have to be done quickly for the Native people. Legislation in 1864 
authorized the President to set apart tracts of land in California 
``for the purposes of Indian reservations, which shall be of suitable 
extent for the accommodation of the Indians of said State, and shall be 
located as remote from white settlement as should be found practicable, 
having due regard to their adaptation to the purposes for which they 
were intended.'' Under this act, the original Hoopa Valley Reservation 
was deliniated as a 12-mile square. It currently encompasses 
approximately 100,000 acres.
    The Hoopa Valley Tribe, along with other Indian Tribes in 
California, was victimized by Public Law 280, which, in 1953, 
transfeiTed criminal jurisdiction over the lands and peoples of the 
Hoopa Valley Reservation from the United States to the State of 
California, without any additional funding. Because of the Tribe's 
isolation from more populated portions of Humboldt County, the transfer 
of jurisdiction did nothing good for the preservation of law and order 
within the Reservation. As a result, under the strong leadership of the 
Hoopa Valley Tribal Council, the tribe has taken matters into its own 
hands and has become a leader in exercising civil and criminal 
jurisdiction over its Reservation. In the 1990s, the Hoopa Valley Tribe 
obtained state legislation to facilitate the cross-deputization of 
Hoopa Tribal Police with the Humboldt County Sheriffs Office. But that 
arrangement bas proved inadequate as county authorities several times 
have allowed the agreement to lapse due to shifting local politics. 
Passage of the Tribal Law and Order Act of 2010 changed this by 
authorizing federal reassumption of concurrent criminal jurisdiction 
over the Hoopa Valley Reservation, a status that the Hoopa Valley Tribe 
quickly sought.
    Federal criminal jurisdiction over the Hoopa Valley Reservation 
became effective in 2017, whereupon the Hoopa Valley Tribe entered into 
a deputation agreement with the United States Department of the 
Interior to provide law enforcement services to all persons who reside, 
work, or visit the Reservation. Under that agreement, the Secretary of 
the Interior issued Special Law Enforcement Commissions to officers of 
the Hoopa Valley Tribal Police to enforce federal laws on the 
Reservation and as well to enforce and make arrests under certain 
circumstances for violation of California's criminal laws. However, 
access to criminal information databases, such as the California Law 
Enforcement Telecommunications System (CLETS) has been difficult, 
sporatic, or nonexistent. Tribal Officer lives are put in danger when 
they do not have access to criminal history information in CLETS and 
cannot, for example, know whether a person who has been stopped or 
detained is a violent felon for whom an outstanding arrest warrant has 
been issued. In short, the Hoopa Valley Tribe has done its level best 
to protect and promote public safety within the Hoopa Valley 
Reservation under the constraints of current federal, state, and Tribal 
law. The bills before this committee will ease some of those 
constraints and help the tribe advance toward that goal.
    Despite the Tribe's efforts, there are serious public safety 
concerns in tbe mountains and bill sides of Hoopa Valley. Hoopa people 
rely on gathering natural products such as acorns, mushrooms, bear 
grass, hazel shoots, maple bark, and other materials for basket 
weaving, food, and medicinal use. Yet, women and children are often 
confronted by armed men guarding illegal drug sites up in our hills. 
Our police lack the resources to patrol remote areas of the reservation 
and, since many of the offenders are non-Indians, their detention and 
prosecution is complex and expensive.
    Savanna's Act will improve protocols for responding to reports of 
missing persons and improve access to law enforcement databases. This 
is urgently needecl We recommend adoption of the House version of that 
Act, H.R. 2733. BADGES seeks to improve information sharing and to help 
the Bureau of Indian Affairs respond to missing persons and murder 
cases. Expansion of the Justice Department's Tribal Access Program will 
assist in this process. There is an urgent need to address 
compatibility issues between the Federal Bureau oflnvestigation 
Criminal Justice Information Services databases and to increase 
training and use by Tribal and state databases.
    The Justice for Native Survivors of Sexual Violence Act and the 
Native Youth and Tribal Officer Protection Act will improve Tribal 
special domestic violence criminal jurisdiction over nonnative 
offenders. As the committee is aware, the abi lity of Tribes to 
exercise special domestic violence criminal jmisdiction of non-natives 
requires substantial funding to rebuild and support Tribal judicial 
infrastructure. That funding is not yet available. In addition, the 
expanded jmisdiction was limited in unfortunate ways under the 2013 
Reauthorization of the Violence Against Women Act (VAWA). Thus, VAWA 
did not extend to sex trafficking, sexual violence, stalking, ctimes 
against children, and attempted assault. These bills will address those 
oversights.
    Finally, the Not Invisible Act of 2019 addresses broad issues of 
violent crime in Native communities and will establish more centralized 
oversight of activities, grants, and programs at the Interior 
Department.
    For far too long, the United States has neglected its public safety 
obligations to Tribal Nations. We urge the committee to address the 
public safety crisis affecting Indian Country through enactment of 
these bills. There is not one family in our small community that has 
not been directly affected by the loss of a murdered or missing 
indigenous woman.
    Thanks for your consideration.
                                 ______
                                 
                                             Tulalip Tribes
                                         Tulalip, WA, June 19, 2019
Senator Jon Hoeven, Chairman;
Senator Tom Udall, Vice Chairman,
U.S. Senate Committee on Indian Affairs,
Washington, DC.

Dear Chairman Hoeven and Vice-Chainnan Udall

    On behalf of the Tulalip Tribes, the successors in interest to the 
Snohomish, Snoqualmie, and Skykomish tribes and others tribes and bands 
signatory to the Treaty of Point Elliot of 1855, we submit this letter 
for the hearing held June 19, 2019 on pending legislation aimed at 
improving tribal safety and criminal justice in Indian communities. We 
thank the Committee for holding this hearing and supporting the 
``Special Domestic Violence Criminal Jurisdiction'' (SDVCJ) provision 
in VAWA 2013 which reaffirmed the inherent sovereign authority of 
Indian tribes to prosecute non-Indians for certain domestic violence 
related crimes. We look forward to the opportunity to build on these 
efforts in VAWA reauthorization legislation.

         Out of 25 cases prosecuted under the Tulalip SDVCJ program, 18 
        of the incidents involved one or more children, and 8 children 
        were victims of crime. Of these 8 cases, only 1 case was 
        prosecuted by the federal government because of the 
        egregiousness of the crime. The remaining 7 cases went 
        unprosecuted because Tulalip had no authority under SDVCJ and 
        the State did not prosecute. These child victims did not see 
        justice. See example case incidents.

    The Tulalip community is located on a 22,000-acre Reservation 
bordering on the east to Interstate 5 Corridor 35 miles north of 
Seattle. This area has recently experienced rapid population growth and 
development. Tulalip has 4,000 enrolled members, but most Reservation 
residents are non-Indian due to the history of allotments. Today, the 
Tribe or Tribal members hold approximately 60 percent of the 
Reservation lands with the balance being in non-Indian ownership. The 
large number of non-Indian residents on the Tulalip Indian reservation 
and the geographic location of the reservation increases leads to an 
increased risk of being perpetrated on by non-Indian persons.
    The Tulalip Tribes was selected as one of the first three pilot 
tribes to implement SDVCJ under VAWA 2013. Since February 2014 Tulalip 
has prosecuted 25 total cases under the SDVCJ authority against 18 
defendants. The race of these defendants are as follows: 10 Caucasian; 
2 African American; 4 Hispanic; 1 Middle Eastern; and 1 non-enrolled 
Canadian Indian. Prior to their arrest and prosecution by the Tulalip 
Tribes, the Tulalip Tribes Police Department had over 171 contacts with 
these defendants since 2008.
    Of the 25 cases, there have been 15 convictions, 1 acquittal, 5 
cases pending, and 4 cases dismissed. These statistics demonstrate that 
Tulalip ensures that each defendant is provided due process protections 
as cases are dismissed if there is insufficient evidence, are 
uncooperative witnesses, or for other legal reasons. To date, no 
defendant has filed a petition for a writ of habeas corpus in federal 
court. Overall, with the reaffirmed inherent authority under the SDVCJ 
provisions, Tulalip's program has been extremely successful and has 
greatly assisted in our efforts to combat domestic violence on the 
Tulalip Indian reservation. The law is working as Congress intended. 
However, there is more work to be done.
    While we have had significant success in implementing the SDVCJ 
provisions, our efforts have exposed significant gaps in the statute's 
provisions that leave victims vulnerable, most often our children. 
Short of a full Oliphant fix, the exercise of criminal jurisdiction in 
domestic violence cases must include crimes perpetrated against 
children, sexual violence, stranger rape, sex trafficking, stalking, 
among other crimes so often associated with domestic violence 
situations so that we can address the totality of the circumstances. It 
is unconscionable that a four-year-old can be assaulted when she comes 
to the aid of her mother as her mother is being assaulted, yet charges 
are not brought against the non-Indian defendant for this assault.
    Examples of cases of non-Indians were not prosecuted for crimes 
committed against Tulalip children.
DEFENDANT 1
    CASE 1--Victim Age: 2 years-old

    Incident Details: 36 year-old non-Indian male commits DV against 
his wife. The Defendant forcefully grabbed the baby out of his wife's 
arms while assaulting the wife. He was intoxicated. Tulalip initially 
charged the Defendant with Negligent Endangerment against a child. The 
charges were later dropped because the harm to the child was not 
covered by SDVCJ.
CASE 2--Victim Age: 3 years-old
    Incident Details: 38 year-old non-Indian male commits Assault 1 DV 
(strangulation) on wife. The victim's 11 year-old daughter witnesses' 
mom being strangled. Defendant also damaged property belonging to the 
daughter. Tulalip could not charge because the harm was not covered by 
SDVCJ.
    Children present: Male: Age 13 Female: Age 11 Female: Age 11 Male: 
Age 4 Male:1
DEFENDANT 2
    CASE 1--Victim Age: 20 months

    Incident Details: 21 year-old male commits Assault 1 DV mother of 
his 20 month old child while mother is holding the child. We originally 
charged Criminal Endangerment, but could not proceed with the charge on 
the child's endangerment because the harm to the child was not covered 
by SDVCJ.
DEFENDANT 3
    CASE 1--Victim Age: 13 months old and 4 years-old

    Incident Details: 27 year-old non-Indian male Assault 1 DV mother 
of his children. He threw knives at the wall above mom's head while she 
sat in a chair holding their 13 month-old child. He also struck the 4 
year-old with a lamp cord, causing injury. The incident occurred over a 
period of 3 days as Defendant held them as virtual hostages. The United 
States took the case against the 4 year-old but did not vindicate the 
victimization of the 13 month-old. Tulalip could not charge the 
defendant because the harm to the child was not covered by SDVCJ.
DEFENDANT 4
    Case 1--Age of Child: 5-years-old

    Incident Details: 43-year-old non-Indian male commits Assault DV 
against the mother of his child. Had her down on the floor with arm on 
her face holding her down. The 5 year-old daughter awoke and came to 
investigate. She attempted to get dad off of mom. Dad thrust her aside 
onto the floor causing physical harm. Could not charge assault on 5 
year-old because the harm to the child was not covered by SDVCJ.

    These children live in fear. And the perpetrators feel emboldened 
to continue to commit these crimes. It is unfathomable that 
jurisdictional gaps allow non-Indian perpetuators to evade 
accountability for their criminal actions against native children. 
According to the Department of Justice, American Indian and Alaskan 
Native children suffer exposure to violence at rates higher than any 
other race in the United States.
    The provisions in S. 290, the ''Native Youth and Tribal Officer 
Protection Act,'' would reaffirm inherent tribal authority to prosecute 
non-Indians against Indian children in some circumstances. We urge the 
Committee to build on the provisions in this bill and include this 
language in the VAWA reauthorization legislation so that we can 
adequately protect our children.
    Another significant jurisdictional gap that currently exists is the 
inability to prosecute non-Indians for sexual violence or date rape 
committed against Indian women. Tulalip has dismissed multiple cases 
that were not prosecuted because they did not meet the definition of 
Domestic Violence under the current statute. The definition of Domestic 
Violence limits criminal charges to acts committed by one intimate 
partner against another. In other words, a relationship must already 
exist between the victim and the perpetrator. A number of sexual 
assaults occur between persons who are acquainted with each other but 
who do not otherwise have a relationship, let alone an ``intimate 
relationship.'' These victims, often minors targeted by adult men, are 
unprotected by the current law. Tulalip Police have investigated nearly 
a dozen cases since the beginning of 2019 in which non-Native adult men 
have preyed upon native girls as young as 12 and 13 years old. Often, 
younger girls with few resources or dysfunctional home situations are 
particularly vulnerable to men with money who the girls often view as 
sophisticated protectors.
    This month, a case of stalking was reported. The non-Native 
perpetrator and Tulalip victim had the required prior intimate 
relationship, but the victim had ended the relationship. The 
perpetrator continued to contact her, then came to her workplace, 
confronting her as she left work. The perpetrator took victim's car 
keys from her (a theft) and followed her in her own car as she fled. 
Although there had been unreported violence in the relationship, the 
stalking incident itself did not involve a crime of violence, so could 
not be prosecuted by the Tribes. The provisions inS. 288, the ``Justice 
for Native Survivors of Sexual Violence Act,'' would allow tribes to 
prosecute non-Indians for these types of crimes. We urge the committee 
to include these provisions in VAWA reauthorization legislation.
    The increased responsibility Tulalip has embraced in addressing 
crime and prosecuting cases under its SDVCJ program has strained tribal 
budgets. The expense of hiring prosecutors, providing indigent defense, 
DV investigators, and the costs of incarceration is very expensive. 
Furthermore, prosecuting cases in which a defendant may face up to 
three years in custody carries higher costs. In addition, these 
defendants high a higher need for appropriate re-entry programs as 
these crimes are severe and the perpetrators need more DV focused 
reeducation and treatment to return to the tribal community. Tribal 
governments must balance these needs with other important unmet needs 
for their own citizens such as housing, education, and health care. We 
urge the appropriation of additional financial resources in VAWA 
reauthorization legislation to ensure adequate funding is available to 
cover costs incurred by tribes who exercise SDVCJ.
    It is imperative that Congress fill in the jurisdictional gaps that 
have allowed non-Indian perpetuators to evade accountability for their 
criminal actions against tribal members, particularly children. We 
appreciate the opportunity to submit this letter and we urge the 
Committee to support VAWA reauthorization legislation that will allow 
us to better protect our children and tribal members.
        Respectfully,
                       Hon. Teri Gobin, Tulalip Chairwoman.
                                 ______
                                 
                                     Las Vegas Paiute Tribe
                                       Las Vegas NV, March 26, 2019
Hon. Catherine Cortez Masto,
U.S. Senate Committee on Indian Affairs,
Washington, DC.

Dear Senator Cortez Masto:

    I am writing on behalf of the Las Vegas Paiute Tribe to express our 
appreciation and support for your legislation. the Not invisible Act of 
2019.
    As the title of this bill implies. sadly. we as a nation have paid 
insufficient attention to the unacceptably high levels of violence, 
historical trauma. and other factors that account for the elevated risk 
of trafficking, murder, and missing persons in Indian Country and of 
Native Americans and Alaska Natives.
    When 80 percent of American Indian and Alaska Native men and women 
have experienced violence in their lifetimes (and 56 percent of women 
sexual violence) their plights--and the conditions that cause them--can 
no longer be invisible.
    As your legislation attempts to remedy. the lack of a comprehensive 
effort by the federal government to address what can truly be described 
as a crisis may. in part. be due to the paucity of data about its 
extent and contributing factors.
    The legislation's requirement that the Secretary of Interior 
coordinate violent crime prevention efforts between the Bureau of 
Indian Affairs (BIA) and the Department of Justice (DOJ) w1ll provide 
vital assistance to tribes.
    Such an effort could encourage training of tribal law enforcement, 
health care providers and other tribal community members to identify. 
respond to. and report on cases of missing persons, murder and human 
trafficking.
    Also noteworthy is the legislation's establishment of a joint DOJ/
Interior advisory committee composed of tribaL state. and local law 
enforcement. advocacy organizations. representatives of relevant 
federal agencies. tribal leaders. and survivors and family members.
    Only through a coordinated effort led by the federal government 
with tribes. states. communities and relevant outside organizations can 
we begin to address this national problem.
    Thank you again for all your work on behalf of Nevada tribes and 
other American Native people. Please let me know if there is anything 
the Las Vegas Paiute Tribe can do to assist you.
        Sincerely,
                  Hon. Chris Spotted Eagle. Tribal Chairman
                                 ______
                                 
                National Indigenous Women's Resource Center
                                                      April 2, 2019
Hon. Catherine Cortez Masto,
U.S. Senate Committee on Indian Affairs,
Washington, DC.
                          RE: Support for Not Invisible Act

Dear Senator Cortez Masto:

    We write to express the urgent need to define the scope and address 
human trafficking of American Indian and Alaska Native survivors (AI/
AN). We write to express our support for your proposed legislation, the 
``Not Invisible Act.''
    As stated in the findings of your proposed bill, Native women and 
girls experience a heightened risk of victimization of trafficking due 
to the multiple vulnerabi lities that AllAN individuals continuously 
face. High rates of unemployment, the unavailability of affordable or 
transitional housing (including shelter housing for human trafficking 
victims), the lack of resources available to AI/AN tribal governments 
and communities, the high rates of Native children who age-out of 
foster care, the jurisdictional gaps created by long stand ing federal 
law, and the high rates of victimization that AI/AN women face (which 
increases risk of future victimization), are all illustrative of this 
fact. Though anecdotally we know that human trafficking is a serious 
and frequent issue affecting AI/AN communities, both on tribal land and 
in urban settings, reliable data on the magnitude of this issue is not 
available. Furthermore, the Government Accountability Office, from 
2013-2016, found that there were only 14 federal investigations and 2 
prosecutions of human trafficking offenses where at least one victim 
was Indian. The federal response is inextricably at the root of the 
disparities of human trafficking for AllAN communities: the perception 
that this crime will go unpunished and that AI/AN victims continue to 
be invisible in trafficking as they are in other forms of violence. 
Professor Sarah Deer's testimony from 2011 before the Senate Committee 
on Indian Affairs provides additional information.
    These victims deserve better; they deserve safety. The National 
Indigenous Women's Resource Center knows that any approach to human 
trafficking in our communities, must be intersectional and focused on 
prevention. By including victims, victim advocates, law enforcement, 
the judicial system, tribal housing and various federal agencies, this 
proposed legislation is a meaningful first step. We thank you for your 
office's support of AI/AN victims of human trafficking, including your 
staffer Jordan Warner who has consistently been available to our 
organization and staff. We thank you, Senator Cortez Masto for your 
dedication to continue the important work addressed by your proposed 
legislation. The title of your bill implies that a meaningful response 
to this issue will mean having to seriously address the erasure of our 
communities by colonization and genocide, to address the way in which 
violence on our communities has created generational trauma, and to 
address that not all survivors are treated equally as they engage with 
systems that were historically created to severely disadvantage them. 
We hope that this legislation and its implementation continues to 
prioritize the role of sovereign tribal responses and the role of the 
federal government in carrying out its trust responsibility to assist 
Indian tribes in safeguarding the lives of Indian people.
        Respectfully,
                           Lucy Simpson, Executive Director
                                 ______
                                 
                                             April 10, 2019
John Hoeven, Chairman, Senate Committee on Indian Affairs;
Tom Udall, Vice Chairman, Senate Committee on Indian Affairs;
Lindsey Graham, Chairman, Senate Judiciary Committee;
Diane Feinstein, Ranking Member, Senate Judiciary Committee,
U.S. Senate, Washington, DC.
RE: Native Youth and Tribal Officer Protection Act, S. 2233 
                                                   (NYTOPA)

Honorable Chairman Hoeven, Honorable Vice-Chairman Udall, Honorable 
Chaitman Graham and Honorable Ranking Member Feinstein:

    We greatly appreciate the goals and objectives ofthe ``Native Youth 
and Tribal Officer Protection Act,'' S. 2233 (NYTOPA). As former United 
States Attorneys who prosecuted crimes committed in ``Indian country'' 
(as defined in 18 U.S.C.  1151), we have a unique understanding of why 
the restoration of tribal criminal jurisdiction is so critical to 
improve public safety in Tribal communities.
    Because of the Supreme Court's 1978 decision in Oliphant v. 
Suquamish, federal law severely limits Tribal Nations' ability to 
prosecute crimes committed against Indians by non-Indians. At the 
urging of the Department of Justice, Congress recognized the safety 
concerns created by this arrangement and removed federal limits on the 
inherent authority of tribal governments to prosecute certain non-
Indian domestic violence offenders in the 2013 reauthorization of the 
Violence Against Women Act.
    While United States Attorneys, in most circumstances, do have 
jurisdiction over some nonIndian perpetrated crimes on tribal lands, or 
``Indian country,'' the absence of tribal criminal jurisdiction over 
some non-fndian perpetrated crimes contributes to the high rates of 
violence against Native people living on tribal lands. Too often, 
United States Attorney's Offices with jurisdiction decline to prosecute 
a non-Indian perpetrated crime committed on tribal lands. This could be 
for any number of reasons, ranging from competing priorities, lack of 
sufficient resources to track and prosecute such crimes, to the 
challenges in investigating crimes in remote tribal communities where 
federal law enforcement may not be familiar with the population or 
terrain. In our experience, public interest, safety, health, and 
welfare all support the concept that, if possible, crimes committed on 
tribal lands should be prosecuted by the local government--and in 
``Indian country,'' that is the presiding tribal government. The fact 
that the many, many violent crimes committed against American Indians 
are never prosecuted is contributing to the high rates of violence 
Native women and children face.
    Additionally, NYTOPA reaffirms inherent tribal criminal 
jurisdiction over non-Indian perpetrated crimes committed against 
tribal law enforcement. We know all too well that law enforcement 
officers face a serious safety risk when responding to a domestic 
violence call involving a non-Indian perpetrator. Under the current 
legal framework--and without the reaffirmation of tribal criminal 
jurisdiction over non-Indian perpetrated crimes against law 
enforcement--the tribal justice system has the authority to arrest and 
prosecute a non-Indian domestic violence offender, but is completely 
powerless if that same offender commits a crime against the responding 
tribal public safety officer. That is nonsensical, and it is dangerous. 
Likewise, all too often, when domestic violence crimes are committed, 
children are victims too. Thus, the goal of NYTOPA--restoring tribal 
criminal jurisdiction over crimes committed against tribal police 
officers and children citizens of Tribal Nations--is critically 
important. In the course of our time serving as United States 
Attorneys, we had the opportunity to work with many tribal law 
enforcement officers, prosecutors, and judges and have seen firsthand 
the professionalism and integrity they bring to their work. They are 
committed to serving their communities and are in the best position to 
do so. Thus, we write to express our full support for NYTOPA. We thank 
you for your time and consideration of this important legislation.
        Sincerely,

        Timothy Q. Purdon, Former United States Attorney, District of 
        North Dakota
        Troy A. Eid, Former United States Attorney, District of 
        Colorado
        Brendan V. Johnson, Former United States Attorney, District of 
        South Dakota
        Thomas B. Heffelfinger, Former United States Attorney, District 
        of Minnesota
        David C. Iglesias, Former United States Attorney, District 
        ofNew Mexico
        John W. Vaudreuil, Former United States Attorney, Western 
        District of Wisconsin
        Wendy J. Olson, Former United States Attorney, District of 
        Idaho
        Dennis K. Burke, Former United States Attorney, District of 
        Arizona
        Danny C. Williams, Former United States Attorney, Northern 
        District of Oklahoma
        Jenny Durkan, Former United States Attorney, Western District 
        of Washington
        Michael W. Cotter, Former United States Attorney, District of 
        Montana
        Patrick A. Miles, Jr., Former United States Attorney, Western 
        District of Michigan
        Anne M. Tompkins, Former United States Attorney, Western 
        District of North Carolina
        John F. Walsh, Former United States Attorney, District of 
        Colorado
        Daniel G. Bogden, Former United States Attorney, District of 
        Nevada
        Paul K. Charlton, Former United States Attorney, District of 
        Arizona
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                           Charles Addington
Unmet Law Enforcement Staffing Needs
    Question 1. Section 3 of the Indian Law Enforcement Reform Act (25 
U.S.C. 2802) requires the Office of Justice Services (OJS) to submit a 
list of ``unmet staffing needs of law enforcement, corrections, and 
court personnel (including indigent defense and prosecution staff) at 
tribal and Bureau of Indian Affairs justice agencies'' to Congress each 
year. Is the report dated September 12,2017, the only unmet needs 
report produced to date by the OJS?
    Answer. No. Prior to September 12, 2017, we submitted reports on 
appropriations for fiscal years 201 0 through 2013. The report dated 
September 12, 2017, detailed the allocation and expenditure of our FY 
20 I 4 and 2015 appropriations. A report submitted on June 11, 2018 was 
for our FY 2016 appropriation. The report detailing our FY 2017 
appropriation has been prepared and is under review by the Department 
and will be provided to Congress in the coming weeks.

    Question 1a. If the Office has not produced an unmet need report 
each year since enactment of this requirement, what factors contributed 
to the Office's challenges in complying with statute and publishing the 
report annually?
    Answer. We are currently delivering a report each year. With regard 
to timing, a complete and accurate report cannot be produced until the 
two-year availability of our appropriation has expired and all 
obligations are recorded. Our latest expired appropriation is FY 2017, 
and the corresponding report is under review.

    Question 1b. How does the Office calculate or estimate unmet 
staffing needs for Triballyoperated justice programs?
    Answer. Law enforcement programs and Tribal courts are usually 
sized to meet the needs of a resident service population range. Cost 
estimates assume that all tribes of similar size have law enforcement 
agencies or courts with the same composition. The report groups tribes 
by population size, and then uses scalable cost models to create 
estimates for operating law enforcement programs and Tribal courts for 
each group. Cost estimates for BIA-funded detention/corrections centers 
differ in that only existing centers are considered. Estimated total 
costs are based on individual staffing models developed for each BIA-
funded facility, which is influenced by National Institute of 
Corrections standards in connection with building layout, type of 
prisoners housed, and programs/services offered.

    Question 1c. How does the Office estimate the unmet staffing needs 
for tribal and Bureau of Indian Affairs investigators?
    Answer. Because of their similar structure and function, we utilize 
the same scalable budget models to estimate costs for both tribal and 
BIA programs.

    Question 2. At the hearing, I asked for information on the current 
law enforcement vacancy rates and officer attrition causes. You 
responded, ``For direct service programs and Tribal law enforcement 
programs across the nation, they vary anywhere from 1.8 to 3.2 officers 
per thousand residents. . .We do track, if we do have folks that leave. 
. .we do track why they left and attrition rate.'' Can you provide 
specific information on the current national and regional law 
enforcement vacancy rates for the BIA?
    Answer. The current estimated vacancy rates for the Bureau oflndian 
(BIA), Office of Justice Services (OJS) sworn staff in the field are 
displayed in the below table.

------------------------------------------------------------------------
                                                            Vacancy Rate
                    Organizational Unit                      percentage
------------------------------------------------------------------------
District 1                                                            44
District 2                                                            21
District 3                                                            41
District 4                                                            34
District 5                                                            45
District 6                                                            33
District 7                                                            25
District 8                                                            67
District 9                                                             0
OJS Overall (Field/Sworn)                                             39
------------------------------------------------------------------------

    Question 2a. Would the OJS be able to include this information in 
its annual unmet needs reports if directed to do so by Congress?
    Answer. Yes.

    Question 2b. Can you further clarify or provide any statistics on 
the most frequently cited causes for officer attrition at the Bureau of 
Indian Affairs?
    Answer. In FY 2018, BIA-OJS hired 65 new personnel, but lost 96. 
The respective figures for FY 2017 are 72 and 63. Retirement, 
misconduct, remote location without adequate services (including 
housing), competition from higher paying State and Federal law 
enforcement agencies, and burn out were the most common reasons for 
attrition.

    Question 3. You noted at the hearing, ``Under the Tribal Law and 
Order Act, we do have to do Tribal backgrounds for tribal law 
enforcement if requested by the Tribe.'' Approximately how many Tribes 
ask the OJS to conduct law enforcement background checks?
    Answer. OJS has conducted background investigations for up to 20 
tribes in a single year. However, the number of Tribes served annually 
varies and is dependent on background cycles. For example, new hires 
are normally done locally unless there is a mass hiring at a tribal 
department. Five-year background updates may also be batched, which 
increases Tribal requests of OJS. For example, the Seminole Tribe 
requested that OJS conduct five-year background investigation renewals 
for approximately 100 tribal officers.

    Question 3a. Would section 201 of the BADGES for Native Communities 
Act allow OJS to conduct law enforcement personnel background checks 
for Tribal law enforcement, when requested to do so by Tribes, using 
the new in-house demonstration authority?
    Answer. No, the general purpose is for ``law enforcement positions 
in the Bureau of Indian Affairs.'' See Section 201(a)(l). However, 
under the Tribal Law & Order Act, if a tribal law enforcement program 
operating under a P.L. 93-638 contract or selfgovernance compact 
requests that OJS conduct background investigations for a tribal 
officer, OJS has 60 days to do so after receiving all required 
information. Funding for this mandate was not included in TLOA.
Committee Rule Compliance
    Question 4. According to Committee Rule 4b, witnesses must submit 
testimony to the Committee 48 hours before the start of a hearing. Your 
testimony was received after the deadline. Please provide the date and 
time you submitted testimony to the Office of Management and Budget for 
clearance pursuant to Circular A-19.
    Answer. Draft testimony was submitted to the Office of Management 
and Budget on June 14,2019 at 11:33 am Eastern Time.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                           Charles Addington
    Question 1. A 2017 Senate Committee on Indian Affairs hearing 
highlighted the prevalence of child sexual exploitation, including the 
online trading of child pornography, in communities with close 
proximity to Native lands or within Native communities. From your work 
with human trafficking investigations affecting Indian Country, is 
there a need to support legislation that works to improve state, local, 
tribal, and military law enforcement training and tools to further 
investigate and prosecute child pornography? If so, is the Bureau of 
Indian Affairs--and the Office of Justice Services specifically-- 
willing to collaborate with Congress in this effort?
    Answer. The Bureau of Indian Affairs (BIA), Office of Justice 
Services (OJS) has not encountered many child sexual abuse material 
cases in Indian Country. Most sex crimes against children in Indian 
Country that we are aware of are cases ofhands-on-only sexual abuse or 
molestation. However, we would like to refer you to Homeland Security 
Investigations and the Federal Bureau of Investigations for more 
information on child sexual abuse material investigations. With ever 
changing crime trends, BIA OJS welcomes any collaboration with Congress 
and additional training that would enhance the skills of our Special 
Agents in efforts to identify and prosecute child sexual exploitation 
cases in Indian Country.

    Question 2. A 2017 Government Accountability Office report found 
that while data on child sexual exploitation is collected by Department 
of Justice grantee programs, and by the Office of Juvenile Justice and 
Delinquency Prevention for minors, but the only easily accessible data 
comes from the National Human Trafficking Hotline. How can we improve 
both the data collection and reporting on these crimes, to better help 
policymakers craft effective solutions?
    Answer. BIA OJS recommends enhancing Federal statutes to require 
all Indian Country law enforcement programs receiving any federal funds 
to use the same reporting format and submit the same statistical 
reports to the BIA OJS as prescribed by the OJS Director and as are 
required of all BIA law enforcement programs. This would assist BIA OJS 
in standardizing and collecting the required crime statistics from 
Indian Country law enforcement programs and allow public safety 
programs to collect adequate crime data to be analyzed so they can 
identify crime trends and apply resources to address the identified 
trends. BIA OJS 's Indian Country crime data is compiled from the 
monthly crime statistics submitted to BIA OJS by Tribal law enforcement 
programs. However, Tribal law enforcement programs often submit 
incomplete data or none at all. 25 CFR Part 12 requires Tribes to 
submit the monthly crime data but it has little consequences if they do 
not.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                           Hon. Lynn Malerba
    Question 1. There is a correlation between the number of IP 
addresses associated with the peer-to-peer trading of child pornography 
in a given area, and communities with a high native population. It is 
imperative that law enforcement officers be well trained and equipped 
to identify, track, and prosecute these offenders. As an official 
within your community, do you see the benefit of comprehensively 
training all law enforcement--tribal, federal, state, local, and 
military-on the best practices and tools to tackle online child 
pornography offenses?
    Answer. Tribal law enforcement must have access to the same 
training and infrastructure opportunities as law enforcement for other 
units of government, and in accordance with the trust responsibility 
and obligations, the Administration and Congress must work to ensure 
full funding is appropriated for this purpose. The funding must be 
available to Tribal Nations directly and on a non-competitive basis. 
With regard to child pornography specifically, Indian Country's 
greatest and most precious resource is our children, as they represent 
the future of our Tribal Nations. The federal government must do more 
to ensure our children are protected from violence and exploitation. 
This includes restoring criminal jurisdiction to Tribal Nations for 
crimes against our children. As I noted in my verbal testimony during 
the hearing, it is a stain upon the United States and fundamentally 
immoral that our children continue to experience such 
disproportionately high rates of violence and exploitation. Every 
member of the Senate Committee on Indian Affairs and every member of 
Congress should take swift action to correct this injustice.

    Question 2. A 2017 Government Accountability Office report found 
that while data on child sexual exploitation is collected by Department 
of Justice grantee programs, and by the Office of Juvenile Justice and 
Delinquency Prevention for minors, but the only easily accessible data 
comes from the National Human Trafficking Hotline. How can we improve 
both the data collection and reporting on these crimes, to better help 
policymakers craft effective solutions?
    Answer. As with all data related to violence against and the 
exploitation of Native people in the United States, the reasons for 
poor quality, incompleteness, and under-collection are myriad. These 
include underreporting, racial misclassification, Tribal Nation lack of 
access to crime information and reporting mechanisms, bias and poor 
relationships with Tribal Nations on the parts of other units of 
government, poor record-keeping protocols at all levels of government, 
and a failure of the federal government to deliver upon the trust 
responsibility and obligations--including ensuring the proper funding 
is directly available to Tribal Nations for data collection. Currently, 
Tribal Nations must navigate a maze of funding vehicles and mechanisms, 
including negotiating agreements for the interagency transfer of funds 
to improve data and reporting. All of these issues must be examined and 
addressed in consultation with Tribal Nations, if we are to improve 
data on Native child exploitation, as well as missing and murdered 
Native people.

    Question 3. An element of improving data collection and reporting 
is the significance of identifying the Native status of women and youth 
who are victims of trafficking and sexual exploitation. Do you agree 
that it is necessary to include Native status in demographic data? 
Could this disaggregated data be used to improve culturally appropriate 
treatment and support programs for Native victims?
    Tribal Nations, Congress, and the Administration all recognize that 
poor data collection and reporting is a contributing factor to the 
shameful injustice of missing, murdered, and exploited Native people 
throughout the United States. Put simply, it is impossible for the 
federal government to understand the full scope of this problem and its 
own failures to address it without committing to the collection of 
accurate data. That the federal government has not dedicated itself and 
its resources to improving data collection and tracking of missing, 
murdered, and exploited Native people is a violation of the trust 
responsibility and obligations. Including Tribal affiliation, in 
accordance with the unique government-to-government relationship 
between the United States and Tribal Nations, in data collection is but 
one step in correcting this failure. Improved data would have a variety 
of critical applications, including ensuring Congress and the 
Administration are appropriating critical resources for prevention, law 
enforcement, Tribal judicial infrastructure, and prosecution, as well 
as treatment and support.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                         Hon. Michelle Demmert
    Question 1. There is a correlation between the number of IP 
addresses associated with the peer-to-peer trading of child pornography 
in a given area, and communities with a high native population. It is 
imperative that law enforcement officers be well trained and equipped 
to identify, track, and prosecute these offenders. As an official 
within your community, do you see the benefit of comprehensively 
training all law enforcementtribal, federal, state, local, and 
military-on the best practices and tools to tackle online child 
pornography offenses?
    Answer. Yes, we do see a benefit to comprehensive training of all 
law enforcement--tribal federal, state, local and military--on the best 
practices and tools to tackle online child pornography offenses. If a 
tribal community is being targeted by these offenders, we ask that you 
engage, inform and collaborate with the nearby tribal communities so 
that all will be informed and will be approaching the situation from a 
unified approach to the extent possible.
    The United States Department of Justice has testified to Congress 
that jurisdictional complexity has made the investigation and 
prosecution of criminal conduct in Indian country very difficult and 
that some violent crimes' convictions are thrown into doubt, 
recommending that the energy and resources spent on the jurisdictional 
questions would be better spent on providing tangible public safety 
benefits. \1\ The Indian Law and Order Commission, a bi-partisan 
commission created by the Tribal Law & Order Act of 2010, concluded 
that ``criminal jurisdiction in Indian country is an indefensible 
morass of complex, conflicting, and illogical commands.'' \2\ While our 
attention has been largely placed on combating the disproportionate 
rate of domestic violence against our American Indian and Alaska Native 
women, we know that the jurisdictional complexities make our women and 
children targets for deviants and criminals.
---------------------------------------------------------------------------
    \1\ Testimony of The Honorable Thomas B. Heffelfinger, U. S. 
Attorney, Minneapolis, Minneapolis, Oversight Hearing before the Senate 
Committee on Indian Affairs on Contemporary Tribal Governments: 
Challenges in Law Enforcement Related to the Rulings of the United 
States Supreme Court, July 11, 2002.
    \2\ INDIAN LAW & ORDER COMM'N, A ROADMAP FOR MAKING NATIVE AMERICA 
SAFER, (2013).
---------------------------------------------------------------------------
    For over three decades before amendments included in the 
reauthorization of the Violence Against Women Act in 2013 (VAWA 2013), 
tribes did not have jurisdiction over any crimes committed by non-
Indians on their reservations. \3\ In 1978, the Supreme Court ruled in 
Oliphant v. Suquamish that, absent specific direction from Congress, 
tribal nations do not have jurisdiction over crimes committed by non-
Indians in Indian country. \4\ Congress recognized the impacts of this 
ruling. According to the Senate Committee on Indian Affairs' Report on 
this issue, ``Criminals tend to see Indian reservations and Alaska 
Native villages as places they have free reign, where they can hide 
behind the current ineffectiveness of the judicial system. Without the 
authority to prosecute crimes of violence against women, a cycle of 
violence is perpetuated that allows, and even encourages, criminals to 
act with impunity in Tribal communities and denies Native women 
equality under the law by treating them differently than other women in 
the United States.'' \5\ Numerous researchers and policy commissions 
have concluded for decades that jurisdictional complexities in Indian 
country were a part of the problem. And again, Alaska has a uniquely 
complex jurisdictional arrangement and no solution has yet been 
legislated. \6\ As the Ninth Circuit summarized in a 1994 report, 
``Jurisdictional complexities, geographic isolation, and institutional 
resistance impede effective protection of women subjected to violence 
within Indian country.'' \7\ Unfortunately, the amendments included in 
VAWA 2013 creating a framework for some tribes to exercise jurisdiction 
over domestic violence crimes are limited in scope and do not reach sex 
crimes.
---------------------------------------------------------------------------
    \3\ See, e.g., Angela R. Riley, Crime and Governance in Indian 
country, 63 UCLA L. REV. 1564, 1567 (2016) (discussing the history of 
criminal justice in Indian country, the resulting ``jurisdictional 
maze,'' and the impacts of this maze on Native women).
    \4\ Oliphant v. Suquamish Indian Tribe, 435 U.S. 191 (1978).
    \5\ S. Rep. No. 112-265, at 7 (2012).
    \6\ INDIAN LAW & ORDER COMM'N, A ROADMAP FOR MAKING NATIVE AMERICA 
SAFER, (2013).
    \7\ John C. Coughenour et al., The Effects of Gender in the Federal 
Courts: The Final Report of the Ninth Circuit Gender Bias Task Force, 
67 S. CAL. L. REV. 745, 906 (1994).
---------------------------------------------------------------------------
    Each of the three sovereigns has less than full jurisdiction, and 
the consequent need for multiple rounds of investigation often leads to 
a failure to act. Overall, law enforcement in Indian country requires a 
degree of cooperation and mutual reliance between federal, tribal, and 
state law enforcement that--while theoretically possible--has proven 
difficult to sustain. As described by Theresa Pouley, former Chief 
Judge at the Tulalip Tribes of Washington, ``The combination of the 
silence that comes from victims who live in fear and a lack of 
accountability by outside jurisdictions to prosecute that crime, you've 
created if you will, the perfect storm.which is exactly what all of the 
statistics would bear out.'' \8\ We need a unified approach and Tribes 
need to be part of the solutions.
---------------------------------------------------------------------------
    \8\ Tribal Justice: Prosecuting non-Natives for sexual assault on 
reservations, PBS NEWS HOUR (Sept. 5, 2015), https://www.pbs.org/
newshour/show/tribal-justice-prosecuting-non-natives-sexual-assault-
indian-reservations.

    Question 2. A 2017 Government Accountability Office report found 
that while data on child sexual exploitation is collected by Department 
of Justice grantee programs, and by the Office of Juvenile Justice and 
Delinquency Prevention for minors, but the only easily accessible data 
comes from the National Human Trafficking Hotline. How can we improve 
both the data collection and reporting on these crimes, to better help 
policymakers craft effective solutions?
    Answer. As for human trafficking, we firmly believe that tribes 
need to be at the table to discuss solutions to human trafficking, data 
collection and reporting on these crimes to help policymakers craft 
effective solutions. Recently, there has been an increase in interest 
from Congress regarding human trafficking in tribal communities. The 
Government Accountability Office (GAO) released two reports on this 
topic in 2017. \9\ On September 27, 2017, the Senate Committee on 
Indian Affairs held a hearing on ``the GAO Reports on Human Trafficking 
of Native Americans in the United States.'' \10\ Witnesses at that 
hearing included the GAO, the Bureau of Indian Affairs' Office of 
Justice Services (BIA OJS), the Department of Justice's Office of 
Tribal Justice and the Executive Director of the Minnesota Indian 
Women's Sexual Assault Coalition. I encourage you to review the 
testimony from that hearing to get a greater understanding of how the 
federal government attempts to address trafficking in tribal 
communities and statistics from a tribal perspective in an urban area. 
\11\
---------------------------------------------------------------------------
    \9\ GAO, Human Trafficking: Action Needed to Identify the Number of 
Native American Victims Receiving Federally-funded Services, GAO-17-325 
(Washington, D.C.: Mar. 30, 2017), and GAO, Human Trafficking: 
Information on Cases in Indian country or that Involved Native 
Americans, GAO-17-624 (Washington, D.C.: July 24, 2017).
    \10\ https://www.indian.senate.gov/hearing/oversight-hearing-gao-
reports-human-trafficking-native-americans-united-states.
    \11\ Farley M., N. Matthews, N. , Deer, S., Lopez, G., Stark, C, 
Hudon, E., (2011)Garden of Truth: The Prostitution and Trafficking of 
Native Women in Minnesota.
---------------------------------------------------------------------------
Prevalence of trafficking on tribal lands
    In the United States, as well as in Canada, ``there is no data 
collection/tracking method that provides a complete picture of sexual 
exploitation or human trafficking.'' \12\ The data that is available 
supports the conclusion that AI/AN women are trafficked at 
disproportionately high rates. Across four sites surveyed in the U.S. 
and Canada as part of a 2015 report, an average of 40 percent of the 
women who had been trafficked identified as AI/AN or First Nations:
---------------------------------------------------------------------------
    \12\ Sweet, V. (2014). Rising Waters, Rising Threats: The Human 
Trafficking of Indigenous Women in the Circumpolar Region of the United 
States and Canada. Social Science Research Network. Retrieved from: 
http://papers.ssrn.com/sol3/papers.cfm?abstract_id=2399074.

         ``In Hennepin County, Minnesota, roughly 25 percent of the 
        women arrested for prostitution identified as American 
        Indian.In Anchorage, Alaska, 33 percent of the women arrested 
        for prostitution were Alaska Native.In Winnipeg, Manitoba, 50 
        percent of adult sex workers were defined as Aboriginal. and 52 
        percent of the women involved in the commercial sex trade in 
        Vancouver, British Columbia were identified as First Nations.'' 
        \13\
---------------------------------------------------------------------------
    \13\ Sweet, V. (2015). Trafficking in Native Communities. Published 
on 5/24/2015 by Indian Country Today Media Network. Retrieved from: 
http://indiancountrytodaymedianetwork.com/2015/05/24/trafficking-
native-communities-160475.

    It is important to note that in not one of these cities and 
counties do Native women represent more than 10 percent of the general 
population. And while these data are only snapshots of sex trafficking 
in major cities, similar trends are emerging in more remote, 
reservation communities. In 2015 alone, the White Earth DOVE Program 
(Down On Violence Everyday), which serves the White Earth, Red Lake, 
and Leech Lake Reservations in northwestern Minnesota, identified 17 
adult victims of sex trafficking. \14\ In northeastern Montana, the 
Montana Native Women's Coalition reported that they have observed a 12 
to 15 percent increase over the previous year's program base (between 
2014-2015) regarding the number of Native women who have been 
trafficked. \15\
---------------------------------------------------------------------------
    \14\ Dalrymple, A. and Lymn, K. (2015). Native American populations 
`hugely at risk' to sex trafficking. Published on 1/5/2015 by the 
Bismarck Tribune. Retrieved from: http://bismarcktribune.com/bakken/
native-american-populations-hugely-at-risk-to-sex-trafficking/
article_46511e48-92c5-11e4-b040-c7db843de94f.html.
    \15\ Armitage, L. (2015). `Human Trafficking Will Become One of the 
Top Three Crimes Against Native Women.' Published on 7/15/2015 by 
Indian country Today Media Network. Retrieved from: http://
indiancountrytodaymedianetwork.com/2015/07/15/human-trafficking-will-
become-one-top-three-crimes-againstnative-women-161083.
---------------------------------------------------------------------------
    In my home state of Alaska, the FBI and the BIA have warned tribal 
leaders that traffickers were preying on Native women and would be 
targeting young women who traveled to Anchorage for the Alaska 
Federation of Natives conference. \16\ There has also been a great deal 
of discussion about the dangerous situation created for Native women by 
the oil boom in the Bakken region of North Dakota. \17\ ``Specifically, 
the influx of well-paid male oil and gas workers, living in temporary 
housing often referred to as `man camps,' has coincided with a 
disturbing increase in sex trafficking of Native women.'' \18\
---------------------------------------------------------------------------
    \16\ https://www.adn.com/rural-alaska/article/i-can-t-get-my-
sister-back-investigators-warn-sex-traffickers-targeting-natives/2010/
12/03/
    \17\ http://harvardjlg.com/wp-content/uploads/2012/01/jlg-winter-
3.pdf
    \18\ Id.
---------------------------------------------------------------------------
    Human trafficking is a highly underreported crime for a variety of 
reasons, including the fact that ``many trafficking victims do not 
identify themselves as victims. Some may suffer from fear, shame, and 
distrust of law enforcement. It is also not unusual for trafficking 
victims to develop traumatic bonds with their traffickers because of 
the manipulative nature of this crime.'' \19\ Human trafficking also 
intersects with intimate partner violence in a way that can obscure the 
scope of the problem. According to the National Network to End Domestic 
Violence ``there is a marked overlap in the pattern of behaviors that 
both abusers and traffickers use to exert power and control over a 
victim. Intimate partner trafficking occurs when an abuser `[compels] 
their partner to engage in commercial sex, forced labor, or involuntary 
servitude.' Alternatively, trafficked individuals sometimes live with 
their trafficker and are subjected to the physical violence, emotional 
manipulation, and overbearing control that are hallmarks of domestic 
violence.'' \20\ Domestic and sexual violence are crimes that also 
disproportionately impact AI/AN women. The National Institute for 
Justice has found that 84 percent of AI/AN women will experience 
intimate partner violence, sexual violence, or stalking in their 
lifetime, and one in three have experienced it in the past year. \21\
---------------------------------------------------------------------------
    \19\ PRC brief http://www.ncai.org/policy-research-center/research-
data/prc-publications/TraffickingBrief.pdf
    \20\ https://nnedv.org/latest_update/intersections-domestic-
violence-human-trafficking/
    \21\ DEPARTMENT OF JUSTICE, NAT'L INST. OF JUSTICE, VIOLENCE 
AGAINST AMERICAN INDIAN AND ALASKA NATIVE WOMEN AND MEN: 2010 FINDINGS 
FROM THE NATIONAL INTIMATE PARTNER AND SEXUAL VIOLENCE SURVEY 26 (May 
2016), https://www.ncjrs.gov/pdffiles1/nij/249736.pdf.
---------------------------------------------------------------------------
Heightened Risk for American Indians and Alaska Natives
    Traffickers prey on persons perceived to be vulnerable. \22\ AI/AN 
women and girls have many of the indicators that increase 
vulnerability, including being a relatively young, high-poverty 
population, high rates of homelessness and substance abuse, 
exceptionally high rates of past violent victimization, and a lack of 
resources and support services. \23\ An FBI agent involved with 
prosecuting trafficking cases in Anchorage has said that Native women 
are also particularly vulnerable because ``[t]here have been 
traffickers and pimps who specifically target Native girls because they 
feel that they're versatile and they can post them (online) as 
Hawaiian, as Native, as Asian, as you name it.'' \24\
---------------------------------------------------------------------------
    \22\ Attorney General's Annual Report to Congress and Assessment of 
U.S. Government Activities to Combat Trafficking in Persons, Fiscal 
Year 2015.
    \23\ https://www.indian.senate.gov/sites/default/files/upload/
Tracy%20Toulou%20Testimony_0.pdf
    \24\ https://www.adn.com/rural-alaska/article/i-can-t-get-my-
sister-back-investigators-warn-sex-traffickers-targeting-natives/2010/
12/03/
---------------------------------------------------------------------------
    Compounding these demographic vulnerabilities is the lack of an 
effective law enforcement and criminal justice system in many places. 
Current federal law limits the authority of Indian nations to fully 
protect victims of crime and respond to crimes of trafficking that 
occur on their lands. Criminal jurisdiction in Indian country is 
divided among federal, tribal, and state governments, depending on the 
location of the crime, the type of crime, the race of the perpetrator, 
and the race of the victim. The rules of tribal jurisdiction were 
created over 200 years of Congressional legislation and Supreme Court 
decisions--and are often referred to as a ``jurisdictional maze.'' \25\
---------------------------------------------------------------------------
    \25\ See Robert N. Clinton, Criminal Jurisdiction Over Indian 
Lands: A Journey Through a Jurisdictional Maze, 18 ARIZ. L. REV. 503, 
508-13 (1976).
---------------------------------------------------------------------------
    The complexity of the jurisdictional rules creates significant 
impediments to effective law enforcement in Indian country. Each 
criminal investigation involves a cumbersome procedure to establish who 
has jurisdiction over the case according to the nature of the offense 
committed, the identity of the offender, the identity of the victim, 
and the exact legal status of the land where the crime took place. The 
first law enforcement officials called to the scene are often tribal 
police or BIA officers, and these officers may initiate investigations 
and/or detain a suspect. Then a decision has to be made--based on the 
race of the individuals involved in the crime, the type of crime 
committed, and the legal status of the land where the crime occurred--
whether the crime is of the type warranting involvement by the FBI or 
state law enforcement.
    The United States Department of Justice has testified to Congress 
that jurisdictional complexity has made the investigation and 
prosecution of criminal conduct in Indian country very difficult and 
that some violent crimes convictions are thrown into doubt, 
recommending that the energy and resources spent on the jurisdictional 
questions would be better spent on providing tangible public safety 
benefits. \26\ The Indian Law and Order Commission, a bi-partisan 
commission created by the Tribal Law & Order Act of 2010, concluded 
that ``criminal jurisdiction in Indian country is an indefensible 
morass of complex, conflicting, and illogical commands.'' \27\ These 
challenges are not unique to trafficking cases, but they undoubtedly 
complicate the justice response and make reservations an attractive 
target for traffickers. Native women as a population are often viewed 
as unprotected prey and the pleas of victims and their families for 
help go unheard. One mother in Alaska, reported:
---------------------------------------------------------------------------
    \26\ Testimony of The Honorable Thomas B. Heffelfinger, U. S. 
Attorney, Minneapolis, Minneapolis, Oversight Hearing before the Senate 
Committee on Indian Affairs on Contemporary Tribal Governments: 
Challenges in Law Enforcement Related to the Rulings of the United 
States Supreme Court, July 11, 2002.
    \27\ INDIAN LAW & ORDER COMM'N, A ROADMAP FOR MAKING NATIVE AMERICA 
SAFER, (2013).

         ``[m]y daughter was and still is a victim of sex trafficked 
        women. I reported it to the authorities and received no help. I 
        told them the address, location, and names of her traffickers. 
        The Anchorage Police Department would not listen to me until I 
        got my two white friends to make a call for me. I contacted 
        Priceless Alaska but they would not help me unless a State 
        Trooper investigates and makes a referral to their 
        organization. No one would help me. I also called the FBI, 
        three times, and they did not respond. Through, my 2 white 
        friends, I reported her missing. My daughter was held, by 
---------------------------------------------------------------------------
        traffickers, at Eagle River, Alaska, for 4 months.''

         --Martina Post, Testimony of the Native Village of Alakanuk, 
        USDOJ Tribal Consultation, December 6, 2016

    In Alaska 28 percent of the youth at Covenant House Alaska were 
survivors of human trafficking and Alaska experiences the most heinous 
cases of sex trafficking in the nation. The researcher, Dr. Laura 
Murphy of Loyola University's Modern Slavery Research Project, reported 
that from among all the Covenant House sites across the country, Alaska 
had the most brutal cases of sex trafficking--worse than the big, 
crime-filled cities of Los Angeles, Detroit, New Orleans and even New 
York. \28\
---------------------------------------------------------------------------
    \28\ Murphy, L.T., (2017) Labor and Sex Trafficking Among Homeless 
Youth 12.

    Question 3. An element of improving data collection and reporting 
is the significance of identifying the Native status of women and youth 
who are victims of trafficking and sexual exploitation. Do you agree 
that it is necessary to include Native status in demographic data? 
Could this disaggregated data be used to improve culturally appropriate 
treatment and support programs for Native victims?
    Answer. When it comes to collecting data and reporting, it is 
critical to identify the Native status of women and youth who are 
victims of trafficking and sexual exploitation. Our women and 
especially our women targeted with these crimes have great need for 
assistance, as not only do they need services, but they also need 
stable housing, medical and legal services. This disaggregated data can 
be used to improve culturally appropriate treatment and support 
programs for Native victims and also tell the true story of the grossly 
disproportionate rate that our women are subjected to in crimes of 
violence, trafficking and sexual exploitation.
Federal Response
    Investigating and prosecuting trafficking crimes in tribal 
communities is largely the responsibility of the federal government, 
although in some cases the tribal or state government will have 
concurrent jurisdiction. According to the GAO, there are four federal 
agencies that investigate or prosecute human trafficking in Indian 
country--the Federal Bureau of Investigation (FBI), the Bureau of 
Indian Affairs (BIA), U.S. Immigration and Customs Enforcement (ICE), 
and the U.S. Attorneys' Offices (USAOs). \29\ GAO reports that the BIA, 
FBI, and USAOs record whether a trafficking case occurred in Indian 
country in their case systems, but ICE does not. None of the federal 
agencies track whether the victim is Native American or not. \30\ In 
its recent report, the GAO found that from 2013-2016, there were only 
14 federal investigations, and 2 federal prosecutions of human 
trafficking offenses in Indian country. \31\ Given what we know about 
the prevalence of trafficking in tribal communities and the 
responsibility of the federal government to investigate and prosecute 
this crimes, this is extremely concerning. The GAO released a second 
report in July 2017 examining the extent to which local law enforcement 
agencies or tribal governments were filling the void left by federal 
law enforcement agencies and investigating and prosecuting trafficking 
cases. The GAO surveyed 203 tribal law enforcement agencies and 86 
major city law enforcement agencies. Of the 132 tribal law enforcement 
agencies who responded, 27 of them reported that they initiated human 
trafficking investigations between 2014-2016, for a total of 70 
investigations involving 58 victims. The GAO asked tribal law 
enforcement agencies about the number of human trafficking 
investigations they conducted in Indian country. The question posed to 
major city law enforcement agencies differed, however. They were asked 
about the number of human trafficking investigations that involved at 
least one Native American victim. Only 6 of the major city law 
enforcement agencies reported human trafficking cases with at least one 
Native American victim. Those 6 reported a total of 60 investigations 
involving 81 Native American victims from 2014-2016. The Minneapolis 
Police Department reported 49 of the 60 total investigations. GAO 
reported that the Minneapolis Police ``made a concerted effort, 
starting in 2012, to meet with tribal elders and service providers who 
worked with the Native American population to demonstrate their 
willingness to investigate human trafficking crimes. The officials 
stated that, following those meetings, the number of human trafficking 
crimes involving Native American victims that were reported to the 
department increased.'' \32\
---------------------------------------------------------------------------
    \29\ https://www.indian.senate.gov/sites/default/files/upload/
Gretta%20Goodwin%20Testimony.pdf
    \30\ https://www.indian.senate.gov/sites/default/files/upload/
Gretta%20Goodwin%20Testimony.pdf
    \31\ https://www.indian.senate.gov/sites/default/files/upload/
Gretta%20Goodwin%20Testimony.pdf
    \32\ https://www.gao.gov/assets/690/687396.pdf, at 10.
---------------------------------------------------------------------------
    GAO reported that tribal law enforcement agencies believe that 
human trafficking is occurring at a higher rate than is being reported. 
Unsurprisingly, when tribal law enforcement were asked to identify 
factors that hampered their ability to hold traffickers accountable 
several themes emerged: (1) victims are unwilling to cooperate; (2) 
lack of resources, such as necessary training, equipment and funding 
for sex crime investigations; (3) inter-agency cooperation is absent or 
deficient; and (4) a lack of appropriate laws in place.
Conclusion
    While human trafficking effects every community, there is a growing 
awareness and concern that Native women and girls are particularly 
vulnerable and are victims of sex trafficking at an alarming rate. We 
have no reason to believe that given these facts, that when it comes to 
online pornography, our women and children will be targeted by those 
individuals too. There is a particular concern about the relationship 
between both intimate partner violence and the extractive industries 
and sex trafficking. It is important that Congress take action to hold 
federal officials accountable for their failure to adequately 
investigate and prosecute trafficking crimes in tribal communities, 
while also ensuring that tribal governments have the resources and 
authority that they need to address these issues. Gunalcheesh, Haw'aa, 
or in other words, thank you for asking these important questions.
                                 ______
                                 

    *RESPONSES TO THE FOLLOWING QUESTIONS FAILED TO BE 
SUBMITTED AT THE TIME THIS HEARING WENT TO PRINT*

           Written Questions Submitted by Hon. Tom Udall to 
                              Tracy Toulou
Officer Response to Domestic Violence Calls
    Question 1. According to an April 9, 2018, article by USA Today, 
FBI data shows that more officers died responding to domestic 
disturbances than during drug-related arrests between 1986 and 2016. 
\1\ What does the Department's research into officer assaults and 
fatalities indicate about the dangers of responding to domestic 
violence and domestic disturbance calls?
---------------------------------------------------------------------------
    \1\ Natalie Schreyer, Domestic Abusers: Dangerous for Women--and 
Lethal for Cops, USA TODAY, Apr. 9, 2018, https://www.usatoday.com/
story/news/nation/2018/04/09/domestic-abusers-dangerous-women-and-
lethal-cops/479241002/.
---------------------------------------------------------------------------
Unmet Law Enforcement Staffing Needs
    Question 2. The FBI's Uniform Crime Report estimates police 
employee data by calculating the number of sworn officers and law 
enforcement personnel per 1,000 inhabitants. The Bureau of Indian 
Affairs used this same metric as the basis for determining its unmet 
officers staffing need in its 2017 ``Report to the Congress on 
Spending, Staffing, and Estimated Funding Costs for Public Safety and 
Justice Programs in Indian Country''. Does the Department of Justice 
measure staffing levels for criminal investigators and prosecutors? b. 
What research, if any, is the Department of Justice aware of that 
suggests minimum or recommended staffing levels for criminal 
investigators and prosecutors?
Jurisdiction
    Question 3. In your written testimony on S. 288 and S. 290, you 
state, ``Because exercising criminal jurisdiction is such a crucial 
aspect of sovereignty, the Department would welcome the opportunity to 
work with the Committee to ensure that [S. 288 and S. 290] will weather 
judicial challenges.''
        a.  Is the Department aware of any judicial challenges to date 
        regarding Tribal exercise of special domestic violence criminal 
        jurisdiction?
        b.  What suggestions would the Department make to ensure that 
        S. 288 and S. 290 can ``weather judicial challenges''?
Federal Criminal Databases
    Question 4. The Government Accountability Office's recent report 
GA0-16-515 included a recommendation that the Department of Justice 
evaluate options to share information between NCIC and NamUs. According 
to the report, the Department indicated that NamUs does not qualify 
under federal law for access to the NCIC and is not authorized to 
receive NCIC data. Does the Department still assert that it needs 
statutory authorization from Congress to allow NamUs to access and 
receive data from NCIC?

    Question 5. In response to a question at the hearing about linking 
the National Crime Information Center (NCIC) and the National Missing 
and Unidentified Persons System (NamUs) to share information, you 
stated, ``We've made efforts already to try to put those two databases 
in contact. . .it's underway--it's tricky--but we agree the two 
databases should speak to each other.'' Please describe the current 
efforts underway at the Department of Justice to coordinate between 
NCIC and NamUs you referenced in this response.

    Question 6. According to testimony from Central Council Tlingit and 
Haida Indian Tribes Chief Justice Michelle Demmert, ``28 USC 534(d) 
authorizes release of criminal history information to Tribal law 
enforcement agencies, but doesn't allow release of criminal information 
to other Tribal agencies for important, legitimate civil purposes, such 
as Emergency Placement of Children or 'Purpose Code X,' employees that 
work with elders and vulnerable adults, etc. CJIS interprets the 
appropriations rider language from 92-544 (and in the notes of 28 USC 
534) as a permanent statute that prevents sharing this information with 
Tribal governments. . .A state can legislate to authorize this access, 
whereas a Tribe does not have that direct access and often has to use 
channelers or use Lexis/Nexus.''

        a.  Can states access federal criminal databases for the civil 
        purposes referenced by Chief Justice Demmert? And, if so, what 
        federal statutory authority grants this access?
        b.  Can all Tribes with Tribal Access Program (TAP) terminals 
        access the FBI's criminal databases for the civil purposes 
        referenced by Chief Justice Demmert?
        c.  If Tribes cannot use these databases for civil purposes, 
        what statutory changes would Congress need to make to grant 
        Tribes access for these purposes?
Committee Rule Compliance
    Question 7. According to Committee Rule 4b, witnesses must submit 
testimony to the Committee 48 hours before the start of a hearing. Your 
testimony was received after the deadline. Please provide the date and 
time you submitted testimony to the Office of Management and Budget for 
clearance pursuant to Circular A-19.
                                 ______
                                 
    Written Questions Submitted by Hon. Brian Schatz to Tracy Toulou
    Question 1. Communities with a high Native population, including 
Hawaii, continue to have a disproportionately high number of child 
sexual exploitation--including child pornography, child sexual abuse, 
and child sex trafficking--victims. In many areas, this stems from a 
lack of coordination between federal, state, local, tribal, and 
military law enforcement agencies on issues stemming from child 
pornography to child sex trafficking. For example, while the Federal 
Bureau of Investigation, Homeland Security Investigations, 61 Internet 
Crimes Against Children (ICAC) Task Forces, and over 4,000 state and 
local law enforcement agencies are both trained on and use the ICAC 
Child Online Protective Services (ICACCOPS) program to identify unique 
Internet Protocol (IP) addresses used for the peer-to- peer file 
trading of child pornography. Military criminal investigative 
organizations, however, do not train on or use the ICACCOPS program. 
Would the department be supportive of working with military law 
enforcement agencies--in addition to continuing the current work with 
state and local law enforcement--to incorporate training on how best to 
identify, track, and combat the trading of child pornography?

    Question 2. In discussions with stakeholders in Hawaii, a 
consistent problem with addressing child sexual exploitation is the 
issue of collecting and managing data on the number of victims 
identified or rescued each year. Anecdotally, we have heard from 
service providers that Native Hawaiian children make up over 90 percent 
of victims of in Hawaii. What percentage of domestic child sexual 
exploitation victims are Native American, including American Indian, 
Alaska Native, and Native Hawaiian children?

    Question 3. A 2017 Government Accountability Office report found 
that while data on child sexual exploitation is collected by Department 
of Justice grantee programs, and by the Office of Juvenile Justice and 
Delinquency Prevention for minors, but the only easily accessible data 
comes from the National Human Trafficking Hotline. How can we improve 
both the data collection and reporting on these crimes, to better help 
policymakers craft effective solutions?

                                  [all]
</pre></body></html>
